No. 19-46

In the Supreme Court of the United States
UNITED STATES PATENT AND TRADEMARK OFFICE,
ET AL., PETITIONERS
v.
BOOKING.COM B.V.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

JOINT APPENDIX

NOEL J. FRANCISCO
Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel of Record
for Petitioners

LISA SCHIAVO BLATT
Williams & Connolly LLP
725 12th Street, N.W.
Washington, D.C. 20005
lblatt@wc.com
(202) 434-5050

Counsel of Record
for Respondent

PETITION FOR A WRIT OF CERTIORARI FILED: JULY 5, 2019
CERTIORARI GRANTED: NOV. 8, 2019

TABLE OF CONTENTS

Page
Court of appeals docket entries
(17-2458)................................................................................. 1
District court docket entries
(1:16-cv-00425-LMB-IDD) ................................................... 8
Declaration of Rutger Prakke (Nov. 7, 2012) ..................... 16
Declaration of Jaap van den Broek (Nov. 7, 2012) ............. 23
Expert report of Hal Poret (Sept. 6, 2016) ......................... 35
Excerpts from expert report of Sarah-Jane Leslie
(Sept. 12, 2016) .................................................................. 135
List of international registered trademarks..................... 140
Declaration of Todd Dunlap (Sept. 12, 2016) .................... 143
Excerpts from telephonic deposition of
Edward Blair, Ph.D. (Nov. 16, 2016) .............................. 150
Declaration of Sarah-Jane Leslie (Jan. 10, 2017) ............. 157
Response to expert report of Edward A. Blair, Ph.D.
(Oct. 28, 2016) .................................................................... 159
Excerpts from response to office action............................ 190
Excerpts from plaintiff ’s response to defendants’
first set of interrogatories (Nov. 8, 2016) ....................... 195
Declaration of Edward A. Blair (Oct. 14, 2016) ................ 255
Expert report of Edward A. Blair, Ph.D.
(Dec. 9, 2016) ..................................................................... 256
Excerpts from deposition of Hal Poret
(Oct. 13, 2016) .................................................................... 296
Trademark Trial and Appeal Board (TTAB) decision
(Feb. 18, 2016) ................................................................... 309
Deposition of Sarah-Jane Leslie Ph.D.
(Nov. 14, 2016) ................................................................... 356

(I)

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

Docket No. 17-2458
BOOKING.COM B.V., PLAINTIFF-APPELLEE
v.
UNITED STATES PATENT & TRADEMARK OFFICE;
ANDREI IANCU, IN HIS OFFICIAL CAPACITY AS UNDER
SECRETARY OF COMMERCE FOR INTELLECTUAL
PROPERTY AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE; JOSEPH MATAL,
PERFORMING THE FUNCTIONS AND DUTIES OF UNDER
THE SECRETARY OF COMMERCE FOR INTELLECTUAL
PROPERTY AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE; MICHELLE K. LEE,
IN HER OFFICIAL CAPACITY AS DIRECTOR OF THE
UNITED STATES PATENT AND TRADEMARK OFFICE,
DEFENDANTS-APPELLANTS
DOCKET ENTRIES
DATE

12/28/17

DOCKET
NUMBER

3

PROCEEDINGS

ORDER filed [1000215639] consolidating case 17-2459 with
17-2458.
Cross-appeal appellants: United States Patent and
Trademark Office, Joseph Matal.
Copies to all parties. [17-2458,
17-2459]
KH
[Entered:
12/28/2017 03:03 PM]
*

*

*

(1)

*

*

2
DATE

DOCKET
NUMBER

3/12/18

21

BRIEF by Appellants Andrei
Iancu and United States Patent &
Trademark Office in 17-2458,
Appellees Andrei Iancu and United States Patent & Trademark
Office in 17-2459 in electronic and
paper format.
Type of Brief:
OPENING.
Method of Filing
Paper Copies: mail. Date Paper Copies Mailed, Dispatched, or
Delivered to Court: 03/13/2018.
[1000256451] [17-2458, 17-2459]
Tyce Walters [Entered: 03/12/
2018 10:16 PM]

3/12/18

22

Joint FULL ELECTRONIC APPENDIX and full paper appendix
by Appellants Andrei Iancu and
United States Patent & Trademark Office in 17-2458, Appellees
Andrei Iancu and United States
Patent & Trademark Office in
17-2459. Method of Filing Paper
Copies: mail. Date paper copies mailed dispatched or delivered
to court: 03/13/2018. [1000256452]
[17-2458, 17-2459] Tyce Walters
[Entered: 03/12/2018 10:23 PM]

PROCEEDINGS

*
3/19/18

25

*

*

*

*

AMICUS CURIAE BRIEF by
American Intellectual Property

3
DATE

DOCKET
NUMBER

PROCEEDINGS

Law Association in electronic and
paper format. Method of Filing
Paper Copies:
hand delivery.
Date Paper Copies Mailed, Dispatched, or Delivered to Court:
03/19/2018. [1000260391] [17-2458,
17-2459] Theodore Davis [Entered: 03/19/2018 03:49 PM]
*
4/11/18

31

37

*

*

*

BRIEF by Appellee Booking.com
B.V. in 17-2458 in electronic and
paper format.
Type of Brief:
OPENING/RESPONSE. Method
of Filing Paper Copies:
mail.
Date Paper Copies Mailed, Dispatched, or Delivered to Court:
04/11/2018. [1000274793] [17-2458,
17-2459]—[Edited 04/12/2018 by
MFT—text modified] Jonathan
Moskin [Entered:
04/11/2018
05:36 PM]
*

5/29/18

*

*

*

*

*

BRIEF by Appellants Andrei
Iancu and United States Patent &
Trademark Office in 17-2458,
Appellees Andrei Iancu and United States Patent & Trademark
Office in 17-2459 in electronic and
paper format.
Type of Brief:
RESPONSE/REPLY.
Method

4
DATE

DOCKET
NUMBER

PROCEEDINGS

of Filing Paper Copies:
mail.
Date Paper Copies Mailed, Dispatched, or Delivered to Court:
05/30/2018. [1000303169] [17-2458,
17-2459] Tyce Walters [Entered:
05/29/2018 07:19 PM]
*
6/12/18

39

56

*

*

*

BRIEF by Appellee Booking.com
B.V. in 17-2458, Appellant Booking.
com B.V. in 17-2459 in electronic
and paper format. Type of Brief:
REPLY. Method of Filing Paper
Copies: mail. Date Paper Copies Mailed, Dispatched, or Delivered to Court:
06/12/2018.
[1000311279] [17-2458, 17-2459]
Jonathan
Moskin
[Entered:
06/12/2018 04:48 PM]
*

10/31/18

*

*

*

*

*

ORAL ARGUMENT heard before
the Honorable Robert B. King,
Allyson K. Duncan and James A.
Wynn, Jr..
Attorneys arguing
case: Tyce R. Walters for Appellants United States Patent &
Trademark Office and Andrei
Iancu and Jonathan Ellis Moskin
for Appellee Booking.com B.V. in
17-2458, Jonathan Ellis Moskin for
Appellant Booking.com B.V. and

5
DATE

DOCKET
NUMBER

PROCEEDINGS

Tyce R. Walters for Appellees
United States Patent & Trademark Office and Andrei Iancu in
17-2459.
Courtroom Deputy:
Emily Borneisen.
[1000395324]
[17-2458, 17-2459] EB [Entered:
10/31/2018 01:06 PM]
*
2/4/19

59

61

63

*

*

*

*

*

*

AMENDED
OPINION
filed
amending and superseding opinion
dated February 4, 2019. Originating
case
number:
1:16-cv-00425-LMB-IDD. Copies
to all parties. [17-2458, 17-2459]
KH [Entered: 02/27/2019 09:12
AM]
*

3/21/19

*

JUDGMENT ORDER filed. Decision: Affirmed. Originating case
number: 1:16-cv-00425-LMB-IDD.
Entered on Docket Date: 02/04/
2019. [1000450531] Copies to all
parties and the district court/
agency.
[17-2458, 17-2459] TF
[Entered: 02/04/2019 10:55 AM]
*

2/27/19

*

*

*

*

*

MOTION by Booking.com B.V. in
17-2459 to stay mandate. Date
and method of service: 03/21/2019

6
DATE

DOCKET
NUMBER

PROCEEDINGS

ecf.
[1000479926]
[17-2458,
17-2459] Jonathan Moskin [Entered: 03/21/2019 06:55 PM]
3/21/19

64

PETITION for rehearing en banc
by Andrei Iancu and United
States Patent & Trademark Office
in 17-2458, 17-2459.
[17-2458,
17-2459]—[Edited 03/25/2019 by
LDJ to modify event to reflect
rehearing en banc relief only]
Tyce
Walters
[Entered:
03/21/2019 07:32 PM]

3/22/19

65

Letter re: petition for rehearing
en banc filed March 21, 2019,
clarifying that the government
does not request panel rehearing
[64] Motion by Andrei Iancu and
United States Patent & Trademark Office in 17-2458, 17-2459.
[1000480638] [17-2458, 17-2459]
Tyce Walters [Entered: 03/22/2019
06:07 PM]
*

4/5/19

67

*

*

*

*

COURT
ORDER
filed
[1000488096] denying Motion for
rehearing en banc [64] Copies to
all parties.
[17-2458, 17-2459]
KH [Entered: 04/05/2019 09:14
AM]

7
DATE

DOCKET
NUMBER

4/5/19

68

COURT
ORDER
filed
[1000488625] Court order filed
deconsolidating
17-2458
and
17-2459, staying the mandate in
17-2459 pending Supreme Court
decision in Iancu v. Nantkwest.
[63] Copies to all parties.
[17-2458, 17-2459] KH [Entered:
04/05/2019 04:03 PM]

4/15/19

69

Mandate issued.
Referencing:
[61] amending order/opinion, [59]
Judgment order. Originating case
number: 1:16-cv-00425-LMB-IDD.
[17-2458]
KH
[Entered:
04/15/2019 11:24 AM]

PROCEEDINGS

*

*

*

*

*

8
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
(ALEXANDRIA)

Civil Docket for Case: 1:16-cv-00425-LMB-IDD
BOOKING.COM B.V., PLAINTIFF
v.
MICHELLE K. LEE, IN HER OFFICIAL CAPACITY AS
DIRECTOR OF THE UNITED STATES PATENT AND
TRADEMARK OFFICE; THE UNITED STATES PATENT
AND TRADEMARK OFFICE; JOSEPH MATAL, PERFORMING
THE FUNCTIONS AND DUTIES OF UNDER THE SECRETARY
OF COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR OF THE UNITED STATES PATENT AND
TRADEMARK OFFICE, DEFENDANTS
DOCKET ENTRIES
DATE

DOCKET
NUMBER

4/15/16

1

PROCEEDINGS

COMPLAINT against Michelle K.
Lee, The United States Patent
and Trademark Office filed by
Booking.com B.V. (Filing fee
$400.00,
receipt
number
14683058547).
(Attachments:
# 1 Cover Letter, # 2 Civil Cover
Sheet, # 3 Receipt) (pmil,) (Entered: 04/19/2016)
*

6/28/16

15

*

*

*

*

ANSWER to 1 Complaint by
Michelle K. Lee, The United
States Patent and Trademark

9
DATE

DOCKET
NUMBER

PROCEEDINGS

Office. (Barghaan, Dennis) (Entered: 06/28/2016)
*

*

*

*

*

12/9/16

60

MOTION for Summary Judgment
by Michelle K. Lee, The United
States Patent and Trademark
Office. (Barghaan, Dennis) (Entered: 12/09/2016)

12/9/16

61

Memorandum in Support re 60
MOTION for Summary Judgment
filed by Michelle K. Lee, The
United States Patent and Trademark Office.
(Attachments:
# 1 Exhibit A part 1, # 2 Exhibit
A part 2, # 3 Exhibit B, # 4 Exhibit C, # 5 Exhibit D, # 6 Exhibit
E, # 7 Exhibit F, # 8 Exhibit G)
(Barghaan, Dennis) (Entered:
12/09/2016)
*

*

*

*

*

12/9/16

63

MOTION for Summary Judgment
by Booking.com B.V.. (Kapatkin,
Brian) (Entered: 12/09/2016)

12/9/16

64

Memorandum in Support re 63
MOTION for Summary Judgment
filed by Booking.com B.V.. (Attachments: # 1 Exhibit 1—Poret
Report, # 2 Exhibit 2—Leslie
Report, # 3 Affidavit A—Dunlap

10
DATE

DOCKET
NUMBER

PROCEEDINGS

Declaration,
#
4
Affidavit
B—Supp. Dunlap Declaration, # 5
Affidavit C—Moskin Declaration,
# 6 Affidavit D—Poret Declaration, # 7 Affidavit E—Leslie Declaration) (Kapatkin, Brian) (Entered: 12/09/2016)
*

*

*

*

*

1/13/17

71

Memorandum in Opposition re 63
MOTION for Summary Judgment
filed by Michelle K. Lee, The
United States Patent and Trade(Attachments:
mark Office.
# 1 Exhibit H) (Barghaan, Dennis) (Entered: 01/13/2017)

1/13/17

72

Memorandum in Opposition re 60
MOTION for Summary Judgment
filed by Booking.com B.V.. (Attachments: # 1 Exhibit A, # 2
Exhibit B, # 3 Exhibit C, # 4
Affidavit Moskin Declaration, # 5
Affidavit Leslie Declaration) (KaBrian)
(Entered:
patkin,
01/13/2017)
*

1/25/17

74

*

*

*

*

Reply to Motion re 63 MOTION
for Summary Judgment filed by
Booking.com B.V.. (Kapatkin,
Brian) (Entered: 01/25/2017)

11
DATE

DOCKET
NUMBER

1/25/17

75

PROCEEDINGS

REPLY to Response to Motion re
60 MOTION for Summary Judgment filed by Michelle K. Lee, The
United States Patent and Trademark Office. (Attachments: # 1
Exhibit I, # 2 Exhibit J) (Barghaan,
Dennis)
(Entered:
01/25/2017)
*

*

*

*

*

8/9/17

87

MEMORANDUM OPINION re:
Cross-Motions
for
Summary
Judgment.
Signed by District
Judge Leonie M. Brinkema on
08/09/17.
(pmil,)
(Entered:
08/09/2017)

8/9/17

88

ORDER, for the reasons in the
accompanying
Memorandum
Opinion, pltf ’s 63 Motion for
Summary Judgment is GRANTED IN PART AND DENIED IN
PART; Defts’ 60 Motion for Summary Judgment is GRANTED IN
PART AND DENIED IN PART;
the United States Patent and
Trademark Office register pltf ’s
marks in the ’998 Application and
’097 Application as to the Class 43
services; the ’365 and ’366 Applications be and are remanded to
the USPTO for further adminis-

12
DATE

DOCKET
NUMBER

PROCEEDINGS

trative proceedings consistent with
the findings and conclusions of the
accompanying Memorandum Opinion to determine whether the
design and color elements in those
two applications, in combination
with the protectable word mark,
are eligible for protection as to the
Class 43 services; Judgment be
and is entered in favor of the defts
as to the Class 39 services for all
four applications and in favor of
pltf for the marks in the ’998 Application and ’097 Application as to
the Class 43 services (see Order
for details). Signed by District
Judge Leonie M. Brinkema on
08/09/17.
(pmil,) (Entered:
08/09/2017)
8/9/17

89

JUDGMENT is hereby entered in
favor of the defendants as to the
Class 39 services for all four applications and in favor of the
plaintiff for the marks in the 998
Application and 097 Application as
to the Class 43 services. (Entered by Clerk on 08/09/17 pursuant to FRCP 58) (pmil,) (Entered:
08/09/2017)
*

*

*

*

*

13
DATE

DOCKET
NUMBER

9/6/17

94

MOTION to Alter Judgment by
Joseph Matal, The United States
Patent and Trademark Office.
(Barghaan, Dennis) (Entered:
09/06/2017)

9/6/17

95

Memorandum in Support re 94
MOTION to Alter Judgment filed
by Joseph Matal, The United
States Patent and Trademark
Office. (Barghaan, Dennis) (Entered: 09/06/2017)

PROCEEDINGS

*
9/13/17

97

101

110

*

*

*

*

*

*

REPLY to Response to Motion re
94 MOTION to Alter Judgment
filed by Joseph Matal, The United
States Patent and Trademark
Office. (Barghaan, Dennis) (Entered: 09/19/2017)
*

10/26/17

*

Memorandum in Partial Opposition to 94 MOTION to Alter
Judgment filed by Booking.com
B.V..
(Kapatkin, Brian) (Entered: 09/13/2017)
*

9/19/17

*

*

*

*

*

MEMORANDUM
OPINION.
Signed by District Judge Leonie

14
DATE

DOCKET
NUMBER

PROCEEDINGS

M.
Brinkema
on
10/26/17.
(gwalk,) (Entered: 10/26/2017)
10/26/17

111

ORDER—For the reasons stated
in the accompanying Memorandum Opinion, defendants’ Motion
to Amend Judgment 94 is
GRANTED IN PART AND DENIED IN PART; and defendants’
Motion for Expenses 98 is
GRANTED; and it is hereby
ORDERED that the Order issued
on August 9, 2017 88 be and is
VACATED, and the Clerk shall
file an Amended Judgment Order
to
be
concurrently
issued.
Signed by District Judge Leonie
M.
Brinkema
on
10/26/17.
(gwalk,) (Entered: 10/26/2017)

10/26/17

112

AMENDED JUDGMENT ORDER. Signed by District Judge
Leonie M. Brinkema on 10/26/17.
(gwalk,) (Entered: 10/26/2017)
*

12/22/17

118

*

*

*

*

NOTICE OF APPEAL as to 112
Order by Joseph Matal, The
United States Patent and Trademark Office. (Barghaan, Dennis)
(Main Document 118 replaced on
12/27/2017) to correct transmis-

15
DATE

DOCKET
NUMBER

PROCEEDINGS

sion error (acha,).
12/22/2017)
12/26/17

119

(Entered:

NOTICE OF CROSS APPEAL by
Booking.com B.V..
Filing fee
$505,
receipt
number
0422-5873486. (Kapatkin, Brian)
(Entered: 12/26/2017)
*

*

*

*

*

16
Atty. Dkt. No. 096981-0115
IN THE UNITED STATES PATENT AND
TRADEMARK OFFICE

Mark:
Serial:

79/122366

Filing Date: Nov. 7, 2012
Applicant:

Booking.com B.V.

Examiner:

Nelson B. Snyder
Law Office 107

DECLARATION UNDER 37 C.F.R. § 2.20 OF ACQUIRED
DISTINCTIVENESS UNDER SECTION 2(f )

The undersigned hereby declares as follows:
1. I am an authorized representative of the Applicant corporation and am authorized to sign this
Declaration on behalf of the Applicant.
2. Applicant was incorporated in 1996. Applicant
has been providing hotels and consumers alike with an
online hotel reservation service through which hotels
all over the world can advertise their rooms for reservation and through which consumers all over the world
can make reservations. Between 1996 and June 2006,
Applicant provided this service using the mark
BOOKINGS. In June 2006, Applicant modified its
mark to BOOKING.COM and has been providing services under that mark since then.
3. In connection with its mark BOOKING.COM,
Applicant offers customers the ability to make reserva-

17
tions at over 446,000 hotels and accommodationsproviders in over 200 countries.
4. The total transaction value of mobile accommodation reservations made through the BOOKING.
COM website more than doubled from over $3 billion in
2012 to over $8 billion in 2013.
5. Applicant’s BOOKING.COM branded website
receives over thirty million (30,000,000) unique visitors
each month.
6. Over the past six months, Applicant’s BOOKING.
COM branded website has received an average of 10.3
million (10,374,527) unique visitors from the United
States per month. Below is a true screenshot of
Quantcast, a web metrics tool, that shows the number
of unique visitors to BOOKING.COM from the United
States as follows: 10,631,010 (Aug. 2013), 9,918,025
(Sept. 2013), 8,618,932 (Oct. 2013), 7,122,169 (Nov.
2013), 7,061,055 (Dec. 2013), 9,678,611 (Jan. 2014).

18

7. Over 625,000 room nights are reserved through
Applicant’s BOOKING.COM service every day.
8. Applicant offers its BOOKING.COM service in
more than 40 languages.
9. There are over 2.2 million United States-based
subscribers to newsletters branded under the BOOKING.
COM mark. These newsletters advertise Applicant’s
BOOKING.COM service and are sent out an average of
2-3 times per month.
10. Applicant has reached millions of American
television viewers through BOOKING.COM television
commercials aired on the following channels: ABC,

19
CBS, NBC, Sports, Fox Soccer, MSNBC, TBS, TNT,
A&E, History, USA, Comedy Central, Bravo, HGTV,
FX, IFC, Travel, Style, E!, TNT, AMC, ESPN, BBC,
DIY, Fox Soccer, NBA TV, Science Channel, TLC, Nat
Geo, SYFY, Spike, and TruTV, among others.
11. Applicant’s BOOKING.COM services has received numerous industry awards, including, for example:
•

J.D. Power and Associates, a premier research
and analytics firm, ranked BOOKING.COM
First in Consumer Satisfaction among independent travel websites based on a consumer
survey (awarded in 2013);

•

Hospitality Sales & Marketing Association International, the hospitality industry’s leading
advocate for intelligent, sustainable hotel revenue growth, awarded Booking.com a “Gold” level
Adrian Award for its 2013 BOOKING.YEAH
advertising campaign (awarded in 2014);

•

Mobile Travel & Tourism awarded BOOKING.
COM the “Best Tablet App” (awarded in 2014);

•

Mobile Travel & Tourism awarded BOOKING.
COM the Best Mobile Site. (awarded in 2014).

Copies of these awards or press about the awards is
attached as composite Exhibit A.
12. In the first quarter of 2013, Applicant reached
over 20 million (20,000,000) American consumers
through BOOKING.COM commercials broadcast in
movie theaters prior to the feature film.

20
13. In the first quarter of 2013, Applicant reached
over 19 million (19,000,000) American consumers
through BOOKING.COM Internet commercials
streamed on websites such as Hulu.com, Tremor.com,
and YouTube.com.
14. On the social media website, Facebook.com,
over 1.8 million people have “liked” BOOKING.COM
and nearly 58,000 consumers are “talking about”
BOOKING.COM.
Below is a true and correct
screenshot from BOOKING.COM Facebook page.

15. On the micro-blogging site Twitter, over 42,000
people are “following” BOOKING.COM. Consumers
frequently use @bookingcom to engage Applicant in
dialogue through Twitter.
16. A search for Applicant’s mark BOOKING.COM
on the Google News service generated over 2,000 unsolicited news articles.
These news articles use
BOOKING.COM to refer to Applicant, specifically. A
representative sample of these articles include the
following:
•

NBC News, “Hotel booking giant Booking.com
flexes muscle in US,” by Rob Lovitt, available
at http://www.nbcnews.com/travel/travelkit/hotel-

21
booking-giant-booking-com-f lexes-muscle-us1B8068233 (January 23, 2013).
•

Orlando Business Journal, “Booking.com adding
200 positions in Orlando,” by Cindy Barth,
available at http://www.bizjournals.com/orlando/
news/2013/01/30/bookingcom-adding-200-positionsin.html (January 30, 2013).

•

ADWEEK, “Ad of the Day: Booking.com,” by
Gabriel Beltrone, available at http://www.adweek.
com/news/advertising-branding/ad-day-booking
com-146688 (January 22, 2013).

•

Los Angeles Times, “Readers recommend:
Booking.com for last-minute hotel reservations,”
by John Alkema, available at http://articles.latimes.
com/2011/dec/10/travel/la-tr-recs-20111207 (December 10, 2011).

•

Hospitality.net, “Booking.com Announces Distribution Agreement with Marriott International,” available at http://www.hospitalitynet.org/news/
154000320/4037753.html (September 17, 2008).

Copies of these articles are enclosed as Exhibit B to
this Declaration.
17. Although Booking.com maintains its actual advertising budgets and sales figures as confidential,
based on the above evidence and my knowledge of the
business, I am quite certain that the subject mark is
recognized as a source-identifier and has become distinctive of Applicant’s services through its substantial
sales and great commercial success, as well as its substantially exclusive and continuous use of the mark in
U.S. commerce for many years, including Applicant’s

22
substantially exclusive and continuous use of the subject mark in U.S. commerce for at least five (5) years
immediately before the date of this statement.
18. The undersigned, being hereby warned that
willful false statements and the like so made are punishable by fine or imprisonment, or both, under 18
U.S.C. 1001, and that such willful false statement may
jeopardize the validity of the application or any resulting registration, declares that the facts set forth in this
application and accompanying declaration are true:
all statements are made of his own knowledge are true:
and all statements made on information and belief are
believed to be true.
Applicant,
Booking.com B.V.
Date:

May 12, 2014
By: /s/

RUTGER MARINUS PRAKKE

Name:

Rutger Marinus Prakke

Title:

Director

23
IN THE UNITED STATES PATENT AND
TRADEMARK OFFICE

Mark:
Serial:

79/122.366

Filing Date: Nov. 7, 2012
Applicant:

Booking.com B.V.

Examiner:

Nelson B. Snyder III
Law Office 107

DECLARATION UNDER 37 C.F.R. § 2.20

The undersigned hereby declares as follows:
1. I am an authorized representative of the Applicant corporation and am authorized to sign this
Declaration on behalf of the Applicant. I base this
declaration on my personal knowledge and my complete access to the relevant books and records of
Booking.com B.V.
2. Based on my experience, it is clear to me that
Applicant’s BOOKING.COM mark is distinctive and
that it functions as a source-identifier for Applicant and
its online accommodation reservation services.
3. Applicant has advertised its BOOKING.COM
mark extensively in the United States through web
advertisements, television commercials, movie theatre
previews, cross-linking partnerships with other major
websites, social media participation, direct mailings,
and other channels of advertising.

24
4. Through its various forms of advertising, Applicant has consistently reached millions of American
consumers over several years. As the examples in
this declaration show, Applicant’s BOOKING.COM
mark is always used as a unitary mark and displayed in
such a manner that consumers are likely to perceive
“BOOKING.COM” as a unitary and distinctive mark.
5. The following web banners were displayed on
the homepage of the popular travel website TripAdvisor.
com in May 2013.

6. In each of the foregoing advertisements,
BOOKING.COM is used as a unitary mark. Given the
nature of use, prominent placement, and use of contrasting color scheme in which the color of the mark is
tied to the color of the “action” button, BOOKING.

25
COM is presented to consumers viewing these advertisements as the brand name for Applicant’s services,
not as a generic term naming travel websites, generally. Applicant’s use of the descriptive phrase “Planet
Earth’s #1 Accommodation Site” in close proximity to
its trademark BOOKING.COM further underscores
that consumers are likely to recognize Applicant’s mark
as a distinctive trademark. The descriptive term for the
services is “Accommodation Site;” the trademark is
BOOKING.COM.
7. BOOKING.COM partnered with the popular online movie ticket vendor Fandango.com for a Halloweenthemed promotion from October 25, 2013 to October 31,
2013. Fandango sells approximately 80% of all online
movie tickets.
8. The BOOKING.COM promotion on Fandango
included a special “House of Horrors” tab on the home
page for Fandango. When a user clicked on the tab,
he or she would reach a “House of Horrors” home page
featuring BOOKING.COM-created and branded movie
posters and short videos about humorous “travel horrors.” The following chart shows the user’s experience from the home page, to the “House of Horrors”
page, to a BOOKING.COM listing housed on the Fandango website.

26
9. Complementing this promotion, Booking.com
also purchased the rights to the background “skin” on
the Fandango website as shown below with “The Queen
Anne Hotel” mock movie “presented by” BOOKING.
COM.

10. Booking.com also created posters for mock
movies, such as “The Gettysburg Hotel” “presented
by” BOOKING.COM. The credits at the bottom of
the movie poster provide information about the
BOOKING.COM service and the actual Gettysburg
Hotel.

27

11. Visitors that clicked on the BOOKING.COM
promotions on the Fandango website were directed to
related content on the BOOKING.COM website, which

28
resulted in an increase in web traffic to the BOOKING.
COM website.

12. The Fandango promotion reached approximately 6.6 million viewers.
13. Through these and other creative, fun, and unconventional promotions, Booking.com has set itself
apart as a unique service provider and has cultivated a
distinctive public image and brand. In each of these
advertisements, the BOOKING.COM mark appears as
a prominent, unitary mark and is used in such a way
that consumers are likely to perceive it as a sourceindicator rather than as a generic or descriptive term
for a type of travel website.
14. That consumers perceive BOOKING.COM as a
source indicator is not mere conjecture; it is evident
from the tens of thousands of unsolicited customer
reviews and comments about BOOKING.COM available online. Each of these customer reviews plainly
uses and recognizes BOOKING.COM as a trademark
identifying a single source, not as a generic term referring to travel websites generally. Attached as Exhibit
1 to this Declaration are true and correct printouts
from Review Center which has 9,672 reviews for
BOOKING.COM with an average rating of 4.4 out of 5
stars (http://www.reviewcentre.com/reviews195173.html)
and Feefo which has 57,396 reviews for BOOKING.COM

29
with an aggregate rating of 94% (http://www.feefo.com/
GB/en/reviews/Bookingcom_gb/?id=575437&mode=
service).
15. The fact that consumers perceive BOOKING.
COM as a source indicator is also evident from the
interactions between consumers and Applicant on
social media. For example, over 54,300 individuals
“follow” Booking.com on the social media site Twitter.
Based on publicly available data from www.twitter.com,
this is more “followers” than comparable travel accommodation sites such as HOTELS.COM (51,400 followers), TRIVAGO (16,700 followers) and HOTWIRE
(18,500 followers).
True and correct screenshots
taken September 24, 2014 of portions of the Twitter
pages for these companies showing the number of
“followers” are reproduced below.

30

16. Customers regularly communicate directly with
Applicant through Twitter. Below are screenshots
taken September 23, 2014 of customers using the
Twitter handle @bookingcom to contact Applicant.
This further demonstrates that consumers perceive
BOOKING.COM as a unitary mark that points
uniquely and exclusively to Applicant, rather than as a
generic name for a type of travel service.

31

17. Over 2,705,400 individuals have “liked” Booking.
com’s BOOKING.COM branded page on the social
media site Facebook. The number of “likes” by consumers demonstrates strong customer loyalty and
recognition of BOOKING.COM as a brand. For context, the number of individuals that have “liked” the
BOOKING.COM page on Facebook is significantly
higher than those that have liked the pages of comparable companies such as Travelocity (291,792 “likes”),
Hotels.com (2,203.236 “likes”), TravelZoo (1,748,350
“likes”), and Orbitz (581,764 “likes”), based on publicly
available data from www.facebook.com. True and
correct screenshots taken September 23, 2014 of por-

32
tions of the Facebook pages for the above-referenced
companies showing the number of “likes” are reproduced below.

14. Booking.com frequently promotes its BOOKING.
COM mark in conjunction with or in close proximity
to its B-dot Logo (Reg. No. 4,460,494). 1 An example
of this type of advertising is the Booking.com main website which uses the B-dot Logo as the “favicon” in the
browser tab. The B-dot Logo appears adjacent to the
word mark BOOKING.COM. The B-dot Logo also
appears in alerts to customers and in the BOOKING.
COM mobile app. This type of advertising underscores to consumers that BOOKING.COM must be
viewed as a unitary mark in which the “dot” is an integral component.

Copies of Applicant’s registrations for the B-dot Logo and
BOOKING.YEAH are attached as Exhibit 2 to this Declaration.
1

33

15. Applicant’s family of marks, including its
BOOKING.COM, B-dot Logo, and BOOKING.YEAH
(Reg. No. 4491012) marks use a consistent dark blue,
light blue, and white color scheme, letter stylization
and overall look. The unified branding contributes to
the distinctiveness of Applicant’s applied-for mark.
An example of a BOOKING.YEAH advertisement
appears below.

34
16. Based on the above evidence and my knowledge
of the business, I am quite certain that the subject
mark is recognized as a source-identifier by the relevant consumers.
17. The undersigned, being hereby warned that
willful false statements and the like so made are punishable by fine or imprisonment, or both, under 18 U.S.C.
1001, and that such willful statements may jeopardize
the validity of the application or any resulting registration, declares that the facts set forth in this application
and accompanying declaration are true; all statements
are made of his own knowledge are true; and all statements made on information and belief are believed to
be true.
Applicant,
Booking.com B.V.
Date:

Oct. 10, 2014
By:

/s/

JAAP VAN DEN BROEK

Name:

Jaap van den Broek

Title:

Legal Counsel

35

EXPERT REPORT OF HAL PORET
*******************************
SURVEY TO ASSESS WHETHER BOOKING.COM
IS PERCEIVED TO BE A TRADEMARK OR A
GENERIC NAME

REPORT PREPARED FOR:
Foley & Lardner LLP
PREPARED BY:
Hal Poret
142 Hunter Ave
Sleepy Hollow, NY 10591
Sept. 2016

36
TABLE OF CONTENTS
Page #
BACKGROUND AND PURPOSE-----------------

[37]

STUDY AUTHORSHIP AND
QUALIFICATIONS -------------------------------

[41]

STUDY DESIGN---------------------------------------

[43]

SUMMARY OF FINDINGS-------------------------

[53]

METHODOLOGY--------------------------------------

[55]

THE RELEVANT UNIVERSE OF
INTEREST-------------------------------------------

[55]

SAMPLING PLAN---------------------------------

[57]

DATA PROCESSING -----------------------------

[61]

INTERVIEWING PROCEDURES ------------ [62]
DOUBLE-BLIND INTERVIEWING---------- [62]
INTERVIEWING PERIOD ---------------------- [62]
QUALITY CONTROL ------------------------------ [62]
DETAILED FINDINGS ------------------------------ [65]
THE FOLLOWING APPENDICES ARE PROVIDED SEPARATELY:
APPENDIX A:
APPENDIX B:
APPENDIX C:
APPENDIX D:

CURRICULUM VITAE OF
STUDY’S AUTHOR
QUESTIONNAIRE
SCREENSHOTS OF SURVEY
SURVEY DATA FILE

37
BACKGROUND AND PURPOSE

Booking.com B.V. filed four applications for the mark
BOOKING.COM for the following services:
Serial No. 79122365

Hotel reservation services for
others; holiday accommodation

Serial No. 79122366

reservation services and resort
reservation services, namely,
providing hotel room reservation services and resort hotel
reservation services and providing online hotel and resort
hotel room reservation services;
providing information about
hotels, hotel accommodations and
resorts accommodations, whether or not based on the valuation
of customers; information, advice and consultancy relating to
the aforesaid services; the aforesaid services also provided electronically,
in
International
Class 43.

Serial No. 85485097

Travel agency services, namely,
making reservations for transportation; travel and tour ticket
reservation services; travel agency services, namely, making
reservations for transportation
for tourists; provision of travel
information; providing consultation related to making reservations for transportation, and

38
travel and tour
tion; all of the
vices rendered
via the internet,
al Class 39.

ticket reservaforegoing serin-person and
in Internation-

Making hotel reservations for
others in person and via the internet; providing personalized
information about hotels and
temporary accommodations for
travel in-person and via the Internet; providing on-line reviews of hotels; consultation
services related to making hotel
reservations for others, provision of personalized information
about hotels and temporary accommodations for travel, and
on-line reviews of hotels, in International Class 43.
Serial No. 79114998

Arranging of tours and arranging of tours online; reservation
and sale of travel tickets and
online reservation and sale of
travel tickets; information, advice and consultancy regarding
the arranging of tours and the
reservation and sale of travel
tickets; provision of information
relating to travel and travel destinations; travel and tour agency services, namely, travel and
tour ticket reservation services;

39
travel agency services; tourist
agency services; providing online
travel and tourism services, namely, providing online travel and tour
ticket reservation services, online
travel agency services, online
tourist agency services and
providing online information relating to travel and travel destinations, in International Class 39.
Making hotel reservations for
others; holiday accommodation
reservation services and resort
reservation services, namely, providing hotel room reservation services and resort hotel reservation
services and providing online
hotel and resort hotel room reservation services; providing information about hotels, holiday
accommodations and resorts accommodations, whether or not
based on the valuation of customers; providing information,
advice and consultancy relating
making hotel reservations and
temporary accommodation reservations; providing online information, advice and consultancy relating making hotel reservations and temporary accommodation reservations, in International Class 43.

40
The applications were ultimately refused on the
grounds of genericness, and the matters were appealed
to the Trademark Trial and Appeal Board (“TTAB”),
which affirmed the refusals to register the marks.
Foley & Lardner retained me to design and conduct a
survey to determine the extent to which, if at all, the
term BOOKING.COM is perceived to be a generic
term by the relevant consumers.
In connection with designing my survey and preparing
this report, I reviewed the following materials: (1)
Booking.com website; (2) Application Nos. 79122365
and 7912236, 79114998, 85485097; (3) TTABVUE
Online files for the relevant applications; (4) TTAB
decision in In re Booking.com B.V. dated February 18,
2016 (Serial Nos. 79122365 and 7912236); (5) TTAB
decision in In re Hotels.com, L.P., 87 USPQ2d 1110
(TTAB 2008); (6) Federal Circuit decision in In re
Hotels.com, L.P., 91 USPQ2d 1532 (Fed. Cir. 2009).
The fee charged for the survey is $40,000. This includes the fees paid to the survey programming and
sampling services and preparation of this report. Any
additional work in connection with this matter will be
charged at my rate of $625 per hour.

41
AUTHORSHIP AND QUALIFICATIONS

This study was designed, supervised, and implemented
by Hal L. Poret, President at Hal Poret, LLC.
I have personally designed, supervised, and implemented
approximately 1,000 surveys regarding the perceptions
and opinions of consumers. Over 200 have involved
consumer perception with respect to trademarks, and
over 200 have been conducted online. I have personally designed numerous studies that have been admitted as evidence in legal proceedings and I have been
accepted as an expert in survey research on numerous
occasions by U.S. District Courts, the Trademark Trial
and Appeal Board, the FTC, and the National Advertising Division of the Council of Better Business Bureaus (NAD).
I am a member of the American Association of Public
Opinion Research, publisher of Public Opinion Quarterly and the Journal of Survey Statistics and Methodology, the Council of American Survey Research
Organizations (CASRO), the International Trademark
Association, and the National Advertising Division of
the Council of Better Business Bureaus (NAD). I
routinely conduct market research surveys for a variety of small to large corporations and organizations.
I have frequently spoken at major intellectual property
and legal conferences on the topic of how to design and
conduct surveys that meet legal evidentiary standards
for reliability, including conferences held by the International Trademark Association (INTA), American
Intellectual Property Law Association, Practicing Law
Institute, Managing Intellectual Property, Promotions

42
Marketing Association, American Conference Institute,
and various bar organizations.
In addition to my survey research experience, I hold
bachelor’s and master’s degrees in mathematics and a
J.D. from Harvard Law School. Additional biographical material, including lists of testimony and publications, is provided in Appendix A.
/s/ HAL PORET
HAL PORET
Dated:

Sept. 6, 2016

43
STUDY DESIGN
A total of 400 respondents participated in this online
survey among consumers who search for or make hotel
or travel arrangements online. 1
The survey employed the well-accepted Teflon format
for assessing whether a term is generic. Following
the Tef lon format, respondents in the survey were
shown a series of terms (including the BOOKING.COM
mark at issue) one at a time and for each term were
asked if they believe the term is a trademark (i.e. a
brand name) or a generic term (i.e. a common name), or
if they don’t know. In order to address possible concerns that survey respondents might answer that any
DOT-COM name is a brand, I adapted the Teflon format in order to control for this issue. As discussed
below, the list of terms shown in the Teflon study included other DOT-COM terms to assess and control for
the extent to which respondents might assume and answer that any DOT-COM term is a brand name. This
allows us to compare the perceptions of BOOKING.
COM to other DOT-COM terms that clearly do or do
not function as brands in order to assess whether consumer perception of BOOKING.COM as a brand name
meaningfully exceeds the rate at which respondents
will answer that a generic term with “.com” at the end
is a brand.
In order to control for response-order bias, two versions of the survey were administered and each were
taken by half of all respondents. Version 1 of the

See the Sampling section of this report for more information
regarding who qualified for and completed the survey.
1

44
survey first presented the concept of what a “brand
name” is, followed by what a “common name” is.
Meanwhile, Version 2 first presented the concept of
what a “common name” is, followed by what a “brand
name” is.
As this was an online survey, all of the instructions and
questions were displayed on respondents’ computer
screens and each question appeared on its own screen.
Version 1
After a series of initial screening questions, all respondents were prompted as follows:
This survey is about brand names and common
names. In a few moments you will be asked about a
number of terms that you may or may not have seen
or heard before. But first, please read the next two
screens about what we mean by a brand name and
what we mean by a common name.
On a new screen, respondents were then informed:
Brand names are names that companies use to
identify who a product or service comes from.
Brands names primarily let the consumer know that
a product or service comes from a specific company.
For example, TOYOTA, CHASE, and STAPLES.
COM are all brand names. These terms primarily
identify for a consumer who a product or service
comes from.
STAPLES.COM was included in the examples of
brands as an illustration of a DOT-COM term that is a
trademark.

45
And then on the next screen:
Common names are words used to identify a type of
product or service—in other words, what the product or service is, not who makes it. Common names
primarily let the consumers know what type of
product or service is being offered.
For example, unlike the brand names TOYOTA,
CHASE, and STAPLES.COM; AUTOMOBILE,
BANK, AND OFFICESUPPLIES.COM are all
common names. These terms primarily identify for
the consumer what type of product or service a
company is selling, rather than who the product or
service comes from.
OFFICESUPPLIES.COM was included as an example
of a common term to illustrate that not all DOT-COM
terms are brand names and that a term that takes a
generic term such as OFFICE SUPPLIES and adds
“.com” can be a generic term.
Since
STAPLES.COM
(as
a
brand)
and
OFFICESUPPLIES.COM (as a generic term) were
both included in the examples, the survey neither gave
emphasis to “brand” or “common” in the case of DOTCOM terms. Rather, it was balanced and objective,
with no skewing in either direction.
Respondents were then asked:
Do you understand the difference between a brand
name and a common name?
Respondents who answered “Yes” continued with the
interview. Those who indicated they did not understand or were unsure about the concept of a “brand
name” versus “common name” did not continue and did

46
not ultimately count toward the final number of completed interviews.
Next, respondents were asked:
Which type of name would you say KELLOGG is?
• Brand name
• Common name
• Don’t know
Respondents were also asked:
Which type of name would you say CEREAL is?
• Brand name
• Common name
• Don’t know
Respondents who correctly answered that KELLOGG
is a brand name and that CEREAL is a common name
continued with the survey. Respondents who did not
correctly answer both these questions were excluded
from the survey and are not included in the survey data
or analysis.
Respondents who continued were then instructed:
You will now see a series of bolded terms, one at a
time, that you may or may not have seen or heard
before. Under each term, you will also see a description of products or services for that term. For
each term shown in bold, please answer whether you
think the term is a brand name or a common name in
the context of the products or services described.
Or if you don’t know, you may select that option.
Then, one at a time, respondents were shown one of
seven terms with product descriptions until all seven

47
terms had been seen. As each term appeared on
screen, respondents were asked:
Do you think this is a

. . .

• Brand name
• Common name
• Don’t know
The list of terms and product descriptions shown to
respondents included the following term at issue:
BOOKING.COM

Hotel and other lodging reservation services
Three trademark (i.e. brand name) terms:
ETRADE.COM

Stock and investor broker services
PEPSI

Cola and other soft drinks
SHUTTERFLY

Photo-sharing and photo gifts service
And three generic (i.e. common name) terms:
SPORTING GOODS

Products used in sports and other physical activity
WASHINGMACHINE.COM

Reviews and sales of washing machines
SUPERMARKET

Retail sale of food and other groceries
Asking respondents about all seven of these terms provided a benchmark against which to measure the pro-

48
portion of respondents who perceived BOOKING.COM
as a brand name or common name.
There were four separate rotations in which the order
of these terms were presented to respondents. Presenting the terms in four different rotations prevented
biasing of results due to the order in which the terms
were asked.
One quarter of all respondents were presented the
terms and product descriptions in each rotation.
Rotation 1:
•

BOOKING.COM Hotel and other lodging reservation services

•

SPORTING GOODS Products used in sports
and other physical activity

•

ETRADE.COM Stock and investor broker services

•

PEPSI Cola and other soft drinks

•

SHUTTERFLY Photo-sharing and photo gifts
service

•

WASHINGMACHINE.COM Reviews and sales
of washing machines

•

SUPERMARKET Retail sale of food and other
groceries

Rotation 2:
•

WASHINGMACHINE.COM Reviews and sales
of washing machines

•

SHUTTERFLY Photo-sharing and photo gifts
service

49
•

BOOKING.COM Hotel and other lodging reservation services

•

SPORTING GOODS Products used in sports
and other physical activity

•

PEPSI Cola and other soft drinks

•

ETRADE.COM Stock and investor broker services

•

SUPERMARKET Retail sale of food and other
groceries

Rotation 3:
•

SPORTING GOODS Products used in sports
and other physical activity

•

ETRADE.COM Stock and investor broker services

•

PEPSI Cola and other soft drinks

•

SUPERMARKET Retail sale of food and other
groceries

•

BOOKING.COM Hotel and other lodging reservation services

•

SHUTTERFLY Photo-sharing and photo gifts
service

•

WASHINGMACHINE.COM Reviews and sales
of washing machines

Rotation 4:
•

WASHINGMACHINE.COM Reviews and sales
of washing machines

•

SHUTTERFLY Photo-sharing and photo gifts
service

50
•

SUPERMARKET Retail sale of food and other
groceries

•

SPORTING GOODS Products used in sports
and other physical activity

•

ETRADE.COM Stock and investor broker services

•

PEPSI Cola and other soft drinks

•

BOOKING.COM Hotel and other lodging reservation services

These rotations were carefully structured so as not to
bias the responses to the term BOOKING.COM. Each
of the other six terms and product descriptions were shown
before BOOKING.COM in half of the rotations and after
BOOKING.COM in the other half. In addition, in each
rotation, the same number of brand names and common
names were shown prior to BOOKING. COM so that the
pattern of terms respondents saw before BOOKING.
COM could not bias expectations as to whether BOOKING.COM is a brand name or common name.
As indicated above, ETRADE.COM was included in the
lineup of terms as an example of a DOT-COM brand
name and WASHINGMACHINE.COM was included as
an example of a DOT-COM generic term. The inclusion
of WASHINGMACHINE.COM in particular allows us to
assess the extent to which respondents will identify a
generic term as a brand when “.com” is added to the end,
and to assess the extent to which the rate of perceiving
BOOKING.COM as a brand exceeds this “noise” level.
Version 2
Respondents in Version 2 took an identical survey with
the sole exception that the term “common name” was

51
always presented ahead of the term “brand name.”
This consistently occurred in three scenarios throughout the survey.
First, in Version 2, the term “common name” was presented in front of “brand name” in all descriptions or
questions regarding common name versus brand names.
For example, the following instructions was initially
shown to respondents in Version 2:
This survey is about common names and brand
names. In a few moments you will be asked about
a number of terms that you may or may not have
seen or heard before. But first, please read the
next two screens about what we mean by a common
name and what we mean by a brand name.
Respondents were next shown the concept of what a
common name is, followed by the concept of what a
brand name is. In Version 1 of the survey these two
concepts were presented in reverse order.
Second, any time respondents were given an option to
select either “common name” or “brand name” as a
possible answer, the order of these two response options was flipped. That is, response options to these
types of questions were always presented as follows to
respondents in Version 2: 2
• Common name
• Brand name
• Don’t know

In Version 1 “brand name” was the first option and “common
name” was second.
2

52
Third, the order in which the following two questions
(which assessed whether or not respondents correctly
perceived KELLOGG to be a brand name and CEREAL to be a common name) were asked was reversed. Accordingly, respondents in Version 2 were
first asked:
Which type of name would you say CEREAL is?
• Common name
• Brand name
• Don’t know
Followed by:
Which type of name would you say KELLOGG is?
• Common name
• Brand name
• Don’t know
Aside from these changes to the order in which “common name” and “brand name” were shown throughout
the survey, all aspects of the survey between Version 1
and Version 2 were identical.
This concluded the survey for all respondents.
Screenshots of the survey will be provided in Appendix C.

53
SUMMARY OF KEY FINDINGS

This section details certain key survey findings. Other survey results are discussed further in the Detailed
Findings section below.
1)

74.8% (299 out of 400) of all respondents identified BOOKING.COM to be a brand name.

2)

The other trademarks included in the survey
were also recognized as brand names by the
majority of respondents:
• PEPSI—was recognized as a brand name by
99.3% (397 out of 400).
• ETRADE.COM—was recognized as a brand
name by 96.8% (387 out of 400).
• SHUTTERFLY—was recognized as
brand name by 96.8% (387 out of 400).

3)

a

The generic names included in the survey were
similarly recognized as common names by the
vast majority of respondents:
• SUPERMARKET—was recognized as a
common name by 100% (400 out of 400).
• SPORTING GOODS—was recognized as a
common name by 99.5% (398 out of 400).
• WASHINGMACHINE.COM—was recognized as a common name by 60.8% (243 out
of 400).

4)

Only
30%
of
respondents
identified
WASHINGMACHINE.COM as a brand, a
dramatically lower rate than the 74.8% that
identified BOOKING.COM as a brand. The

54
fact that the large majority of respondents assessed WASHINGMACHINE.COM to be a generic term validates that the survey produces
reliable results with respect to DOT-COM names
and does not lead to the conclusion that any
DOT-COM name is a brand. Likewise, the fact
that the “brand” response for BOOKING.COM
exceeded the result for WASHINGMACHINE.
COM by a margin of nearly 45% validates that
the perception of BOOKING.COM is a brand is
not the product of any flaw in the survey process that leads to a DOT-COM term being improperly deemed a brand because it is a web
address.
5)

It is my opinion that these results strongly
establish that BOOKING.COM is not perceived
by consumers to be a generic term.

See Detailed Findings section below for additional
information on results. The full data will be provided
in its original electronic form in Appendix D.

55
METHODOLOGY
THE RELEVANT UNIVERSE OF INTEREST

The appropriate sample universe for this survey consisted of U.S. consumers who search for or make hotel
or travel arrangements online.
The following screening questions were employed to
ensure the final survey sample was comprised of respondents from the appropriate sample universe.
First, after initial demographic questions, all potential
respondents were asked:
In the past 6 months, which of the following, if any,
have you used a website or mobile app for?
(Select all that apply)
Respondents could select as many as applied to them
from the following list, or “None of the above:”
•

To search for or make hotel or travel arrangements

•

To network either personally or professionally

•

To order groceries

•

To find or make restaurant reservations

•

To deposit or transfer money to a bank account

Respondents who selected “to search for or make hotel
or travel arrangements” were considered part of the
relevant sample universe and qualified to participate in
the main survey. The other options on the list were
provided in order to mask the survey topic and to provide respondents with a list of options from which they
could select.

56
Next, respondents were asked:
In the next 6 months, which of the following, if any,
are you likely to use a website or mobile app for?
(Select all that apply)
Respondents were shown an identical list of options as
those that were presented in response to the previous
question and could again select as many as applied to
them, or “None of the above.”
Respondents who selected “to search for or make hotel
or travel arrangements” in response to this question
were also considered part of the relevant sample universe and qualified to participate in the main survey.
As is standard practice, respondents who work or have
someone in their immediate household who works in
advertising or market research were screened out.
Upon completion of the main survey, all respondents
were asked the following final question for classification purposes.
Do you or does anyone in your household work in
any of the following areas?
(Select all that apply)
The following table displays the randomized list of
response options available to respondent and the proportion of final respondents who selected each:
Works in Related Field
N=400

N

%

Travel

3

0.8%

57
Hotel/motel

3

0.8%

Real estate rental

8

2.0%

Hospitality

5

1.3%

382

95.5%

None of these

Including this question allowed me to exclude from my
analysis any respondent who works or has someone in
their household who works in a field related to the topic
of the survey. The reason this question was asked at
the end of the survey as opposed to during the initial
screening questions was to avoid any potential bias to
the survey results due to the mention of these industries as a key topic of the survey prior to respondents
answering the main survey questions.
Excluding the eighteen respondents who indicated that
they or someone in their household works in one of
these areas would not impact the results of my analysis.
This concluded the screening and classification questions for all respondents.
The actual wording of the screening questions used is
shown in Appendix B.
SAMPLING PLAN

The sampling plan involved a random selection of consumers who are part of an online panel.
Online surveys are well-accepted in the field of survey
research as a standard, reliable methodology. Indeed,
online surveys are now the most common method of
conducting market research among consumers. Busi-

58
nesses and other organizations routinely make decisions of importance based on the results of online survey research, and online surveys have been accepted in
evidence in numerous U.S. District Court cases. I
have personally designed and executed numerous internet surveys that have been accepted by courts.
The sample of panelists used in the survey was provided by Research Now, a leading supplier of online
sample for surveys. I have worked with Research
Now on many surveys and have found its procedures
and panels to be highly reliable. Research Now has a
large and diverse panel consisting of millions of Americans and is highly regarded as a reputable source of
respondents for online surveys within the field of market research. Research Now utilizes appropriate industry procedures for ensuring the integrity and quality of its panels. Research Now employs a “by-invitationonly” panel recruitment model to enroll pre-validated
individuals and, therefore, maintains a panel comprised
of the most credible survey takers who are less prone
to self-selection bias. Quality and integrity of its
research panel is also obtained and maintained in the
following ways.
•

It requires a double opt-in and agreement to
provide truthful and well-considered answers to
online market research surveys. First, potential panelists opt-in during the enrollment process, and then they are sent a follow-up email
confirmation that requests the potential panelist to click a link to validate the opt-in. Then,
he or she is sent a follow-up email providing
access to their member account and they can
begin receiving surveys.

59
•

A unique email address is required to opt-in to
the panel and physical addresses provided by
panelists in the US are verified against government postal information.

•

Research Now implements data quality measures by focusing on identifying and pursuing
panelists who exhibit suspicious behaviors.
This is done by identifying members through
routine review of behaviors and sometimes with
the help of its clients, and then evaluating a
wider set of behaviors, particularly members
profile information and survey performance.

•

Research Now also employs a “Three Strikes
Policy” in which panelists who commit survey
offenses, such as speeding, inattentiveness,
poor quality open ends, answering inconsistencies, and selecting dummy answers, are flagged
with an “offense” code. Panelists who are
flagged three times for such offenses are disqualified from panel membership and future
surveys.

Throughout the initial field period, I continued to monitor the actual rate of qualification within each individual age and gender group. The calculated incidence of
consumers who search for or make hotel or travel arrangements online within each age and gender group is
shown in the following table:
Initial Incidence Within Each Age & Gender Group:

21 - 34

Male

Female

54.7%

52.6%

60
35 - 54

65.8%

53.7%

55 and older

64.6%

67.0%

I then calibrated these individual incidence rates
against U.S. Census data by age and gender and set
revised age and gender quotas for the final sample size
of 400.
The following tables display the final proportion of
sample achieved by age and gender:
Final Number of Respondents (N=400)

N

%

Male 21 - 34

48

12.0%

Male 35 - 54

84

21.0%

Male 55 and older

68

17.0%

Female 21 - 34

46

11.5%

Female 35 - 43

72

18.0%

Female 55
and older

82

20.5%

This methodology for producing a representative sample of the relevant category (here, consumers who search
for or make hotel or travel arrangements online) is
standard and well-accepted.

61
Invitations were also sent in proportion to U.S. Census
data by region. The following table displays the final
proportion of sample achieved by region:
Final Number of Respondents by Region (N=400)

N

%

Midwest

89

22.3%

Northeast

80

20.0%

South

125

31.3%

West

106

26.5%

Given that a clear majority of respondents identified
BOOKING.COM as a brand name among both men and
women, within all age groups, and in every geographic
region, the precise demographics of the survey respondents was not important to the results. The
results could be re-weighted based on any proportion
of age, gender and geography and the conclusion would
not change at all.
DATA PROCESSING

Data was collected by Focus Vision, a company specializing in web survey programming and data collection and processing, and made available to Hal Poret,
LLC through an electronic portal on an ongoing basis.
The data set showing each respondent’s answers to all
questions will be provided in electronic form.3 1

3

See Appendix D of this report.

62
INTERVIEWING PROCEDURES

The online survey was programmed and hosted by
Focus Vision. My staff and I thoroughly tested the
programmed survey prior to any potential respondents
receiving the invitation to participate in the survey.
DOUBLE-BLIND INTERVIEWING

It is important to point out that the study was administered under “double-blind” conditions. That is, not
only were the respondents kept uninformed as to the
purpose and sponsorship of the study, but the services
involved in providing the sample and administering the
online interviews (Focus Vision and Research Now)
were similarly “blind” with respect to the study’s purpose and sponsorship.
INTERVIEWING PERIOD

Interviewing was conducted from March 29, 2016
through April 4, 2016.
QUALITY CONTROL

Several measures were implemented in order to ensure
a high level of quality control and validation with respect to respondents taking the survey.
Upon initially entering the survey, all respondents
were required to pass a test to decipher that each respondent is a live person. The test employed in this
survey is a CAPTCHA42program that generates a task
that humans can pass but current computer programs
cannot. CAPTCHA is a well-known and widely-used
tool in online survey research.
CAPTCHA is an acronym for “Completely Automated Public
Turing test to tell Computers and Humans Apart.”
4

63
Upon successfully passing the CAPTCHA test, respondents were then asked to enter their age followed
by their gender.
This information was checked
against the sample provider’s (Research Now’s) demographics on record for each respondent and any
respondent providing an incorrect or inconsistent age
and/or gender were unable to continue to the main
survey.
These combined steps ensured that the survey was
being taken by an actual live person and that each
person was paying a certain level of attention to the
survey questions and taking a certain level of care in
entering responses.
The following question was also asked, permitting
additional screening out of respondents who were paying insufficient attention or clicking responses indiscriminately:
People vary in the amount of attention they pay to
surveys.
For quality assurance, please type the word “Yes” in
the blank next to the “Other” box below and then
click to continue.
• Strongly agree
• Agree
• Neutral
• Disagree
• Strongly disagree
• Other

64
Respondents who selected “other” and typed a response in the blank continue with the survey. A review was conducted of all the open-ended answers
typed into the blank in order to verify that respondents
had indeed typed in “yes,” as instructed.
Respondents were then also asked to carefully read
these instructions:
•

Please take the survey in one session without
interruption.

•

While taking the survey, please do not consult
any other websites or other electronic or written materials.

•

Please answer all questions on your own without consulting any other person.

•

If you normally wear eye glasses or contact
lenses when viewing a computer screen, please
wear them for the survey.

Two options were provided in response to these instructions: 1) I understand and agree to the above
instructions, and 2) I do not understand or do not agree
to the above instructions. Only respondents who understood and agreed to the instructions were able to
continue on to the main section of the survey.
Additionally, the survey program was set up in such a
way as to restrict respondents from taking the survey
via mobile phones. This contributed to ensuring respondents could easily and clearly view the images
displayed in the survey as well as each question and
corresponding response options.

65
DETAILED FINDINGS
I.

Results Among All Respondents

The following table displays the proportion of all respondents who identified each trademark as a brand
name versus a common name, compared to BOOKING.
COM:

As illustrated in the table, 74.8% (299 out of 400) of all
respondents identified BOOKING.COM to be a brand
name.
The following table displays the proportion of all
respondents who identified each generic term, as a
brand name versus a common name, compared to
BOOKING.COM:

66

The high rates at which respondents identified all three
trademarks, as brand names—i.e. 99.3% (397 out of 400)
of respondents answered that PEPSI is a brand name,
96.8% (387 out of 400) answered that ETRADE.COM is
a brand name and 96.8% (387 out of 400) answered that
SHUTTEFLY is a brand name—validates that these
results are accurate and not due to guessing or other
forms of error. In other words, the survey design
does result in true trademarks being properly identified as a brand name by a clear majority of consumers.
Additionally, the high rates at which respondents identified the three generic terms, as common names—i.e.
100% (400 out of 400) of respondents answered that
SUPERMARKET is generic, 99.5% (398 out of 400)
answered that SPORTING GOODS is generic and 60.8%
(243 out of 400) answered that WASHINGMACHINE.
COM as common—further validates that these results
are accurate and not due to guessing or other forms of
error. In other words, the survey design does result
in true generic terms being properly identified as common names by a clear majority of consumers.
In particular, the fact that the large majority of respondents identified WASHINGMACHINE.COM as a
generic term validates that the survey design does not
lead to the conclusion that any DOT-COM term is a

67
brand. Rather, the results support the conclusion
that WASHINGMACHINE.COM is a generic term.
This validates that the opposite result for BOOKING.
COM, where three-quarters identified it as a brand, is
reliable and not the product of any bias in the survey
toward deeming a DOT-COM name to be a brand.
It is my opinion that these results strongly establish
that BOOKING.COM is not perceived by consumers to
be a generic or common name.

68

THE FOLLOWING APPENDICES PROVIDED
SEPARATELY:
APPENDIX A — CURRICULUM VITAE OF STUDY’S
AUTHOR
APPENDIX B — QUESTIONNAIRE
APPENDIX C — SCREENSHOTS OF PROGRAMMED
SURVEY
APPENDIX D — DATA FILE

69
Hal L. Poret (hal.inc42@gmail.com; 914-772-5087)
Education

1998

Harvard Law School, J.D., cum laude
• Editor/Writer—Harvard Law Record
• Research Assistant to Professor Martha Minow

1995

S.U.N.Y. Albany, M.A. in Mathematics,
summa cum laude
• Statistics
• Taught calculus/precalculus/statistics

1993

Union College, B.S. in Mathematics with
honors, magna cum laude
• Phi Beta Kappa
• Resch Award for Achievement
Mathematical Research

in

Employment

2016 -

President, Hal Poret LLC
• Design, supervise, and analyze consumer surveys, including Trademark,
Trade Dress, Advertising Perception,
Consumer Deception, Claims Substantiation studies, Damages, and Corporate Market Research Surveys
• Consulting regarding survey design
and review of other surveys
• Provided expert testimony at deposition and/or trial regarding survey research in over 100 U.S. District Court

70
litigations and proceedings in front of
TTAB, NAD, FTC and FCC.
2004 - 2015 Senior Vice President, ORC International
• Designed, supervised, and analyzed
over 1,000 consumer surveys in legal
and corporate market research areas,
and provided expert testimony regarding survey research in legal cases.
2003-2004

Internet Sports Advantage
• Developed and marketed proprietary
internet sports product, and licensed
trademark and intellectual property
rights.

1998 - 2003

Attorney, Foley Hoag & Eliot, Boston,
MA
• Represented corporations and individuals in trademark, trade dress, advertising, product, and related legal disputes.
• Worked with survey experts in developing and using surveys as evidence in
trademark, trade dress and advertising
disputes.

71
Testimony at Trial or by Deposition Past 4 Years

(Party who retained me shown in bold)
2016 Universal Church v. Univ. Life USDC
Southern
Church
(Deposition)
District
of NY
2016 U. of Houston v. Houston Col.
of Law
(Deposition and PI Hearing
Testimony)

USDC
Southern
District
of TX

2016 Navajo Nation v. Urban Out- USDC District of NM
fitters (Daubert Hearing)
2016 Beaulieu v. Mohawk Carpet USDC
Dist.
Northern
District
(Deposition)
of GA
2016 Efficient Frontiers v. Reserve USDC
Central
Media
District
(Deposition)
of CA
2016 McAirlaids v. Medline Indus- USDC
tries
Eastern
District
(Deposition)
of VA
2016 Under Armour v. Ass Armor USDC
Southern
(Deposition)
District
of FL

72
2016 C5 & CoorsTek v. CeramTec USDC Dis(Deposition)
trict of Colorado
2016 BBC v. Stander
(Deposition)

USDC
Central
District
of CA

2016 Caterpillar
(Deposition)

v.

Tigercat USPTO
Opposition

2016 Premier v.
(Deposition)

Dish

Network USPTO

Opposition

2016 Omaha Steaks v. Greater USPTO
Omaha
Opposition
(Rebuttal Testimony)
2016 EMC
v.
(Deposition)

Pure

Storage USDC
District
of MA

2016 Top Tobacco v. North Atlantic USPTO
(Deposition)
Opposition
2016 Ascension Health v. Ascension USDC
Eastern
Ins.
(Deposition)
District
of MO
2016 Quoc Viet v. VV
(Deposition and trial)

Foods USDC Central District
of CA

73
2016 Joules v. Macy’s Merchandising USDC
Group
Southern
District
(Deposition and trial)
of NY
2015 MMG v. Heimerl & Lammers USDC
District
(Deposition and trial)
of MN
2015 PRL USA v. Rolex
(Deposition)

USDC
Southern
District
of NY

USDC
2015 Adidas v. Skechers
(Deposition and Injunction District
hearing)
of OR
2015 Bison Designs v. Lejon
(Deposition)

USDC District of CO

2015 Barrera v. Pharmavite
(Deposition)

USDC Central District
of CA

2015 Flowers v. Bimbo Bakeries USDC Middle District
(Deposition)
of GA
2015 Razor USA v. Vizio
(Deposition)

USDC Central District
of CA

74
2015 Allen v. Simalasan
(Deposition)

USDC
Southern
District
of CA

2015 Church & Dwight v.
(Deposition and trial)

SPD USDC
Southern
District
of NY

2015 BMG Rights Mgmt. v. Cox USDC
Eastern
Enterprises
District
(Deposition and trial)
of VA
2015 Verisign v. XYZ.COM LLC USDC
(Deposition)
Eastern
District
of VA
2015 Select Comfort v.
Comfort
(Deposition)

Personal USDC
District
of Minn

2015 Farmer Boys v. Farm Burger USDC Cen(Deposition)
tral District
of CA
2015 Ono v. Head Racquet Sports USDC Cen(Deposition)
tral District
of CA
2015 Select Comfort
Sealy
(Deposition)

v.

Tempur USDC District of Minn

75
2015 ExxonMobil v. FX Networks
(Deposition)

USDC
Southern
District
of TX

2015 Mullins v. Premier Nutrition
(Deposition)

USDC
Northern
District
of CA

2015 Delta v. Network Associates USDC Mid(Deposition)
dle District
of FL
2015 Brady v. Grendene
(Deposition)

USDC Central District
of CA

2015 Zippo v. LOEC
(Deposition)

USDC Central District
of CA

2015 Maier v. ASOS
(Deposition)

USDC District of Maryland

2015 Converse In re:
Footwear
(Deposition and trial)
2014 Scholz v. Goudreau
(Deposition)

Certain International
Trade Commission
USDC District of Mass

76
Rent-A-Car
2014 Economy
Economy Car Rentals
(TTAB Testimony)

2014 Weber v. Sears
(Deposition)

v. USPTO

USDC
Northern
District
of IL

2014 Native American Arts v. Stone USDC
Northern
(Deposition)
District
of IL
2014 Gravity

Defyer

v.

Armour

(Trial)

Under USDC Cen-

tral District
of CA

2014 Adams v. Target Corporation USDC Central District
(Deposition)
of CA
2014 PODS v. UHAUL
(Deposition and trial)

USDC Middle District
of FL

2014 Flushing v. Green Dot Bank USDC
(Deposition)
Southern
District
of NY
2014 Amy’s Ice Creams v. Amy’s USDC
Western
Kitchen
(Deposition)
District
of TX

77
2014 Unity Health v. UnityPoint USDC
(Deposition)
Western
District
of WI
2014 In re: NCAA Student-athlete USDC
litigation
Northern
(Deposition and Trial)
District
of CA
2014 Spiraledge v. SeaWorld
(Deposition)

USDC
Southern
District
of CA

2014 Diageo N.A. v. Mexcor
(Deposition and Trial)

USDC
Southern
District
of TX

2014 Pam Lab v. Virtus Pharmaceu- USDC
tical
Southern
(Deposition and Trial)
District
of FL
2014 US Soccer Federation v. Play- Arbitration
ers Ass’n
(Arbitration Testimony)
2014 Estate of Marilyn Monroe v. USDC
Southern
AVELA (Deposition)
District
of NY

78
2014 Kelly-Brown v. Winfrey, et al. USDC
(Deposition)
Southern
District
of NY
2014 Virco Mfg v. Hertz & Academia USDC Central District
(Deposition)
of CA
2014 In re:
tion

Hulu Privacy Litiga- USDC
Northern
(Deposition)
District
of CA

2013 Jackson Family Wines v. Dia- USDC
geo
Northern
(Deposition)
District
of CA
2013 Bubbles, Inc. v. Sibu, LLC. USDC
(Deposition)
Eastern
District
of VA
2013 Clorox v. Industrias
(Deposition)

Dalen USDC

Northern
District
of CA

2013 Globefill v. Elements Spirits USDC Central District
(Deposition and trial)
of CA

79
2013 Active Ride Shop v. Old Navy USDC Cen(Deposition and trial)
tral District
of CA
2013 Macy’s Inc. v. Strategic Marks Northern
LLC.
District
(Deposition)
of CA
2013 Karoun Dairies, Inc. v. Karoun Southern
District
Dairies, Inc.
(Deposition)
of CA
2013 Kraft Foods v. Cracker Barrel Northern
Old Country
District
of IL
(Deposition and Trial)
2013 Bayer Healthcare v. Sergeants Southern
Pet Care
District
(Deposition and Trial)
of NY
2013 JJI International v. The Bazar USDC District of RI
Group, Inc.
(Deposition)
2013 Fage Dairy USA v. General Northern
Mills
District
(Deposition)
of NY
2013 Gameshow

Network

v. F.C.C.

Cablevision

(Deposition and trial)
2013 Telebrands v. Meyer Marketing USDC
Eastern
(Deposition)
District
of CA

80
2012 Marketquest v. BIC
(Deposition)

USDC
Southern
District
of CA

2012 Hornady v. DoubleTap
(Deposition)

USDC District of Utah

2012 Briggs/Kohler
Honda
(Deposition)

Opposition

2012 Apple v. Samsung
(Deposition and Trial)

2012 Forest River
(Deposition)

v.

to TTAB

USDC
Northern
District
of CA

Heartland USDC

Northern
District
of IN

2012 SPD v. Church & Dwight USDC Dis(Deposition)
trict of NJ
2012 Brighton Collectibles v. Texas USDC
Southern
Leather
(Deposition)
District
of CA
2012 Cytosport v. Vital Pharmaceu- USDC
ticals
Eastern
District
(Deposition)
of CA

81
2012 Authors Guild v. Google
(Deposition)

USDC
Southern
District
of NY

2012 Clear Choice v. Real Choice TTAB
(Opposition testimony)
2011 Borghese v.
(Deposition)

2011 My

Favorite

Perlier

et

Company

Wal-Mart

(Deposition)
2011 PepsiCo v. Pirincci
(Opposition testimony)

al. USDC
Southern
District
of NY
v. USDC Central District
of CA
TTAB

2011 GAP Inc. v. G.A.P. Adventures USDC
(Trial)
Southern
District
of NY
2011 Merck Eprova v. Brookstone USDC
Southern
(Deposition and trial)
District
of NY
2011 Wella, Inc. v. Willagirl LLC USDC
Southern
(Deposition)
District
of NY

82
2011 Bauer Bros. v. Nike
(Deposition)

USDC
Southern
District
of CA

2011 Aviva Sports v. Manley
(Deposition)

USDC
District
of Minnesota

2011 American Express
Card LLC
(Deposition)

v.

Black USDC
Southern
District
of NY

2011 Gosmile v. Dr. Levine
(Preliminary Injunction Trial)

USDC
Southern
District
of NY

Presentations

What’s New in Advertising Law, Claim Support and
Self-Regulation? (ABA Seminar, November 17, 2015)
How Reliable is Your Online Survey
(2015 ASRC Annual Conference, September 29, 2015)
What Do Consumers Think? Using Online Surveys to
Demonstrate Implied Claims (ANA Advertising Law
and Public Policy Conference, April 1, 2015)
Cutting Edge Developments in Trademark Surveys
(Rocky Mountain Intellectual Property & Technology
Institute, May 30, 2013)
Using Survey Experts in Trademark Litigation (DRI
Intellectual Property Seminar, May 9, 2013)

83
Surveys in Trademark and Advertising Litigation (2013
National CLE Conference, Snowmass Colorado, January 2013)
Internet Survey Issues (PLI Hot Topics in Advertising
Law Conference, March 2012)
Measuring Consumer Confusion Through Online Surveys (2011 Midwest IP Institute) (September, 2011)
Online Surveys as Evidence in Trademark Disputes
(International Trademark Association Annual Conference, May 2011)
Managing
Intellectual
Roundtable (April 7, 2010)

Property

Trademark

Recent Trends in Trademark Surveys (Virginia State
Bar Intellectual Property Conference, October 2009)
Trademark Surveys in US Litigation (presentation for
International Trademark Association Annual Conference) (May 2009)
How to Conduct Surveys for use in Trademark Disputes (Practicing Law Institute Advanced Trademark
Law Conference) (May 2009)
Trademark and Advertising Perception Studies for
Legal Disputes (Opinion Research Corporation Seminar, June 2008)
Understanding Advertising Perception Surveys (Promotions Marketing Association Annual Law Conference) (November 2007)
Designing and Implementing Studies to Substantiate
Advertising Claims (American Conference Institute
Claims Substantiation Conference, October 2007)

84
Surveys in Trademark and False Advertising Disputes
(InfoUSA Webinar, June 2007)
Measuring Consumer Perception in False Advertising
and Trademark Cases, (multiple presentations) (2007)
Potential Errors to Avoid In Designing a Trademark
Dilution Survey (American Intellectual Property Association paper, April 2007)
Consumer Surveys in Trademark and Advertising
Cases (presentation at Promotions Marketing Association Annual Law Conference) (December 2006)
Use of Survey Research and Expert Testimony in
Trademark Litigation, (International Trademark Association Annual Conference, May 2006)
Survey Research as Evidence in Trademark/Trade
Dress Disputes (multiple presentations) (2006)
Using Surveys to Measure Secondary Meaning of
Trade Dress, Legal Education Seminar, Boston, April
2006
Publications/Papers

Cutting Edge Developments in Trademark Surveys
(Rocky Mountain Intellectual Property & Technology
Institute, May 2013)
Hot Topics and Recent Developments in Trademark
Surveys (paper for May 2013 DRI Intellectual Property Conference)
Surveys in Trademark and Advertising Litigation (2013
National CLE Conference, Snowmass Colorado, January 2013)

85
Trademark Litigation Online Consumer Surveys
(Practical Law Company Intellectual Property and
Technology, May 2012)
Hot Topics in Advertising Law 2012 (Contributor to
Practising Law Institute publication)
A Comparative Empirical Analysis of Online Versus
Mall and Phone Methodologies for Trademark Surveys,
100 TMR 756 (May-June 2010)
Recent Trends in Trademark Surveys (paper for Virginia State Bar Intellectual Property conference, October 2009)
Trademark Dilution Revision Act breathes new life into
dilution surveys (In Brief PLI website, June 2009)
The Mark (Survey Newsletter; three editions 2009)
Hot Topics in Trademark Surveys (paper for Practicing Law Institute Advanced Trademark Law Conference) (May 2009)
The Mark (Survey Newsletter, 2008)
Trademark and Advertising Survey Report (Summer
2007)
Avoiding Pitfalls in Dilution Surveys under TDRA
(AIPLA Spring Conference, Boston, May 2007)
Commentary

Comment on Hotels.com case (on TTABLOG.COM,
July 24, 2009)
Comment on Nextel v. Motorola (on TTABLOG.COM,
June 19, 2009)

86
PLI All-Star Briefing Newsletter, “What does the
Trademark Dilution Revision Act mean for the future
of Dilution Surveys?” (June 2009)
Professional Memberships/Affiliations

American Association of Public Opinion Research
Council of American Survey Research Organizations
International Trademark Association
National Advertising Division of Council of Better
Business Bureaus

87
Appendix B:

Questionnaire

SCREENER
BASE:

99.

ALL RESPONDENTS

In order to access the survey, please enter the
words and/or numbers you see in the box.
Insert Captcha [programmer: request respondent to enter unique alpha-numeric code]

BASE:

ALL RESPONDENTS

100. Please

enter your age.
[PROGRAMMER:
WHOLE NUMBER.
TERMINATE IF DOES
NOT MATCH PANELIST’S PRELOAD OR IF
UNDER 21. CALCULATE AGE RANGES TO
DETERMINE OPEN QUOTAS FOR AGE PRIOR
TO CONTINUING.]
1.

21-34

2.

35-54

3.

55+

ASK IF: HAS NOT TERMINATED

105. Are you

. . .

[CHECK AGAINST PANEL
VARIABLE AND TERMINATE IF IT DOES NOT
MATCH]

1. Male [PROGRAMMER:
FOR PANEL
VARIABLE PLEASE ASSIGN VALUE OF
“M” FOR MALE]
2. Female [PROGRAMMER: FOR PANEL
VARIABLE PLEASE ASSIGN VALUE OF
“F” FOR FEMALE]

88
ASK IF: HAS NOT TERMINATED

110. In what state do you live?
[PROGRAMMER: Drop down menu of states
plus D.C. Include an option for “Other” and terminate if it is selected.]
ASK IF: HAS NOT TERMINATED

120. Do you or does anyone in your household work in
either advertising or market research?
(Select all that apply)
[RANDOMIZE]
1. Yes, advertising [TERMINATE]
2. Yes, market research [TERMINATE]
3. No, neither of these [ANCHOR; EXCLUSIVE]
ASK IF: HAS NOT TERMINATED

135. In the past 6 months, which of the following, if
any, have you used a website or mobile app for?
(Select all that apply)
[RANDOMIZE]
1. To search for or make hotel or travel arrangements
2. To network either personally or professionally
3. To order groceries
4. To find or make restaurant reservations
5. To deposit or transfer money to a bank
account

89
6. None of the above [ANCHOR; EXCLUSIVE]
ASK IF: HAS NOT TERMINATED

140. In the next 6 months, which of the following, if
any, are you likely to use a website or mobile app
for?
(Select all that apply)
[REPEAT LIST FROM 135 AND IN THE
SAME ORDER]
[MUST SELECT 135=1 AND/OR 140=1 TO CONTINUE;
OTHERWISE, TERMINATE.]
ASK IF: HAS NOT TERMINATED

150. Which of these age ranges includes your age?
[TERMINATE IF AGE RANGE DOES NOT
MATCH AGE BASED ON Q100]

1. Under 21
2. 21 to 34
3. 35 to 54
4. 55 or older
ASK IF: HAS NOT TERMINATED

160. People vary in the amount of attention they pay
to surveys.
For quality assurance, please type the word
“Yes” in the blank next to the “Other” box below
and then click to continue.

90
1. Strongly agree
2. Agree
3. Neutral
4. Disagree
5. Strongly disagree
6. Other
TEXT BOX]

[DO NOT FORCE

[TERMINATE IF SELECTED 160/1-5 OR DOES
NOT TYPE IN ANY ANSWER]
ASK IF: HAS NOT TERMINATED

170. You have qualified to take this survey. Before
continuing, please carefully read these instructions:
*

Please take the survey in one session without
interruption.

*

While taking the survey, please do not consult
any other websites or other electronic or written
materials.

*

Please answer all questions on your own without
consulting any other person.

*

If you normally wear eye glasses or contact
lenses when viewing a computer screen, please
wear them for the survey.
1. I understand and agree to the above instructions
2. I do not understand or do not agree to the
above instructions [TERMINATE]

91
MAIN SURVEY—ONLY QUALIFIED RESPONDENTS CONTINUE.
[PROGRAMMER: Randomize whether respondent gets
Version 1 or 2 in subsequent places where this is a variable.]

410.
[IF VERSION 1 INSERT, “brand” FIRST & “common”
SECOND IN THE FIRST & LAST SENTENCES. IF
VERSION 2 INSERT, “common” FIRST & “brand”
SECOND.]

This survey is about (insert “brand” or “common”)
names and (insert “common” or “brand”) names. In a
few moments you will be asked about a number of
terms that you may or may not have seen or heard
before. But first, please read the next two screens
about what we mean by a (insert “brand” or “common”)
name and what we mean by a (insert “common” or
“brand”) name.
420. [IF VERSION 1, SHOW Q420-1 FIRST. IF VERSION 2, SHOW Q420-2 FIRST.]

420-1
Brand names are names that companies use to identify
who a product or service comes from. Brands names
primarily let the consumer know that a product or
service comes from a specific company.
For example, TOYOTA, CHASE, and STAPLES.COM
are all brand names. These terms primarily identify
for a consumer who a product or service comes from.

92
420-2
Common names are words used to identify a type of
product or service—in other words, what the product
or service is, not who makes it. Common names primarily let the consumers know what type of product or
service is being offered.
For example, unlike the brand names TOYOTA,
CHASE, and STAPLES.COM; AUTOMOBILE,
BANK, AND OFFICESUPPLIES.COM are all common names. These terms primarily identify for the
consumer what type of product or service a company is
selling, rather than who the product or service comes
from.
430.

[IF VERSION 1 INSERT, “brand” IN FIRST
BLANK & “common” IN SECOND. IF VERSION
2, VICE VERSA]

Do you understand the difference between a
and a
name?

name

1. Yes continue to 440
2. No terminate
3. Don’t know terminate
440. [IF VERSION 1, SHOW Q440-1 FIRST. IF VERSION 2, SHOW Q440-2 FIRST]

440-1 Which type of name would you say KELLOGG
is?
[MAKE “brand” TOP CHOICE IN VERSION 1 &
SECOND CHOICE IN VERSION 2]

1. Brand name continue
2. Common name terminate

93
3. Don’t know terminate
440-2 Which type of name would you say CEREAL is?
[MAKE “brand” TOP CHOICE IN VERSION 1 &
SECOND CHOICE IN VERSION 2]

1. Brand name terminate
2. Common name continue
3. Don’t know terminate
450.

[IF VERSION 1, “brand” COMES FIRST &
“common” SECOND IN SECOND SENTENCE.
IF VERSION 2, “common” COME FIRST &
“brand” SECOND] You will now see a series of
bolded terms, one at a time, that you may or may

not have seen or heard before. Under each
term, you will also see a description of products
or services for that term. For each term shown
in bold, please answer whether you think the
term is a (insert “brand” or “common”) name or a
(insert “common” or “brand”) name in the context of the products or services described. Or if
you don’t know, you may select that option.

94
[FOR Q460 THERE ARE 4 ROTATIONS OF THE ORDER OF SEVEN TERMS. RESPONDENTS WILL BE
ASKED ABOUT EACH TERM ONE AT A TIME.
ONE-FOURTH OF RESPONDENTS IN EACH VERSION SHOULD GET EACH OF THE 4 ROTATIONS.]
ROTATION 1

ROTATION 2

BOOKING.COM

WASHINGMACHINE.COM

Hotel and other lodging
reservation services

Reviews and sales of
washing machines

SPORTING GOODS

SHUTTERFLY

Products used in sports
and other physical activity

Photo-sharing and photo
gifts service

ETRADE.COM

BOOKING.COM

Stock and investor broker
services

Hotel and other lodging
reservation services

PEPSI

SPORTING GOODS

Cola and other soft drinks

Products used in sports
and other physical activity

SHUTTERFLY

PEPSI

Photo-sharing and photo
gifts service

Cola and other soft
drinks

WASHINGMACHINE.COM

ETRADE.COM

Reviews and sales of
washing machines

Stock and investor broker
services

95
SUPERMARKET

SUPERMARKET

Retail sale of food and
other groceries

Retail sale of food and
other groceries

ROTATION 3

ROTATION 4

SPORTING GOODS

WASHINGMACHINE.COM

Products used in sports
and other physical activity

Reviews and sales of
washing machines

ETRADE.COM

SHUTTERFLY

Stock and investor broker
services

Photo-sharing and photo
gifts service

PEPSI

SUPERMARKET

Cola and other soft drinks

Retail sale of food and
other groceries

SUPERMARKET

SPORTING GOODS

Retail sale of food and
other groceries

Products used in sports
and other physical activity

BOOKING.COM

ETRADE.COM

Hotel and other lodging
reservation services

Stock and investor broker services

SHUTTERFLY

PEPSI

Photo-sharing and photo
gifts service

Cola and other soft
drinks

96
WASHINGMACHINE.COM

BOOKING.COM

Reviews and sales of
washing machines

Hotel and other lodging
reservation services

[AS Q460 7 TIMES FOR EACH RESPONDENT (ONE
TIME FOR EACH TERM AND DESCRIPTION), FOR
EACH OF THE SEVEN TERMS, DISPLAY THE TERM
IN UPPERCASE BOLD LETTERS AND THEN THE
DESCRIPTION, AND THEN TH QUESTION TEXT.]

Q460. Do you think this is a

. . .

[MAKE “brand” TOP CHOICE IN VERSION 1 &
SECOND CHOICE IN VERSION 2)

1. Brand name
2. Common name
3. Don’t know
[PROGRAMMER: IN DATA SHOW COMBINED
RESULTS TO Q460 INDIVIDUALLY FOR EACH
TERM, REGARDLESS OF ROTATION/VERSION—
e.g. SHOW ALL RESULTS FOR “BOOKING.COM”
TOGETHER IN ONE COLUMN/TABLE, ETC.]
ASK IF:

500.

ALL

Do you or does anyone in your household work
in any of the following areas? (Select all that
apply)
[RANDOMIZE]
1. Travel
2. Hotel/motel
3. Real estate rental

97
4. Hospitality
5. None of these [ANCHOR; EXCLUSIVE]

98
Appendix C:
2 Versions
SCREENER

Survey Screenshots

99

100

101

102
MAIN SURVEY

103

104

105

106

107

108
[FOLDOUT]
(Please remove this place holder)

109
[FOLDOUT]
(Please remove this place holder)

110
[FOLDOUT]
(Please remove this place holder)

111
[FOLDOUT]
(Please remove this place holder)

112
[FOLDOUT]
(Please remove this place holder)

113
[FOLDOUT]
(Please remove this place holder)

114
[FOLDOUT]
(Please remove this place holder)

115
[FOLDOUT]
(Please remove this place holder)

116
[FOLDOUT]
(Please remove this place holder)

117
[FOLDOUT]
(Please remove this place holder)

118
[FOLDOUT]
(Please remove this place holder)

119
[FOLDOUT]
(Please remove this place holder)

120
[FOLDOUT]
(Please remove this place holder)

121
[FOLDOUT]
(Please remove this place holder)

122
[FOLDOUT]
(Please remove this place holder)

123
[FOLDOUT]
(Please remove this place holder)

124
[FOLDOUT]
(Please remove this place holder)

125
[FOLDOUT]
(Please remove this place holder)

126
[record]: Record As Number
Values:
0-9999999999
[record]: Record number
Open numeric response
[date]:
Completion time and date
Open text response
[status]:

Respondent status

Values:

1-4
1
2
3
4

Terminated
Overquota
Qualified
Partial

[Q99]:
Open text response
[hCaptchaFails]: HIDDEN: How many times did
the respondent fail the captcha?
Values:
0-99
[vAge]:
Values:

Panel Age
0-999

[Q100]:
Values:

Please enter your age.
1-100

[Q105]:
Values:

Are you
1-2
1
2

Male
Female

[vGender]: Are you
Values:
1-2
1
2

. . .

. . .

Male
Female

127
[Q110]:

State

Values:

1-52
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31

Alabama
Alaska
Arizona
Arkansas
California
Colorado
Connecticut
Delaware
District of Columbia
Florida
Georgia
Hawaii
Idaho
Illinois
Indiana
Iowa
Kansas
Kentucky
Louisiana
Maine
Maryland
Massachusetts
Michigan
Minnesota
Mississippi
Missouri
Montana
Nebraska
Nevada
New Hampshire
New Jersey

128
32
33
34
35
36
37
38
39
40
41
42
43
44
45
46
47
48
49
50
51
52

New Mexico
New York
North Carolina
North Dakota
Ohio
Oklahoma
Oregon
Pennsylvania
Rhode Island
South Carolina
South Dakota
Tennessee
Texas
Utah
Vermont
Virginia
Washington
West Virginia
Wisconsin
Wyoming
Other

[Region]: Region
Values:
1-4
1
2
3
4

Midwest
NorthEast
South
West

Q120: Do you or does anyone in your household work
in either advertising or market research?
Values: 0-1
0
1

Unchecked
Checked

129
[Q120r1] Yes, advertising
[Q120r2] Yes, market research
[Q120r3] No, neither of these
Q135: In the past 6 months, which of the following, if
any, have you used a website or mobile app for?
Values: 0-1
0
1

Unchecked
Checked

[Q135r1] To search for or make hotel or travel
arrangements
[Q135r2] To network either personally or professionally
[Q135r3] To order groceries
[Q135r4] To find or make restaurant reservations
[Q135r5] To deposit or transfer money to a bank
account
[Q135r6] None of the above
Q140: In the next 6 months, which of the following, if
any, are you likely to use a website or mobile app for?
Values: 0-1
0
1

Unchecked
Checked

[Q140r1] To search for or make hotel or travel
arrangements
[Q140r2] To network either personally or professionally
[Q140r3] To order groceries
[Q140r4] To find or make restaurant reservations
[Q140r5] To deposit or transfer money to a bank
account
[Q140r6] None of the above

130
[Q150]:
Values:

Which of these age ranges includes your age?
1-4
1
2
3
4

Under 21
21 to 34
35 to 54
55 or older

[Q160]: People vary in the amount of attention they
pay to surveys. For quality assurance, please type
the word “Yes” in the blank next to the “Other” box
below and then click to continue.
Values: 1-6
1
2
3
4
5
6

Strongly agree
Agree
Neutral
Disagree
Strongly disagree
Other

[Q160r6oe]: People vary in the amount of attention
they pay to surveys. For quality assurance, please
type the word “Yes” in the blank next to the “Other”
box below and then click to continue. —Other Open
text response
[Q170]:
You have qualified to take this survey.
Before continuing, please carefully read these instructions: Please take the survey in one session without
interruption. While taking the survey, please do not
consult any other websites or other electronic or written materials. Please answer all questions on your
own without consulting any other person. If you normally wear eye glasses or contact lenses when viewing a
computer screen, please wear them for the survey.

131
Values:

1-2
1
2

I understand and agree to the above
instructions
I do not understand or do not agree
to the above instructions

[vVersion]: Version Selected
Values: 1-2
1
2

Version 1
Version 2

[Q430]: Do you understand the difference between a
[pipe:
pQ410_V1] name and a [pipe: pQ410_V2]
name?
Values: 1-3
1
2
3

Yes
No
Don’t know

[Q440_1]: Which type of name would you say KELLOGG is?
Values: 1-3
1
2
3

Brand name
Common name
Don’t know

[Q440_2]: Which type of name would you say CEREAL is?
Values: 1-3
1
2
3

Brand name
Common name
Don’t know

132
[vRotation]: Rotation Selected
Values: 1-4
1
2
3
4

Rotation 1
Rotation 2
Rotation 3
Rotation 4

[Q460_1]: BOOKING.COM Hotel and other lodging
reservation services Do you think this is a . . .
Values: 1-3
1
2
3

Brand name
Common name
Don’t know

[Q460_2]:
SPORTING GOODS Products used in
sports and other physical activity Do you think this is
a . . .
Values: 1-3
1
2
3

Brand name
Common name
Don’t know

[Q460_3]: ETRADE.COM Stock and investor broker
services Do you think this is a . . .
Values: 1-3
1
2
3

Brand name
Common name
Don’t know

133
[Q460_4]: PEPSI Cola and other soft drinks Do you
think this is a . . .
Values: 1-3
1
2
3

Brand name
Common name
Don’t know

[Q460_5]: SHUTTERFLY Photo-sharing and photo
gifts service Do you think this is a . . .
Values: 1-3
1
2
3

Brand name
Common name
Don’t know

[Q460_6]: WASHINGMACHINE.COM Reviews and
sales of washing machines Do you think this is a . . .
Values: 1-3
1
2
3

Brand name
Common name
Don’t know

[Q460_7]: SUPERMARKET Retail sale of food and
other groceries Do you think this is a . . .
Values: 1-3
1
2
3

Brand name
Common name
Don’t know

134
Q500: Do you or does anyone in your household work
in any of the following areas?
Values: 0-1
0
1
[Q500r1]
[Q500r2]
[Q500r3]
[Q500r4]
[Q500r5]

Unchecked
Checked

Travel
Hotel/motel
Real estate rental
Hospitality
None of these

[vlist]: Sample source
Values: 1-1
1

Open Survey (list=0)

[vvar2]: vvar2
Values: 1-2
1
2

M
F

[qtime]: Total Interview Time
Values: -99999-999999

135

Booking.com BV v. Michelle Lee
Case No.: 16-cv-425-LMB-IDD
Export Report of
Sarah-Jane Leslie

Sept. 12th, 2016

136
*
14.

*

*

*

I have not been asked to opine on the legal reasoning of the TTAB as expressed in its opinion.
However, I have been asked to opine on the factual linguistic basis, if any, for the TTAB’s
statements and assumptions as set forth in that
quotation in the above paragraph. I have also
been asked to provide expert opinion on whether
such terms or marks as “booking.com” “Booking.
com” and even “www.booking.com” refer to a
genus or some other thing entirely. Finally I
have been asked to give expert opinion as the
whether the science of linguistics, or any of its
relevant subparts would support the idea that in
order to determine whether a complex term or
expression is generic it is sufficient to find that
its semantically significant subparts are generic.
*

16.

*

*

*

*

*

Based on my experience in the field of linguistics
and the cognitive science of language understanding and my specialist knowledge of how generics are understood and how reference to a
genus is understood by English speakers, my
firm opinion is that none of the terms or marks
“Booking.com”, “Booking.Com” or “booking.com”
are understood by the general public to refer to
the genus online service for making travel bookings, the genus online service for making hotel
reservations, or any similarly defined genus.
*

*

*

*

*

137
49.

There is no linguistic rule of English to the effect
that if “X” refers to a kind or genus and “Y’ refers
to a kind or genus the concatenation “XY” refers
to a kind or genus. Explanation: the question

of whether a complex expression refers to a kind
or genus cannot be reliably settled by looking at
whether, in other linguistic contexts, the parts of
the expression refer to a kind or genus. “Fire”
refers to a kind or genus of radiation and “Chief”
to a kind or genus of rank or position, but “Fire
Chief” might be a good name for a magazine appealing to aspiring firefighters who want to move
up in the ranks. Therefore, without addressing
the further fact that there are other meanings for
the term “booking,” including making theatrical
engagements, arguments like
Since the term “booking” can be used to pick
out a kind or genus making a reservation
and the term “.com” can be used to pick out
the kind or genus online business it follows
that “booking.com” is used to pick out a kind
or genus of making a reservation via an
online business
have no empirical basis from the linguistic point
of view. From the point of view of the cognitive
science of linguistic understanding, equally
without empirical basis is the thought that if we
can assume the relevant purchasing public understands the individual terms “booking” and
“.com” as each referring to a separate kind or
genus, the relevant purchasing public therefore
understands the composite term “booking.com”
as referring to a kind or genus. The principle

138
behind this argument would also imply that if
there were a magazine known as Fire Chief, the
relevant purchasing public would understand it to
pick out a kind or genus, namely that consisting
of fire chiefs. Again this attributes a baseless
confusion to the relevant purchasing public, in
this case aspiring firefighters who want to move
up in the ranks.
*
86.

*

*

*

*

In view of all the documentation and information
provided to me coupled with my expertise in the
fields of linguistics and cognitive science, it is my
opinion bordering on a scientific certainty, that
the following three positions are either outright
inconsistent with uncontroversial principles of
linguistics and cognitive science, including the subfields of semantics, syntax and psycho-linguistics, or
without support from any of these fields or subfields:
(i) the position of the Trademark Trial and
Appeal Board in this case that: “Thus,
while it might be true that “it is impossible to use BOOKING.COM in a grammatically coherent way to refer generically to anything”; or that “it is not at all
logical to refer to a type of product or
service as a ‘booking.com’ ”; that does
not mean that this term could not be
understood primarily to refer to an online service for making bookings. In
other words, the test is not whether the
public can use the term in a grammati-

139
cally correct sentence, but whether the
public understands the term to refer to
the genus.”
(ii) the position of the Trademark Trial and
Appeal Board in this case to the effect
that if the purchasing public’s perception of the individual terms BOOKING
and .COM are as generic terms, it follows that the purchasing public’s perception of the composite BOOKING.
COM is as a generic term.
(iii) the position of the Trademark Trial and
Appeal Board in this case to the effect
that the use of the character string
B-O-O-K-I-N-G-.-C-O-M in a longer
term, such as <dubai-travelbooking.com>
reliably indicates the public perception
of the term BOOKING.COM per se.
*

*

*

*

*

140

141

142

143
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION

Civil Action No. 1:16-cv-425-LMB-IDD
BOOKING.COM B.V., PLAINTIFF
v.
MICHELLE K. LEE, UNDER SECRETARY OF COMMERCE
FOR INTELLECTUAL PROPERTY AND DIRECTOR OF
THE UNITED STATES PATENT AND TRADEMARK
OFFICE, ET AL., DEFENDANTS
DECLARATION OF TODD DUNLAP

1. My name is Todd Dunlap. I am Managing Director of Booking.com, Americas. I have held this
position since September 2012. I am over eighteen
(18) years of age and am competent to testify to the
facts set forth herein.
2. In my role as Managing Director of Booking.
com, Americas, I am responsible for all facets of growing and running the Americas’ markets for Booking.
com, B.V., including business development, marketing,
sales, customer service, human resources, finance, and
all support functions for the market. The facts set
forth herein are based on my complete access to the
business records of the company and/or my personal
knowledge.
3. Booking.com is the worldwide leader in providing online accommodation reservation services. It
offers these services through BOOKING.COM branded
platforms, including a website and mobile app.

144
4. BOOKING.COM branded services are provided
in 224 countries and territories and are available in 43
languages.
5. Customers of BOOKING.COM branded services can make reservations at over 1,027,450 hotels
and accommodations providers throughout the world.
6. Booking.com’s services are widely accessed.
Its BOOKING.COM branded website received over 500
billion visits in 2015 and has received over 550 billion
visits year-to-date in 2016.
7. Booking.com’s mobile app is also hugely popular in the United States and is growing in popularity.
a.

2014: An average of 2,886 U.S. based customers downloaded the BOOKING.COM branded
mobile app every day, for an annual total of
1,053,380 downloads.

b.

2015: An average of 5,209 U.S. based customers downloaded the BOOKING.COM branded
mobile app every day, for an annual total of
1,901,347 downloads.

c.

2016 (year to date): An average of 9,879 U.S.
based customers have downloaded the BOOKING.
COM branded mobile app every day, for a total
of 2,489,387 downloads thus far.

8. In addition to its consumer-facing accommodation reservation services, Booking.com also provides
valuable business-to-business services. For example,
in 2015 there were 40 corporate accounts using
BOOKING.COM branded services to monitor enterprisewide corporate travel. In 2016, this number has already grown by 30% to 52 corporate accounts.

145
9. Booking.com has advertised and continues to
advertise extensively throughout the United States
and, in so doing, has reached millions of American consumers. The following is a brief summary of Booking.
com’s recent advertising in the United States.
a.

Television Advertising
i.

2014:
Booking.com aired BOOKING.
COM branded television commercials on
the following national channels in the
United States, reaching millions of U.S.
viewers: ABC, CBS, NBC Sports, Fox
Soccer, MSNBC, TBS, TNT, A&E, History, USA, Comedy Central, Bravo,
HGTV, FX, IFC, Travel, Style, E!, TNT,
AMC, ESPN, BBC, DIY, Fox Soccer,
NBA TV, Science Channel, TLC, Nat Geo,
SYFY, Spike, and TruTV.

ii.

2015:
Booking.com aired BOOKING.
COM branded television commercials on
the following national channels in the
United States: ABC, CBS, FOX, ESPN,
ESPN2, NFL Network, Adult Swim, TBS,
TNT, Travel, CNN, Comedy, Discovery,
E!, ESPN, ESPN2, Food, FX, FXX, FYI,
Golf, HGTV, History, IFC, ID, Travel,
MLB, NFL, Spike, Sundance, Syfy, TBS,
Tennis, TNT, and USA. These television
commercials
received
approximately
1,301,000,000 (1.3 billion) visual impressions from U.S. consumers.

iii. In 2016, Booking.com aired BOOKING.
COM branded television commercials on

146
the following national channels in the
United States: ABC, CBS, CW, ESPN,
FOX, NBC, Freeform, Adult Swim, Bravo, E!, FXX, HGTV, IFC, MSNBC, NBC
Sports, Sundance, TBS, Food Network,
TNT, TRU, Travel, TBS, Fox News,
ESPN2, Comedy, and AMC. These television commercials have received approximately 1,096,000,000 (1.96 billion)
visual impressions from U.S. consumers
thus far.
b.

Movie Theatre Advertising
i.

c.

In 2015, Booking.com also aired commercials via various movie theatre chains. It
placed advertisements through Screen
Vision Media and National CineMedia, a
cinema advertising company that operates
in AMC Entertainment Inc., Cinemark
Holdings, Inc., Regal Entertainment
Group, and other regional and national
movie theatre chains. These movie theatre commercials received approximately
40,000,000 (40 million) visual impressions
from U.S. consumers.

Internet Advertising
i.

In 2015, Booking.com placed BOOKING.
COM branded Internet advertisements on
highly popular Internet channels, including:
YouTube, Trade Desk, Yume,
NBCU, Fandango, Hulu, Match.com,
OKCupid, ESPN, Facebook, Maker,
Tremor, Travora, Hulu, AdTheorent, and

147
Pandora. These advertisements received
approximately 212,000,000 (212 million)
visual impressions from U.S. consumers.
ii.

In 2016, Booking.com has continued to
place BOOKING.COM branded Internet
advertisements on highly popular Internet
channels, including: Alphonso, Buzzfeed,
Conde Nast, FOX, Hulu, The Knot, Viacom, Afar, Amazon, CBS, YouTube, Modi,
AXS, LA Kings, E!, ESPN, Hulu, Roku,
Yume, TubeMogul, The Trade Desk, Facebook, Twitter, Pinterest, Instagram.
These advertisements received approximately 1,344,000,000 (1.34 billion) visual
impressions from U.S. consumers.

10. Booking.com continues to receive substantial
unsolicited press coverage in American media. In
2015, over 600 news articles referencing BOOKING.
COM were published in the United States. Thus far
in 2016, there have been over 650 news articles referencing BOOKING.COM published in the United
States.
11. Booking.com is regularly recognized by consumers and the industry as a leading global brand. In
was awarded “World’s Leading Online Travel Agency
Website” by World Travel Awards in 2014 and 2015.
In addition, Booking.com received a 2015 “Platinum”
Adrian Award by Hospitality Sales & Marketing Association International, a leading advertising company in
the U.S. hospitality industry. Further, Booking.com’s
“Booking Now” mobile app was recognized as an honoree in the “Best use of GPS or Location Technology”
category by the Webby Awards.

148
12. Booking.com is very popular on social media
and has a large and growing customer base on the
major social media platforms Facebook and Twitter.
a.

b.

c.

2014:
i.

Number of consumers that “liked”
BOOKING.COM on Facebook: 3,082,336

ii.

Number of consumers that “follow”
BOOKING.COM on Twitter: 61,100

2015:
i.

Number of consumers that “liked”
BOOKING.COM on Facebook: 4,332,372

ii.

Number of consumers that “follow”
BOOKING.COM on Twitter: 87,443

2016:
i.

Number of consumers that “liked”
BOOKING.COM on Facebook: 5,189,714

ii.

Number of consumers that “follow”
BOOKING.COM on Twitter: 103,640
*

*

*

*

*

17. The undersigned, being hereby warned that
willful false statements and the like so made are punishable by fine or imprisonment, or both, under
18 U.S.C. 1001, and that such willful false statements
may jeopardize the validity of the application or any
resulting registration, declares that the facts set forth
in this application and accompanying declaration are
true; all statements are made of his own knowledge are
true; and all statements made on information and belief
are believed to be true.

149
Date:

Sept. 12, 2016
By:

/s/ TODD DUNLAP
TODD DUNLAP

Name:

Todd Dunlap

Title:

Managing Director,
Booking.com, Americas

150
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION

No. 1:16-cv-425-LMB-IDD
BOOKING.COM B.V., PLAINTIFF
v.
MICHELLE K. LEE, UNDER SECRETARY OF COMMERCE
FOR INTELLECTUAL PROPERTY AND DIRECTOR OF
THE UNITED STATES PATENT AND TRADEMARK
OFFICE, ET AL., DEFENDANTS
New York, New York
Wednesday, Nov. 16, 2016
TELEPHONIC DEPOSITION OF EDWARD BLAIR, PhD.

*

*

*

*

*

[6]
Q. And just to confirm, I take it you are not taking
any medication or suffering from any disability today
that would impair your capacity to provide full, honest,
and accurate answers to my questions; is that right?
A.

I believe that is correct.

Q. Are you qualifying that answer? I am saying
that jokingly. Note for the record there was a hint of
reservation in your voice.
A. And my answer is somewhat joking that I was
under some disability.

151
Q. That’s fine. I will—particularly given that the
written word does not necessarily convey humor, I am
not trying to catch you or anything, and that’s why I
noted we are all being a little tongue-in-cheek there,
and I will try to avoid that moving forward.
Dr. Blair, have you ever performed a survey on
the subject of the genericness of a trademark?
A.

Yes, I have.

Q.

And how many times have you done that?

A. One that immediately comes to mind.
lieve there is one or two others.

I be-

[7]
Q.

Which is the one that comes to mind?

A. I cannot give you the specific styling of the
case, but the term involved was “comfort fit” as applied
to clothing.
Q.

And whom were you representing in that case?

A. I do not remember. I believe that Haggar was
one of the parties, but I don’t recall whether I was
working with Haggar or with another party.
Q. Were you testing the genericness or not of the
claimed mark on behalf of the brand owner or on behalf
of its adversary?
A. Again, I don’t recall. I was testing the genericness of the mark but I don’t recall.
Q. Do you recall the general format of that survey?
Was it a Teflon type survey?
A.

Yes, it was a Teflon survey.

152
Q.

How long ago, as best you recall, was that?

A.

Maybe 15 years ago.

Ten to 15 I would say.

Q. Do you know if in that case the survey, your
own or others, showed the mark to be generic [8] or
rather whether it showed the mark to be a brand?
A. My recollection was that it showed the mark to
be generic.
Q. And you said there might have been one or two
other surveys that you had done on genericness. Can
you recall, as it has been admittedly only a few moments, but have you been able to call to mind what
those were, if there were any?
A. No. They would have been prior to the ComfortFit case and I do not recall.
Q. So the best of your knowledge, you have not
done a genericness survey in the past 15 years?
A.

Past ten years.

I would say that’s correct.

Q. The next question is going to follow from what
you just answered.
Have you ever done a survey regarding the
genericness of a trademark that included the extension
“.com” or another top level domain?
A.

I have not.

Q. Have you ever had a survey of any kind accepted by a court?
A.

Yes.

153
[9]
Q. Can you identify any cases in which a survey of
yours was accepted by a court?
A.

I believe—do you have a copy of my report?

Q. We could go that route, and if that’s the easier
way to start, we can mark that as Blair Exhibit 1 if you
would like. Well, you don’t have to answer if you
would like, but if that’s the best way to start, that’s
what I will do if that’s what you suggest.
A. Well, I can tell you—with or without the report,
I can tell you that the case listed as 3M—no, not 3M.
Excuse me. The case listed as Anheuser-Busch Incorporated v. Innvopak Systems, and for the court
reporter, Innvopak is spelled I-N-N-V-O-P-A-K. I
believe the court accepted the survey in that case.
Court would have accepted a survey in Bell v. Starbucks, B-E-L-L, v. Starbucks, like the coffee.
Q.

Okay.

Any others that come to mind?

A. I believe—I believe there are others but they
don’t come to mind immediately.
Q. Well, why don’t we pause here, and do you have
with you a copy of your report dated I [10] think October was it 12th or 13th I think in this case?
A.

Yes, I do.

Q.

Let’s mark that as Blair Exhibit 1.

A. May I ask a question? So Mr. Casagrande has
a copy of the report. Should he be marking his in
some way and handing it to me? Does the copy I
brought in become an exhibit? What’s the procedure
of this?

154
Q. I think what we will simply do is use the copy
that the reporter has here in New York which now has
a sticker on it. But obviously, you can refer to whichever copy you have in front of you.
(Blair Exhibit 1, Report, marked for identification, as of this date.)
MR. CASAGRANDE: This is Tom. I am
going to give him my copy that I wrote Blair Exhibit
1 on so he has it for his records.
MR. MOSKIN:

That’s fine.

Q. And just referring to the—well, first, can you
identify what has been marked as Blair Exhibit 1 for
the record?
A.

It is a copy of my report in this [11] matter.

Q. And this was dated October 13th.
when you signed it?
A.

Is that

That is correct.

Q. And on the final page of the report, there is a
list of lawsuits in which you have testified in recent
years. Do you see that?
A.

Yes, I do.

Q. I see the Anheuser-Busch case mentioned
there, not the Bell v. Starbucks case, but that doesn’t
alter your testimony, I take it, that those are the two
that you recall where your surveys were accepted?
A.

Yes.

I believe that’s correct.

Q. And seeing this list, does this refresh your
memory of any other cases in which a survey of yours
was accepted by the court?

155
A.

No.

Q. Have there been any cases where a survey you
performed was rejected by a court?
A.

Not that I know of.

Q. When were you retained in this case by the US
Patent and Trademark Office or by Director Lee?
[12]
A.

I do not recall.

Q. As best you can recall, working back, for example, from the date of your report on October 13, 2016,
how long before that did you start becoming involved?
A. I think it would have been around the time of
Mr. Poret’s report. Maybe shortly after but I can’t
say—cannot say for sure.
Q. I don’t need you to—well, let me ask you this:
Do you recall how you became involved in this case,
how that process began?
A. I was contacted by Mary Beth Walker as best I
recall, and she asked if she could discuss a case with
me.
Q. Obviously you were retained. Can you tell me
what you did from the time of that initial contact by
Ms. Walker to the time of October 13th, when you
finished your report, what you did in order to prepare
that report?
A. I reviewed the materials that were listed in my
report as materials that I reviewed. I thought about
it right offhand. I don’t recall anything else.

156
Q. Let’s look at page 4 of your report [13] where it
says “Assignment and materials reviewed”.
A.

Yes.

I have it.

Q. Is that a complete list of all the materials you
reviewed in preparing this report, Blair Exhibit 1?
A.

As best I recall, yes.

Q. There was no other research you performed in
preparing your report besides the materials you reviewed here?
A.

I believe that’s correct.

Q. Do you know how much time overall you spent
from the inception of your call with Ms. Walker to the
time you prepared your report?
A.

I am going to say ballpark 30 hours.

Q. How did you come to select the materials that
were identified on page 4 of your report that you say
you reviewed?
MR. CASAGRANDE: This is Tom. I am
just going to caution the witness that, you know,
while he can talk about the fact of conversations
with Ms. Walker and consulting, not to get into the
actual substance of those calls. That would be attorney- client work product.
*

*

*

*

*

157
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION

Civil Action No. 1:16-cv-425-LMB-IDD
BOOKING.COM B.V., PLAINTIFF
v.
MICHELLE K. LEE, UNDER SECRETARY OF COMMERCE
FOR INTELLECTUAL PROPERTY AND DIRECTOR OF
THE UNITED STATES PATENT AND TRADEMARK
OFFICE, ET AL., DEFENDANTS
DECLARATION OF SARA JANE LESLIE
I, Sara-Jane Leslie, hereby declare:

1. I am the Class of 1943 Professor of Philosophy
at Princeton University and Director of both the Program in Linguistics at Princeton University and of
Princeton’s Program in Cognitive Science. I have
been retained as an expert in linguistics by Booking.
com BV (“Booking.com).
2. I have reviewed the comments of the PTO regarding my report and my very brief deposition testimony. Although I was asked very few questions at my
deposition, to avoid possible ambiguities, I can clarify
that in linguistic science, there is no need to distinguish
sharply between generic words or phrases and descriptive terms, which I understand in a general way is a
distinction that is made in trademark law. However, I
am not aware how that distinction would bear on my
report. The report is limited to general principles of
linguistic science (in particular the absence of any

158
scientific basis to say words can have meaning independent of use) and application of other general principles linguistics to assess whether the single term
BOOKING.COM can be understood to function as a
generic. As I understand the general legal principle, it
is that genericness is understood based on what is the
primary significance of a given term from the perspective
of ordinary consumers of the relevant goods or services.
I am not aware of any basis to suggest that individuals in
their capacities as consumers use language in some way
different from how they use language in general. Although I did not consider whether the term BOOKING.
COM might be descriptive under the legal definition, I
am not aware how that would otherwise bear on my other
conclusions, which are based on non-controversial principles of linguistic science.
3. Although I believe it should be clear from the
face of my report that I discuss only individual generic
words and terms, in particular whether the specific
term BOOKING.COM is generic, opposing counsel
chose instead to ask me at my deposition about specific
research I have conducted regarding “generic generalizations” such as “ducks lay eggs.” I am not aware
how my research into generic generalizations renders
inaccurate or unreliable my analysis of the general principles applicable to generic words (sometimes also
referred to in linguistics as mass terms). I would be
happy to provide further clarification if necessary.
I hereby declare under penalty of perjury this 10th
day of January, 2017, that the foregoing is true and
correct to the best of my knowledge.
/s/ SARAH-JANE LESLIE
SARAH-JANE LESLIE

159

SUPPLEMENTAL EXPERT REPORT OF
HAL PORET IN MATTER OF
BOOKING.COM B.V. V. MICHELLE K. LEE
***************************
RESPONSE TO EXPERT REPORT OF
EDWARD A. BLAIR, PH.D.

REPORT PREPARED FOR:

Foley & Lardner LLP

PREPARED BY:

Hal Poret
142 Hunter Ave
Sleepy Hollow, NY 10591
Oct. 2016

160
BACKGROUND AND PURPOSE

In connection with the above-referenced matter, Foley
& Lardner retained me to design and conduct a survey
to determine the extent to which, if at all, the term
BOOKING.COM is perceived to be a generic term by
relevant consumers. As detailed in my original report, 74.8% (299 out of 400) of all respondents identified BOOKING.COM to be a brand name. As also
detailed in my original report, the survey included
several control procedures to ensure that respondents
do not believe that all dot-com terms are brand names,
and to assess the tendency of respondents to answer
that a plainly generic term combined with “DOT.COM”
is a brand name. Only 33% of respondents identified
the term WASHINGMACHINE.COM as a brand,
validating that the dramatically higher 74.8% result for
BOOKING.COM must represent genuine consumer
perception of BOOKING.COM as a brand, and cannot
be dismissed due to any flaw in the survey process that
leads to a DOT-COM term being improperly deemed a
brand merely because it is a web address.
I have now been shown the Expert Report of Edward
A. Blair, Ph.D., in which Dr. Blair raises criticisms regarding my survey. This Supplemental Report contains my opinions regarding the Blair Survey. As
discussed below, Dr. Blair’s criticisms are without
merit, and contradict both the USPTO’s entire history
of analyzing genericness surveys and the USPTO’s own
position on why it believed BOOKING.COM should be
denied registration on the grounds of genericness in
the first place.
In connection with designing my survey and preparing
this report, I reviewed the materials cited in my origi-

161
nal report, the Expert Report of Edward A. Blair, and
other materials cited below. My additional work in
connection with this matter will be charged at my rate
of $625 per hour. My qualifications are detailed in my
original report and my updated CV is attached hereto
as Appendix A.
OPINIONS REGARDING BLAIR REPORT
I.

The Survey Universe

The universe for my survey was focused on consumers
who search for or make hotel or travel arrangements
online. Dr. Blair criticizes the survey as underinclusive, pointing out that the description of goods and
services in the applications is broader than the online
context, and also includes service provided through
methods other than the internet, such as in-person
services. While Dr. Blair is correct about the breadth
of the description of services in the relevant applications, the criticism ignores the fact that the focus of the
survey on the online context was done in order to be as
fair as possible to and squarely confront the USPTO’s
chief position, which was that the term BOOKING.
COM is a generic term for a website service (a dot.com).
The Trademark Examiner’s concern that led to the
determination that BOOKING.COM is generic is not
that BOOKING.COM would be generic for travel services provided in person, but that “relevant customers
would understand the term BOOKING.COM to refer to
an online reservation service for lodgings.” 1 Focusing
the survey on the online context was as conservative as
TTAB decision in In re Booking.com B.V. dated February 18,
2016 (Serial Nos. 79122365 and 7912236) pp. 32-33 (emphasis
added).
1

162
possible, because the use of BOOKING.COM in connection with online services is clearly the core area that
the Trademark Office considered to raise the question
of genericness.
Accordingly, measuring consumer
perception of BOOKING.COM in the online context
squarely tested the context in which the chance of
consumers understanding a mark ending in “.COM” to
be generic was greatest. If consumers do not regard
a mark ending in “.COM” as generic in the context of
online services, it makes no sense to imagine that surveying a broader context including in-person services
could have resulted in consumers believing the term to
be generic. Dr. Blair’s criticism that the survey was
under-inclusive due to focusing only on online services
is misplaced and contradicts the Trademark Office’s
very reason for rejecting the mark—that it believed
BOOKING.COM would be perceived as a generic term
for an “online” reservation service.
II.

Education of Respondents Regarding DOT-COM
Names as Brand or Generic.

Dr. Blair next argues that the respondents were not
sufficiently educated to understand the difference between brand names and generic names in the context of
DOT-COM terms, and that the screening “test” questions did not weed out those who did not sufficiently
understand the difference. Dr. Blair points to the fact
that 33% of respondents in the main survey answered
that WASHINGMACHINE.COM is a brand as supposed evidence of his point. While I disagree with Dr.
Blair’s analysis 2 (as discussed in more detail below),
As explained in my original report, the survey made very clear
that some DOT-COM terms are generic terms by including
2

163
there is no need for speculative debates because there
is an easy empirical way to resolve this issue. Even if
we were to assume Dr. Blair is correct to say that those
who identified WASHINGMACHINE.COM as a “brand”
were incorrect or not sufficiently educated and should
have been weeded out by prior questions testing understanding of DOT.COM terms (which I disagree
with), we can remove such respondents and look at the
remaining results. Removing all 132 respondents who
answered that WASHINGMACHINE.COM is a brand
yields a sufficiently large and robust sample size of 268
respondents who did not think WASHINGMACHINE.
COM is a brand, and for whom there is no doubt as to
their qualification and ability to distinguish between a
term like WASHINGMACHINE.COM and brand
names. The substantive result for BOOKING.COM
among these 268 respondents is shown here:

OFFICESUPPLIES.COM as one of three examples of generic
terms in the introductory section explaining generic terms. There
is no basis for suggesting respondents would not understand that a
DOT.COM term could be a generic term when a DOT.COM term
was presented as one of three examples in defining generic terms.

164
N=268
(Respondents who answered that
WASHINGMACHINE.COM
is
not a brand)
Brand name
Common name
Don’t know

ANSWER FOR
BOOKING.COM

65%
33%
2%

Accordingly, even if we were to weed out all respondents who answered that WASHINGMACHINE.COM
is a brand and base the analysis exclusively on those
who did not think WASHINGMACHINE.COM is a
brand (thus proving their ability to understand such
DOT.COM terms as not being brands as Dr. Blair
desires), the remaining consumer base still overwhelmingly perceives BOOKING.COM as a brand.
The 65% rate of identifying BOOKING.COM as a
brand among this subset is far above 50% and virtually
double the rate of answering that it is a common name
(33%). While I don’t agree that a Teflon Survey needs
to be re-analyzed to discount results, this additional
analysis is useful here as a simple demonstration that
Dr. Blair’s criticism has no substantive import, because
even if we were to assume the criticism had any
theoretical merit, we can precisely account for it by
putting aside the results of those who answered that
WASHINGMACHINE.COM is a brand and observing
that the same result ensues—i.e., BOOKING.COM is
clearly not perceived as a generic term even among
those who proved their ability to understand
DOT-COM terms as generic terms by identifying
WASHINGMACHINE.COM as generic.

165
III. Analysis of Survey Results

Dr. Blair also attempts to attribute significance to the
fact that if you were to subtract the 33.0% “brand”
result for WASHINGMACHINE.COM from the 74.8%
result for BOOKING.COM, you would have a difference of below 50% (41.8%). Dr. Blair cites no scientific or precedential basis for such an analysis, nor does
one exist to my knowledge. As a matter of survey
science, the Teflon format is designed to distinguish in
a primarily binary sense whether or not a term is perceived to be generic. The only basis for looking at a
50% threshold would be to determine if more respondents view the term as generic or more view it as a
brand, with a result over 50% establishing that more
view it in one manner than the other. There is no
basis at all for the position that the brand result for the
key term needs to exceed the result for another term
by a margin of 50%. The result for BOOKING.COM
is that far more respondents (74.8%, far over 50%)
perceived it to be a brand name than a common name
(23.8%). The result for WASHINGMACHINE.COM
was the opposite—far more respondents (60.8%) perceived it to be a generic term than perceived it to be a
brand (33%, well below 50%). The conclusion from
this is very simple. The survey successfully and reliably distinguishes between DOT-COM names that are
brands and those that are generic, as the result for
BOOKING.COM was heavily on the brand side and the
result for WASHINGMACHINE.COM was heavily on
the generic side. There is no reason at all that the
result for BOOKING.COM would need to exceed the
result for WASHINGMACHINE.COM by any particular threshold, let alone 50%.

166
Dr. Blair cites nothing to support his analysis of looking at a 50% threshold for the margin between the key
term (BOOKING.COM) and another term in the survey (WASHINGMACHINE.COM), nor have I ever
seen such an analysis performed or even suggested by
any court, the Trademark Office, or any researcher or
commentator. In the analysis of the original Teflon
survey in E.I. duPont de Nemours & Co. v. Yoshida
Int’l, Inc. 393 F. Supp. 502, 525-527, 185 U.S.P.Q. 597,
615-16 (E.D.N.Y. 1975), no such analysis was done.
The analysis focused on the 68% result for term
TEFLON and did not subtract any other result or
reach a conclusion based on the numerical margin
between the result for TEFLON and any of the other
terms. Nor have I seen such an analysis done in any
other case involving a TEFLON survey, include
TEFLON surveys assessing the marks STEELHEAD,
KISSES, UGG, BEANIES, COUNTRY MUSIC ASSOCIATION, SWISS ARMY, and MARCH MADNESS. In the recent ABA publication entitled Trademark and Deceptive Advertising Surveys, Law, Science,
and Design, there is an entire chapter on genericness
surveys, including a lengthy discussion of the TEFLON survey and numerous cases involving TEFLON
surveys. There is no suggestion anywhere in the
discussion of the TEFLON format or numerous applications of the format that the result from another term
within the survey would be subtracted from the key
result with the expectation that the resulting difference
would exceed 50%. 3 Based on my experience having

Jay, E. Deborah (2012) “Genericness Surveys in Trademark
Disputes,” in Trademark and Deceptive Advertising Surveys:
3

167
conducted many TEFLON surveys, seen many other
TEFLON surveys from other researchers, and reviewed analyses of TEFLON surveys from courts, the
Trademark Office, and commentators, Dr. Blair’s
methodology for looking at the results appears to have
no support or precedent.
As already indicated above, even if one’s concern was
to control for the possible impact of respondent “misunderstanding” of DOT-COM terms, the far more
logical way to account for that is not to arbitrarily
subtract the result for WASHINGMACHINE.COM
among all respondents from the result for BOOKING.
COM for all respondents, but to simply put aside
the data from respondents who answered that
WASHINGMACHINE.COM is a brand. As explained
above, this does not meaningfully change the analysis,
as nearly twice as many respondents in the subset who
did not think WASHINGMACHINE.COM is a brand
perceived BOOKING.COM as a brand (65%) as perceived it as a common name (33%). This analysis
plainly accounts for any of the issues Dr. Blair raises
and shows them to be without substantive merit, and
further demonstrates that consumer perception is
squarely (well over 50%) on the side of perceiving
BOOKING.COM as a brand.
IV. Variation in Results by Order

Finally, Dr. Blair attempts to suggest that variation in
the results based on the order of the terms shown somehow undermines the results, because variation suggests that the context of the other terms had an impact
“law, Science, and Design”, edited by Shari Seidman Diamond and
Jerre B. Swann, American Bar Association (pp. 101-145).

168
on the responses. Dr. Blair is, of course, correct that
the results varied based on the orderings of the terms.
His analysis that this suggests a problem, however,
completely misses the point. Virtually every TEFLON survey has variation in results based on the different ordering of terms, whether the terms relate to
DOT-COMs or not. Indeed, the very reason that
TEFLON surveys include various orderings of the
terms is because it is well known and expected that
responses to terms often vary in this manner. The
purpose of having various orderings of terms as a
standard feature of the TEFLON survey is to control
for this phenomenon. By showing the term at issue in
various positions (here, 1st, 3rd, 5th and 7th) and by
showing the term at issue before each other term and
after each other term an equal number of times, the
overall result averages out and accounts for the expected order effects. The mere fact that results vary
by order cannot possibly be considered a flaw that
undermines the reliability of a TEFLON survey, when
the fundamental design of the TEFLON survey is an
acknowledgment that such variation is expected to
occur and an agreed-upon methodology for controlling
for it.
Dr. Blair’s analysis also fails to confront the simple fact
that the “brand” result for BOOKING.COM was over
50% and well-larger than the “common” result in every
one of the orderings he discusses. Perhaps even more
critically, Dr. Blair ignores the fact that the result for
BOOKING.COM when it was the first term shown was
as follows:

169
• 74% brand
• 24% common
• 2% don’t know
If the concern is that the context can impact the results
based on the other terms shown, it is a simple solution
to look at the first rotation where BOOKING.COM is
shown first and observe that the result is overwhelmingly (74%) in favor of “brand” when BOOKING.COM
is asked about prior to any other terms and, thus, could
not have been influenced by other terms.
Likewise, Dr. Blair points out that the lowest rate of
answering that WASHINGMACHINE.COM was a
brand (18.0%) occurred when it was the first dot.com
term asked about in the survey. Again, this is an easy
way to see how the term WASHINGMACHINE.COM
is perceived before any other dot.com terms were
shown that could have possibly impacted their perceptions of WASHINGMACHINE.COM. 4
In sum, even if one were concerned about the impact of
context due to the order of terms and was not satisfied
by the fact that the TEFLON survey is inherently
designed to deal with this issue by including various
orderings and averaging out responses across the orderings, we can simply look at the fact that 74% of
Dr. Blair also points to the variation in results by ordering as
supporting his position that respondents were not effectively educated about brand names versus common names. Again, even to
the extent one believed this to be an issue, it is easily controlled for
by looking at the subset of 268 respondents who all “correctly”
answered that WASHINGMACHINE.COM is not a brand, thus
proving their ability to correctly understand that such DOT-COM
terms can be generic. The result among such respondents was
65% brand identification of BOOKING.COM.
4

170
respondents who saw BOOKING.COM as the first
term (before it could be influenced by any other terms)
thought it was a brand name and only 18% of respondents who saw WASHINGMACHINE.COM as the first
dot.com term thought it was a brand name. Again,
this overwhelmingly establishes that the survey successfully distinguishes brand names from common names in
the DOT.COM context and that the issues Dr. Blair
raises have no substantive merit and don’t undermine
the reliability of the survey’s overall result or conclusions.
/s/ HAL PORET
HAL PORET

Dated:

Oct. 28, 2016

171

APPENDIX A

172
Hal L. Poret (hal.inc42@gmail.com; 914-772-5087)
Education

1998

Harvard Law School, J.D., cum laude
• Editor/Writer—Harvard Law Record
• Research Assistant to Professor Martha
Minow

1995

S.U.N.Y. Albany, M.A. in Mathematics,
summa cum laude
• Statistics
• Taught calculus/precalculus/statistics

1993

Union College, B.S. in Mathematics with
honors, magna cum laude
• Phi Beta Kappa
• Resch Award for Achievement
Mathematical Research

in

Employment

2016-

President, Hal Poret LLC
• Design, supervise, and analyze consumer surveys, including Trademark, Trade
Dress, Advertising Perception, Consumer Deception, Claims Substantiation
studies, Damages, and Corporate Market Research Surveys
• Consulting regarding survey design and
review of other surveys
• Provided expert testimony at deposition
and/or trial regarding survey research
in over 100 U.S. District Court litigations and proceedings in front of TTAB,
NAD, FTC and FCC.

173
2004-2015 Senior Vice President, ORC International
• Designed, supervised, and analyzed
consumer surveys in legal and corporate
market research areas, and provided
expert testimony regarding survey research in legal cases.
2003-2004 Internet Sports Advantage
• Developed and marketed proprietary
internet sports product, and licensed
trademark and intellectual property
rights.
1998-2003 Attorney, Foley Hoag & Eliot, Boston, MA
• Represented corporations and individuals in trademark, trade dress, advertising, product, and related legal disputes.
• Worked with survey experts in developing and using surveys as evidence in
trademark, trade dress and advertising
disputes.

174
Testimony at Trial or by Deposition Past 4 Years

(Party who retained me shown in bold)
2016 Booking.com B.V. v. Michelle USDC EastLee
ern District
(Deposition)
of VA
2016 Variety

Stores

Stores, Inc.

(Trial)

v.

Walmart USDC East-

ern District
of NC

2016 American Cruise Lines v. USDC DisAmerican Queen Steamboat trict of DE
Company
(Deposition)
2016 Ducks Unlimited v. Boondux USDC
LLC and Caleb Sutton
Western
(Deposition)
District
of TN
2016 Universal Church v. Univ. Life USDC
Southern
Church
District
(Deposition)
of NY
2016 U. of Houston v. Houston Col. USDC
of Law (Deposition and PI Southern
District
Hearing Testimony)
of TX
2016 Navajo Nation v. Urban Out- USDC District of NM
fitters (Daubert Hearing)

175
2016 Beaulieu v. Mohawk Carpet USDC
Dist.
Northern
District
(Deposition)
of GA
2016 Efficient Frontiers v. Reserve USDC
Central
Media
District
(Deposition)
of CA
2016 McAirlaids v. Medline Indus- USDC
tries
Eastern
(Deposition)
District
of VA
2016 Under Armour v. Ass Armor USDC
(Deposition)
Southern
District
of FL
2016 C5 & CoorsTek v. CeramTec USDC District of Col(Deposition and trial)
orado
2016 BBC v. Stander
(Deposition)

USDC Central District
of CA

2016 Caterpillar v. Tigercat
(Deposition)

USPTO
Opposition

2016 Premier v.
(Deposition)

Dish

Network USPTO

Opposition

176
2016 Omaha Steaks v. Greater USPTO
Omaha
Opposition
(Rebuttal Testimony)
2016 EMC v. Pure Storage
(Deposition)

USDC District of MA

2016 Top Tobacco v. North Atlantic USPTO
Opposition
(Deposition)
2016 Ascension Health v. Ascension USDC
Eastern
Ins.
(Deposition
District
of MO
2016 Quoc Viet v. VV Foods
(Deposition and Trial)

USDC Central District
of GA

2016 Joules v. Macy’s Merchandis- USDC
Southern
ing Group
District
(Deposition and trial)
of NY
2015 MMG v. Heimerl & Lammers USDC Dis(Deposition and trial)
trict of MN
2015 PRL USA v. Rolex
(Deposition)

USDC
Southern
District
of NY

2015 Adidas v. Skechers
USDC Dis(Deposition and Injunction trict of OR
hearing)

177
2015 Bison Designs v. Lejon
(Deposition)

USDC District of CO

2015 Barrera v. Pharmavite
(Deposition)

USDC Central District
of CA

2015 Flowers v. Bimbo Bakeries USDC Middle District
(Deposition)
of GA
2015 Razor USA v. Vizio
(Deposition)

USDC Central District
of CA

2015 Allen v. Simalasan
(Deposition)

USDC
Southern
District
of CA

2015 Church & Dwight v. SPD
(Deposition and trial)

USDC
Southern
District
of NY

2015 BMG Rights Mgmt. v. Cox USDC Eastern District
Enterprises
of VA
(Deposition and trial)
2015 Verisign v. XYZ.COM LLC USDC Eas(Deposition)
tern District
of VA
2015 Select Comfort v.
Comfort
(Deposition)

Personal USDC District of Minn

178
2015 Farmer Boys v. Farm Burger USDC Cen(Deposition)
tral District
of CA
2015 Ono v. Head Racquet Sports USDC Cen(Deposition)
tral District
of CA
2015 Select Comfort v.
Sealy (Deposition)

Tempur USDC District of Minn

2015 ExxonMobil v. FX Networks USDC
(Deposition)
Southern
Central
District
of TX
2015 Mullins v. Premier Nutrition USDC
(Deposition)
Northern
District
of CA
2015 Delta v. Network Associates USDC Mid(Deposition)
dle District
of FL
2015 Brady v. Grendene
(Deposition)

USDC Central District
of CA

2015 Zippo v. LOEC
(Deposition)

USDC Central District
of CA

179
2015 Maier v. ASOS (Deposition)

2015 Converse In re:
Footwear
(Deposition and trial)

Certain International
Trade Commission

2014 Scholz v. Goudreau
(Deposition)
2014 Economy
Rent-A-Car
Economy Car Rentals
(TTAB Testimony)
2014 Weber v. Sears
(Deposition)

USDC District of Maryland

USDC District of Mass
v. USPTO

USDC
Northern
District
of IL

2014 Native American Arts v. Stone USDC
Northern
(Deposition)
District of IL
2014 Gravity Defyer v. Under Ar- USDC Cenmour
tral District
of CA
(Trial)
2014 Adams v. Target Corporation USDC Central District
(Deposition)
of CA
2014 PODS v. UHAUL
(Deposition and trial)

USDC Middle District
of FL

180
2014 Flushing v. Green Dot Bank USDC
(Deposition)
Southern
District
of NY
2014 Amy’s Ice Creams v. Amy’s USDC
Western
Kitchen
(Deposition)
District
of TX
2014 Unity Health v. UnityPoint USDC
Western
(Deposition)
District
of WI
2014 In re: NCAA Student-athlete USDC
litigation
Northern
District
(Deposition and Trial)
of CA
2014 Spiraledge v. SeaWorld
(Deposition)

USDC
Southern
District of CA

2014 Diageo N.A. v. Mexcor
(Deposition and trial)

USDC
Southern
District
of TX

2014 Pam Lab v. Virtus Pharmaceu- USDC
tical
Southern
(Deposition and trial)
District
of FL

181
2014 US Soccer Federation v. Play- Arbitration
ers Ass’n
(Arbitration Testimony)
2014 Estate of Marilyn Monroe v. USDC
AVELA
Southern
District
(Deposition)
of NY
2014 Kelly-Brown v. Winfrey, et al. USDC
Southern
(Deposition)
District
of NY
2014 Virco Mfg v. Hertz & Academia USDC Central District
(Deposition)
of CA
2014 In re:
tion

Hulu Privacy Litiga- USDC
Northern
(Deposition)
District
of CA

2013 Jackson Family Wines v. Dia- USDC
geo
Northern
(Deposition)
District
of CA
2013 Bubbles, Inc. v. Sibu, LLC. USDC
(Deposition)
Eastern
District
of VA

182
2013 Clorox v. Industrias
(Deposition)

Dalen USDC

Northern
District
of CA

2013 Globefill v. Elements Spirits USDC Central District
(Deposition and trial)
of CA
2013 Active Ride Shop v. Old Navy USDC Central District
(Deposition and trial)
of CA
2013 Macy’s Inc. v. Strategic Marks Northern
LLC.
District
of CA
(Deposition)
2013 Karoun Dairies, Inc. v. Karoun Southern
District
Dairies, Inc.
(Deposition)
of CA
2013 Kraft Foods v. Cracker Barrel Northern
Old Country
District
(Deposition and Trial)
of IL

2013 Bayer Healthcare v. Sergeants USDC
Pet Care
Southern
District
(Deposition and Trial)
of NY
2013 JJI International v. The Bazar USDC DisGroup, Inc.
trict of RI
(Deposition)

183
2013 Fage Diary USA v. General Northern
Mills
District
(Deposition)
of NY
2013 Gameshow Network v.

F.C.C.

Cablevision

(Deposition and trial)
2013 Telebrands v. Meyer Marketing USDC
(Deposition)
Eastern
District
of CA
2012 Marketquest v. BIC
(Deposition)

USDC
Southern
District
of CA

2012 Hornady v. DoubleTap
(Deposition)

USDC District of Utah

2012 Briggs/Kohler
Honda
(Deposition)

Opposition

2012 Apple v. Samsung
(Deposition and Trial)

2012 Forest River
(Deposition)

v.

to TTAB

USDC
Northern
District
of CA

Heartland USDC

Northern
District
of IN

184
2012 SPD v. Church & Dwight USDC Dis(Deposition)
trict of NJ
2012 Brighton Collectibles v. Texas USDC
Southern
Leather
(Deposition)
District
of CA
2012 Cytosport v. Vital Pharmaceu- USDC
ticals
Eastern
District
(Deposition)
of CA
2012 Authors Guild v. Google
(Deposition)

USDC
Southern
District
of NY

2012 Clear Choice v. Real Choice TTAB
(Opposition testimony)
2011 Borghese v.
(Deposition)

Perlier

2011 My

et

Favorite Company
Wal-Mart (Deposition)

2011 PepsiCo v. Pirincci
(Opposition testimony)

al. USDC
Southern
District
of NY
v. USDC Central District
of CA
TTAB

185
2011 GAP Inc. v. G.A.P. Adventures USDC
(Trial)
Southern
District
of NY
2011 Merck Eprova v. Brookstone USDC
Southern
(Deposition and trial)
District
of NY
2011 Wella, Inc. v. Willagirl LLC USDC
(Deposition)
Southern
District
of NY
2011 Bauer Bros. v. Nike
(Deposition)

USDC
Southern
District
of CA

2011 Aviva Sports v. Manley
(Deposition)

USDC District of Minnesota

2011 American Express
Card LLC
(Deposition)

v.

Black USDC
Southern
District
of NY

2011 Gosmile v. Dr. Levine
(Preliminary Injunction Trial)

USDC
Southern
District
of NY

186
Presentations

What’s New in Advertising Law, Claim Support and
Self-Regulation? (ABA Seminar, November 17, 2015)
How Reliable is Your Online Survey (2015 ASRC Annual Conference, September 29, 2015)
What Do Consumers Think? Using Online Surveys to
Demonstrate Implied Claims (ANA Advertising Law
and Public Policy Conference, April 1, 2015)
Cutting Edge Developments in Trademark Surveys
(Rocky Mountain Intellectual Property & Technology
Institute, May 30, 2013)
Using Survey Experts in Trademark Litigation (DRI
Intellectual Property Seminar, May 9, 2013)
Surveys in Trademark and Advertising Litigation (2013
National CLE Conference, Snowmass Colorado, January 2013)
Internet Survey Issues (PLI Hot Topics in Advertising
Law Conference, March 2012)
Measuring Consumer Confusion Through Online Surveys (2011 Midwest IP Institute) (September, 2011)
Online Surveys as Evidence in Trademark Disputes
(International Trademark Association Annual Conference, May 2011)
Managing Intellectual Property Trademark Roundtable (April 7, 2010)
Recent Trends in Trademark Surveys (Virginia State
Bar Intellectual Property Conference, October 2009)

187
Trademark Surveys in US Litigation (presentation for
International Trademark Association Annual Conference) (May 2009)
How to Conduct Surveys for use in Trademark Disputes (Practicing Law Institute Advanced Trademark
Law Conference) (May 2009)
Trademark and Advertising Perception Studies for
Legal Disputes (Opinion Research Corporation Seminar, June 2008)
Understanding Advertising Perception Surveys (Promotions Marketing Association Annual Law Conference) (November 2007)
Designing and Implementing Studies to Substantiate
Advertising Claims (American Conference Institute
Claims Substantiation Conference, October 2007)
Surveys in Trademark and False Advertising Disputes
(InfoUSA Webinar, June 2007)
Measuring Consumer Perception in False Advertising
and Trademark Cases, (multiple presentations) (2007)
Potential Errors to Avoid In Designing a Trademark
Dilution Survey (American Intellectual Property Association paper, April 2007)
Consumer Surveys in Trademark and Advertising
Cases (presentation at Promotions Marketing Association Annual Law Conference) (December 2006)
Use of Survey Research and Expert Testimony in
Trademark Litigation, (International Trademark Association Annual Conference, May 2006)
Survey Research as Evidence in Trademark/Trade
Dress Disputes (multiple presentations) (2006)

188
Using Surveys to Measure Secondary Meaning of
Trade Dress, Legal Education Seminar, Boston, April
2006
Publications/Papers

Cutting Edge Developments in Trademark Surveys
(Rocky Mountain Intellectual Property & Technology
Institute, May 2013)
Hot Topics and Recent Developments in Trademark
Surveys (paper for May 2013 DRI Intellectual Property Conference)
Surveys in Trademark and Advertising Litigation (2013
National CLE Conference, Snowmass Colorado, January 2013)
Trademark Litigation Online Consumer Surveys
(Practical Law Company Intellectual Property and
Technology, May 2012)
Hot Topics in Advertising Law 2012 (Contributor to
Practising Law Institute publication)
A Comparative Empirical Analysis of Online Versus
Mall and Phone Methodologies for Trademark Surveys,
100 TMR 756 (May-June 2010)
Recent Trends in Trademark Surveys (paper for Virginia State Bar Intellectual Property conference, October 2009)
Trademark Dilution Revision Act breathes new life into
dilution surveys (In Brief PLI website, June 2009)
The Mark (Survey Newsletter; three editions 2009)

189
Hot Topics in Trademark Surveys (paper for Practicing Law Institute Advanced Trademark Law Conference) (May 2009)
The Mark (Survey Newsletter, 2008)
Trademark and Advertising Survey Report (Summer
2007)
Avoiding Pitfalls in Dilution Surveys under TDRA
(AIPLA Spring Conference, Boston, May 2007)
Commentary

Comment on Hotels.com case (on TTABLOG.COM,
July 24, 2009)
Comment on Nextel v. Motorola (on TTABLOG.COM,
June 19, 2009)
PLI All-Star Briefing Newsletter, “What does the
Trademark Dilution Revision Act mean for the future
of Dilution Surveys?” (June 2009)
Professional Memberships/Affiliations

American Association of Public Opinion Research
Council of American Survey Research Organizations
International Trademark Association
National Advertising Division of Council of Better
Business Bureaus

190
Response to Office Action

The table below presents the data as entered

Input Field

Entered

SERIAL NUMBER

79122366

LAW OFFICE
ASSIGNED

LAW OFFICE 107

MARK SECTION
MARK FILE NAME

http://tsdr.uspto.gov/img/
79122366/large

LITERAL ELEMENT

BOOKING.COM

STANDARD CHARACTERS

NO

USPTO-GENERATED IMAGE

NO

ARGUMENT(S)

In a Non-Final Office Action dated November 16,
2013, the U.S. Patent and Trademark Office refused
registration of the mark BOOKING.COM (Stylized) on
the basis that the mark is alleged to be generic. In
the alternative, the PTO Examiner maintained the
descriptiveness refusal, finding Applicant’s evidence of
acquired distinctiveness insufficient to overcome the
descriptiveness refusal.
Applicant submits that
BOOKING.COM (Stylized) is neither generic nor de-

191
scriptive. In the alternative, Applicant’s evidence of
acquired distinctiveness demonstrates that its mark
has acquired distinctiveness and is entitled to registration under Section 2(f ).
I.

BOOKING.COM is Inherently Distinctive

A mark is “merely descriptive” of the goods and
services if it would immediately convey to one seeing
or hearing it the thought of the product. In re American Soc’y of Clinical Pathologists, Inc., 169 U.S.P.Q.
800, 801 (C.C.P.A. 1971). Conversely, “if the mental
leap between the word and the product’s attributes is
not almost instantaneous, this strongly indicates suggestiveness, not direct descriptiveness.” J. Thomas
McCarthy, 2 McCarthy on Trademarks § 11:67 (4th ed.
1999, Rev. 3/2008) (emphasis supplied); In re Tennis in
the Round, Inc., 199 U.S.P.Q. 496, 497 (T.T.A.B. 1978)
(TENNIS IN THE ROUND found not to be descriptive of tennis facilities); Hasbro, Inc. v. Lanard Toys,
Ltd., 858 F.2d 70 (2d Cir. 1988) (GUNG-HO found to be
suggestive rather than descriptive of a cartoon-based
toy action doll); Tanel Corp. v. Reebok Int’l, Ltd.,
774 F. Supp. 49 (D. Mass. 1990) (360º not descriptive of
sports shoes).
Applicant submits that the term
BOOKING (and certainly the actual term for which
registration is sought, BOOKING.COM) does not immediately convey the nature of the Applicant’s services
to the relevant purchasing public. Stated differently,
and even assuming it is fair to dissect the word component of the mark into constituent elements, any
meaning of the term BOOKING that would be relevant
to the average purchasers in the United States, with
respect to the services identified in the application,
would not be forthwith understood immediately with

192
any particularity—the relevant standard. See In re
Stereotaxis, Inc., 429 F.3d 1039 (Fed. Cir. 2005) (emphasis added); TMEP § 1209.01(b); In re Major League
Baseball Properties, Inc., Serial Nos. 78/183,355 and
78/183,381 (T.T.A.B. March 2, 2005) (non-precedential).
Instead, BOOKING.COM is inherently ambiguous,
as “booking” can refer to many different things, including entertainment * * *
*

*

*

*

*

group (such as a singer or band) to perform at a particular place”; again, not the services sought by Applicant;
(5) A dictionary definition from Cambridge Dictionaries Online for the British meaning of “Booking”
which, again, is irrelevant to the question of how American consumers will perceive the mark;
(6) Registrations for the marks RESORT BOOKINGS, FLEXIBLE BOOKING, EBOOKING.COM,
and EVENTBOOKING.COM. Applicant is not seeking to register the mark “BOOKING” or “BOOKINGS”
and therefore the registrations for RESORT BOOKINGS and FLEXIBLE BOOKING are inapt. The
registration for EBOOKING.COM, Reg. No. 3888087
was granted in 2010, alleging dates of first use of 2010.
Applicant has been using the mark BOOKING.COM in
U.S. commerce since at least as early as 2006, far prior
to the date alleged by the registrant. Applicant considers the use and registration of EBOOKING.COM to
be a potential infringement and submits that it is not
probative that BOOKING.COM is commonly used
within the industry. Moreover, the fact that the
Trademark Office registered the term EBOOKING.

193
COM (merely the addition to Applicant’s longestablished mark of the designation “e,” recognized to
designate electronic commerce, demonstrates the
fundamental inconsistency of the current contention
that the term is generic).
The registration for
EVENTBOOKING.COM covers unrelated services
and therefore is not probative of the significance of the
mark in connection with Applicant’s services;
(7) Dictionary definitions of “.com” and registrations containing “.com”,
(8) Registrations for various marks which contain
neither “BOOKING” nor “.COM” (it is unclear what
relevant these marks have to the matter at hand); and
(8) A handful of websites with the character string
“booking” somewhere in the URL. These websites
are addressed in detail later in this response.
Conspicuously absent is any dictionary definition of
BOOKING.COM. [1] Nor is there any evidence that
the relevant public primarily understands the mark
“BOOKING.COM” to refer to any genus of goods or
services. It is scarcely imaginable that a consumer,
wishing to speak to his or her human travel agent, might
say “I am going to call my BOOKING.COM” or “I am
going to drive over to the BOOKING.COM to pick up my
tickets.” Likewise, there is no evidence that consumers
in the online world refer to any of the many competing
travel sites such as Travelocity, Expedia, Orbitz, or any
others, as “Booking.coms” or even “Bookings.” Similarly, there is no evidence that travel agents in the bricks
and mortar world or the online world call themselves
“Booking.coms” or even “Bookings.”

194
Not one of the uses cited by the Examining Attorney
shows use of the actual composite term that is the actual
trademark, BOOKING.COM. The United States Supreme Court has held, and it has always been an the
unquestioned first principle of trademark law, that “The
commercial impression of a trade-mark is derived from it
as a whole, not from its elements separated and considered in detail. For this reason it should be considered in
its entirety . . . ” Estate of P.D. Beckwith, Inc. v.
Comm’r of Patents, 252 U.S. 538, 545-46 (1920); In re
Hutchinson Technology, 852 F.2d 552 (Fed. Cir. 1988)
(Board erroneously failed to consider the term HUTCHINSON TECHNOLOGY as a whole). The Examining Attorney has at no point sought to reconcile his views
with this first principle of trademark law. Indeed, because the trademark also serves as a URL, it must by
definition point to only one unique address on the internet. As a matter of law, it could not function even as a
URL (much less as a trademark) if others could use the
term to refer to an entire genus of services. Although
Applicant recognizes that the PTO has long held that the
TLD “.com” itself has no source indicating function, Applicant is not seeking rights in that designation. Rather,
it is seeking to register the composite term “BOOKING.
COM” in stylized lettering. Although the element .com
may, in and of itself, have no source indicating function,
that is not the same as saying it has no meaning whatsoever.
It plainly does have meaning, and where the element is used as part of a composite term it plainly does
have add meaning to the composite term—in some instances thoroughly transforming the source-indicating
function of a word. For instance, “Amazon” is a river
(or to classics scholars a tribe of wild * * *
*

*

*

*

*

195
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION

Civil Action No. 1:16-cv-425-LMB-IDD
BOOKING.COM B.V., PLAINTIFF
v.
MICHELLE K. LEE, UNDER SECRETARY OF COMMERCE
FOR INTELLECTUAL PROPERTY AND DIRECTOR OF
THE UNITED STATES PATENT AND TRADEMARK
OFFICE, ET AL., DEFENDANTS
Nov. 18, 2016
PLAINTIFF’S RESPONSES TO DEFENDANTS’
FIRST SET OF INTERROGATORIES

Plaintiff responds as follows to the first set of interrogatories of Defendants Michelle K. Lee, in her official capacity as Under Secretary of Commerce for
Intellectual Property and Director of the United States
Patent and Trademark Office, and the United States
Patent and Trademark Office, which was served electronically by David Moskowitz, Assistant United States
Attorney, on September 22, 2016.
INTERROGATORIES

1.

Identify all domain names owned or controlled
by you as of the date of the service of these interrogatories that forward, point, or redirect to
a name server on bkngs.com.

196
OBJECTION:

Plaintiff objects to this Request on the grounds that
the existence and identity of other domain names registered by Booking.com to prevent “typosquatting” is
irrelevant, not proportional to the needs of the case,
and not likely to lead to the discovery of admissible
evidence.
RESPONSE:

Without prejudice to or waiver of the foregoing objections, pursuant to Fed. R. Civ. P. Rule 33(d), plaintiff will produce documents responsive to this request.
2.

Attached as Interrogatory Exhibit A is a document titled “Bkngs.com Reverse Name Server
Lookup.” Interrogatory Exhibit A identifies
“3,457 domains pointed to a name server on
bkngs.com.” To the extent not identified in
response to Interrogatory No. 1, identify all
domain names owned by you as of the date of
the service of these interrogatories that are
“pointed to a name server on Bkngs.com” (as
that phrase in used in Interrogatory Exhibit A).

OBJECTION:

Plaintiff objects to this Request on the grounds that
the existence and identity of other domain names registered by Booking.com to prevent “typosquatting” is
irrelevant, not proportional to the needs of the case,
and not likely to lead to the discovery of admissible
evidence.

197
RESPONSE:

Without prejudice to or waiver of the foregoing objections, pursuant to Fed.R.Civ.P. Rule 33(d), plaintiff will produce documents responsive to this request.
3.

Identify any instances in which Booking.com
has argued that the .com portion of a domain
name has no trademark significance.

OBJECTION:

Plaintiff objects to this Request on the grounds that
it is irrelevant, not proportional to the needs of the
case, not likely to lead to the discovery of admissible
evidence.
RESPONSE:

Without prejudice to or waiver of the foregoing objections, and as Plaintiff understands this request
based on the briefing of Defendants’ motion, Plaintiff is
not aware that it has ever taken the position that the
character string “.com” alone has trademark significance, including in the “Bookit” litigation cited by the
PTO (in which genericness was not at issue) and in the
present action. In the portion of a brief in the
“Bookit” litigation cited by Defendants, Booking.com
quoted a McCarthy treatise, which stated “The ‘.com’
portion of the domain name has no trademark significance and is essentially the generic locator for all
names in that top level domain.”) PTO-00033. Booking.
com is currently unaware of any other instances in
which it has relied upon this or a similar quote, but
generally believes that it has always argued positions
consistent with its current position that the trademark
BOOKING.COM as a whole is protectable as a trade-

198
mark, not that the element “.com” alone has trademark
significance.
Dated:

Nov. 18, 2016
Respectfully submitted,
FOLEY & LARDNER LLP

/s/

BRIAN J. KAPATKIN
BRIAN J. KAPATKIN (VSB No. 75061)
Katherine P. Califa (admitted pro hac vice)
Washington Harbour
3000 K Street, NW, Suite 600
Washington, DC 20007
Tel.: (202) 945-6054
Fax: (202) 672-5399
BKapatkin@foley.com
KCalifa@foley.com
Counsel for Plaintiff
Jonathan E. Moskin (admitted pro hac vice)
90 Park Ave.
New York, NY 10016
Tel.: (212) 682-7474
Fax: (212) 687-3229
JMoskin@foley.com
Counsel for Plaintiff

199
CERTIFICATE OF SERVICE

I hereby certify that on this 18th day of November,
2016, I caused the foregoing PLAINTIFF’S RESPONSE
TO DEFENDANT’S FIRST SET OF INTERROGATORIES to be served via email on the following counsel of

record for Defendants:

DENNIS C. BARGHAAN, JR.
DAVID MOSKOWITZ
Assistant U.S. Attorneys
2100 Jamieson Avenue
Alexandria, Virginia 22314
dennis.barghaan@usdoj.gov
david.moskowitz@usdoj.gov
MARY BETH WALKER
Associate Solicitors
USPTO
Madison Building
600 Dulany Street
Alexandria, Virginia 22314
marybeth.walker@uspto.gov
By:

/s/ BRIAN J. KAPATKIN
BRIAN J. KAPATKIN (VSB No. 75061)
FOLEY & LARDNER LLP
3000 K St. NW, Suite 600
Washington, D.C. 20007
bkapatkin@foley.com
Telephone: (202) 672-5300
Facsimile: (202) 672-5399

200

201

202

203

204

205

206

207

208

209

210

211

212

213

214

215

216

217

218

219

220

221

222

223

224

225

226

227

228

229

230

231

232

233

234

235

236

237

238

239

240

241

242

243

244

245

246

247

248

249

250

251

252

253

254

255
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA

Civil Action No. 1:16-cv-425-LMB-IDD
BOOKING.COM B.V., PLAINTIFF
v.
MICHELLE K. LEE, UNDER SECRETARY OF COMMERCE
FOR INTELLECTUAL PROPERTY AND DIRECTOR OF
THE UNITED STATES PATENT AND TRADEMARK
OFFICE, ET AL., DEFENDANTS
DECLARATION OF EDWARD A. BLAIR

I, Edward A. Blair, hereby declare as follows:
1. I am over eighteen (18) years of age and believe
in the obligations of an oath.
2. The attached is a true and correct copy of my
expert report in this case. The statements I made in
that report represent my professional opinion on the
matters discussed.
I hereby declare under penalty of perjury that the
foregoing is true and correct.
Dated:

Oct. 14, 2016
/s/

E.A. BLAIR
EDWARD A. BLAIR PH.D.

256
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION

Civil Action No. 1:16-cv-425-LMB-IDD
BOOKING.COM B.V., PLAINTIFF
v.
MICHELLE K. LEE, UNDER SECRETARY OF COMMERCE
FOR INTELLECTUAL PROPERTY AND DIRECTOR OF
THE UNITED STATES PATENT AND TRADEMARK
OFFICE, ET AL., DEFENDANTS
Filed: Dec. 9, 2016
EXPERT REPORT OF EDWARD A. BLAIR, PhD.
Summary

I was asked by the United States Patent and Trademark Office (USPTO) to render my opinion concerning
the September, 2016, expert report submitted by Mr.
Hal Poret in the above-captioned matter. Specifically,
I was asked to examine the survey that Mr. Poret designed and caused to be conducted (the “Poret Survey”) and comment on any factors that might influence
the results or interpretation of that survey regarding
the extent to which BOOKING.COM is perceived to be
a brand name or a common name.
In my opinion, the following factors are relevant to the
results obtained or the proper interpretation of the
Poret Survey regarding the extent to which BOOKING.
COM is perceived to be a brand name or a common

257
name. First, the population surveyed is under-inclusive.
The Poret Survey is restricted to “consumers who
search for or make hotel or travel arrangements
online.” However, none of the trademark applications
at issue are limited to services provided online, and
thus the relevant populations includes consumers who
search for or make hotel or travel arrangements other
than online. The restriction of respondents to those
“who search for or make hotel or travel arrangements
online” makes the Poret Survey under-inclusive. This
is relevant to the results because consumers who do not
use online services may be less aware of BOOKING.
COM, and hence the percentage of respondents who
said that BOOKING.COM is a brand name (given response options of brand name, common name, or don’t
know) may have been lower if the survey included all
relevant consumers. Second, the Poret Survey did not
effectively educate or test respondents regarding the
distinction between DOT-COM brand names and common names. It appears that there was some tendency
for respondents to think that any DOT-COM name is a
brand. Third, the order in which DOT-COM terms
were presented to respondents made a significant difference in the results. These response order effects
reinforce the idea that respondents were not effectively
educated or tested regarding the distinction between
DOT-COM brand names and common names, and indicate that respondents appear to be answering based on
context and inference rather than actual knowledge.

258
EXPERT REPORT OF EDWARD A. BLAIR, Ph.D.

CONTENTS

PAGE

Expert’s
Qualifications,
Background and Compensation

[259]

Assignment and Materials
Reviewed

[260]

Background on the Poret
Survey

[261]

Comments on the Poret
Survey

[268]

Appendix 1:

Expert’s CV

Appendix 2: Expert’s List
of Lawsuits

259
Expert’s Qualifications, Background and Compensation

My name is Edward A. Blair. I am the Michael J.
Cemo Professor of Marketing & Entrepreneurship and
Chairman of the Department of Marketing and Entrepreneurship in the C.T. Bauer College of Business at
the University of Houston in Houston, Texas. I also
work as an independent consultant, and it is in that
capacity that I write this report.
I have served as chair of the American Statistical
Association Committee on Energy Statistics which
advises the U.S. Energy Information Administration
on statistical matters. I previously served on the U.S.
Census Bureau Advisory Committee. I also have
served as national conference chair for the American
Marketing Association (AMA).
I am the author of various publications on marketing
and survey research procedures and have served on the
editorial boards of the Journal of Marketing Research,
Journal of the Academy of Marketing Science, and
Journal of Business Research, and the policy board for
the Journal of Consumer Research. Books that I
have co-authored included Designing Surveys (3e) and
Applied Survey Sampling.
I have taught graduate-level university courses on
Marketing Research, Survey Methods, Sampling, Statistics, and Multivariate Analysis. I also taught Sampling and Survey Methods at the AMA’s School of
Marketing Research from its inception in 1980 through
1999.
I have testified in lawsuits and been accepted as an
expert in state and federal courts. A professional resume showing further information including a list of

260
publications is shown as Appendix 1 to this report, and
a list of lawsuits in which I have testified in recent
years is shown as Appendix 2. My hourly consulting
rate is $500 per hour. My compensation is not contingent upon the results of this matter.
Assignment and Materials Reviewed

I was asked by the United States Patent and Trademark Office (USPTO) to render my opinions concerning the September, 2016 expert report submitted by
Mr. Hal Poret in the above-captioned matter. Specifically, I was asked to examine the survey that Mr.
Poret designed and caused to be conducted (the “Poret
Survey”) and comment on any factors that might influence the results or interpretation of that survey
regarding the extent to which BOOKING.COM is perceived to be a brand name or a common name.
In this regard, I have reviewed the following materials:
• Expert report of Hal Poret
• Plaintiff’s Complaint in this matter
• Defendant’s Answer
• Trademark Application Serial Nos. 79122365,
79122366, 79114998, and 85485097 for BOOKING.
COM
• Trademark Trial and Appeal Board (TTAB) opinions regarding Application Serial Nos. 79122365,
79122366, 79114998, and 85485097 for BOOKING.
COM
• Applicant’s January 16, 2007 Request for Remand
of Application to Examining Attorney to Consider

261
New Evidence Pursuant to Trademark Rule
2.142(d) in In Re Hotels.com (Application Serial
78/277681, TTABVUE 10)
• TTAB opinion in In re Hotels.com,
87 U.S.P.Q.2d 1100 (TTAB 2008)

L.P.,

• The Federal Circuit’s opinion in In re Hotels.com,
L.P., 573 F.3d 1300 (Fed. Cir. 2009);
• The Federal Circuit’s opinion in In re
1800Mattress.com IP, LLC, 586 F.3d 1359 (Fed.
Cir. 2009)
• The Ninth Circuit’s opinion in Advertise.com, Inc. v.
AOL Advertising, Inc., 616 F.3d 974 (9th Cir. 2010)
Background on the Poret Survey

According to Mr. Poret’s report, the Poret Survey
included the following elements.
Sample Qualifications
The survey was conducted online with a total of 400
respondents “among consumers who search for or
make hotel or travel arrangements online.” 1
Potential respondents were asked: “In the past 6
months, which of the following, if any, have you used a
website or mobile app for?” One of the response options was: “To search for or make hotel or travel
arrangements.” Respondents who selected this option
were considered part of the relevant population and
qualified to participate in the survey. 2

1
2

Poret Report p. 8 (B-000008).
Poret Report p. 19 (B-0000019).

262
Potential respondents also were asked “In the next
6 months, which of the following, if any, are you likely
to use a website or mobile app for?” with the same list
of options. Respondents who selected “To search for
or make hotel or travel arrangements” in response to
this question were also considered part of the relevant
population and qualified to participate in the main
survey. 3
Measurement Procedures
The Poret Survey used a Teflon format for assessing
whether a term is a brand name or a common name.
There were two versions of the survey, one in which
references to “brand name” always preceded references to “common name,” and one in which references
to “common name” always came first. 4 The version
with brand name first proceeded as follows. 5
Respondents saw a computer screen that said:
“This survey is about brand names and common
names. In a few moments you will be asked about
a number of terms that you may or may not have
seen or heard before. But first, please read the
next two screens about what we mean by a brand
name and what we mean by a common name.”
On a new screen, respondents were told:
“Brand names are names that companies use to
identify who a product or service comes from.

Poret Report p. 20 (B-0000020).
Poret Report p. 8, 15 (B-000008, B-000015).
5
The following description is taken from Poret Report p. 9-13
(B-000009 - B000013).
3
4

263
Brands names primarily let the consumer know that
a product or service comes from a specific company.
For example, TOYOTA, CHASE, and STAPLES.
COM are all brand names. These terms primarily
identify for a consumer who a product or service
comes from.”
On the next screen, respondents were told:
“Common names are words used to identify a type
of product or service—in other words, what that
product or service is, not who makes it. Common
names primarily let the consumers know what type
of product or service is being offered.
For example, unlike the brand names TOYOTA,
CHASE, and STAPLES.COM; AUTOMOBILE,
BANK, AND OFFICESUPPLIES.COM are all
common names. These terms primarily identify for
the consumer what type of product or service a
company is selling, rather than who the product or
service comes from.”
Respondents were then asked:
“Do you understand the difference between a brand
name and a common name?”
Respondents who answered “Yes” continued with
the interview. Those who indicated they did not understand or were unsure did not continue.
Next, respondents were asked:
“Which type of name would you say KELLOGG is?”
Respondents were also asked:
“Which type of name would you say CEREAL is?”

264
Response options to both questions were: Brand
name, Common name, and Don’t know. Respondents
who correctly answered that KELLOGG is a brand
name and that CEREAL is a common name continued
with the survey. Respondents who did not correctly
answer both these questions were excluded from the
survey.
Respondents who continued were then instructed:
“You will now see a series of bolded terms, one at a
time, that you may or may not have seen or heard
before. Under each term, you will also see a description of products or services for that term. For
each term shown in bold, please answer whether you
think the term is a brand name or a common name
in the context of the products or services described.
Or if you don’t know, you may select that option.”
Then, one at a time, respondents were shown one of
seven terms with product descriptions until all seven
terms had been seen. For each term, respondents
were asked:
“Do you think is a . . . ” (Response options:
Brand name, Common name, Don’t know)
The list of terms and product descriptions shown to
respondents included the following term at issue: 6
BOOKING.COM
Hotel and other lodging reservation services

6

Poret Report p. 12-13 (B-000012 - B000013).

265
Three brand name terms:
ETRADE.COM
Stock and investor broker services
PEPSI
Cola and other soft drinks
SHUTTERFLY
Photo-sharing and photo gifts service
And three common name terms:
SPORTING GOODS
Products used in sports and other physical activity
WASHINGMACHINE.COM
Reviews and sales of washing machines
SUPERMARKET
Retail sale of food and other groceries
An issue of apparent concern to Mr. Poret was the
possibility that respondents might think that any
DOT-COM name is a brand. His report states that “in
order to address possible concerns that survey respondents might answer that any DOT-COM name is a
brand . . . the list of terms shown in the Teflon
study included other DOT-COM terms to assess and
control for the extent to which respondents might
assume and answer that any DOT-COM term is a
brand name. This allows us to compare the perceptions of BOOKING.COM to other DOT-COM terms
that clearly do or do not function as brands in order to
assess whether consumer perception of BOOKING.
COM as a brand name meaningfully exceeds the rate at

266
which respondents will answer that a generic term with
“.com” at the end is a brand.” 7
Specifically, Mr. Poret’s report states that
“ETRADE.COM was included in the lineup of terms
as an example of a DOT-COM brand name and
WASHINGMACHINE.COM was included as an example of a DOT-COM generic term. The inclusion of
WASHINGMACHINE.COM in particular allows us to
assess the extent to which respondents will identify a
generic term as a brand when ‘.com’ is added to the
end, and to assess the extent to which the rate of perceiving BOOKING.COM as a brand exceeds this ‘noise’
level.” 8
Mr. Poret’s report also states that “STAPLES.COM
was included in the examples of brands as an illustration of a DOT-COM term that is a trademark” and
“OFFICESUPPLIES.COM was included as an example of a common term to illustrate that not all
DOT-COM terms are brand names and that a term that
takes a generic term such as OFFICESUPPLIES and
adds ‘.com’ can be a generic term. Since STAPLES.
COM (as a brand) and OFFICESUPPLIES.COM (as a
generic term) were both included in the examples, the
survey neither gave emphasis to ‘brand’ or ‘common’ in
the case of DOT-COM terms.” 9
According to Mr. Poret’s report, there were four
separate rotations that varied the order in which terms
were presented to respondents. Any given respondent received one of these rotations; in other words, the
7
8
9

Poret Report p. 8 (B-000008).
Poret Report p. 14 (B-000014).
Poret Report p. 9, 10 (B-000009, B-000010).

267
400 total respondents were divided into 100 per rotation. The order in which terms were presented in the
four rotations is shown in the following table, with the
first term presented on top and the last term presented
on the bottom. 10

Regarding the DOT-COM terms, it may be seen that
WASHINGMACHINE.COM is presented before
BOOKING.COM and ETRADE.COM in Rotations 2 and
4, and after both of those terms in Rotations 1 and 3.
It also may be seen that BOOKING.COM is
presented
after
ETRADE.COM
and
before
WASHINGMACHINE.COM in Rotation 3 (that is,
after the brand name and before the common name),
after
WASHINGMACHINE.COM
and
before
ETRADE.COM in Rotation 2 (that is, after the common
name and before the brand name), after both other
terms in Rotation 4, and before both other terms in
Rotation 1.
Overall results of the survey, as reported by Mr.
Poret are as follows: 1112

10
11

Poret Report p. 13-14 (B-000013 - B-000014)
Poret Report p. 28, 29 (B-000028, B-000029).

268

Comments on the Poret Survey

In my opinion, the following factors are relevant to
the results obtained or the proper interpretation of the
Poret Survey regarding the extent to which BOOKING.
COM is perceived to be a brand name or a common
name.
The Population Surveyed Is Under-inclusive
The Poret Survey is restrict to “consumers” who
search for or make hotel or travel arrangements
online.” However, none of the trademark applications
at issue are limited to services provided online.
Application Serial Nos. 79122365 and 79122366 are
for “Hotel reservation services for others; holiday
accommodation reservation services and resort reserThis is erroneously listed as 30% on Poret Report p. 17
(B-000017). Correspondingly, Poret Report p. 18 (B-000018) lists
the difference between BOOKING.COM and WASHINGMACHINE.
COM as “nearly 45%” rather than the actual 41.8%.
12

269
vation services, namely, providing hotel room reservation services and resort hotel reservation services and
providing online hotel and resort hotel room reservation services; providing information about hotels, hotel
accommodations and resorts accommodations, whether
or not based on the valuation of customers; information, advice and consultancy relating to the aforesaid services; the aforesaid services also provided electronically,” in the International Class. 13
Application Serial No. 85485097 is for “Travel agency
services, namely, making reservations for transportation; travel and tour ticket reservation services; travel
agency services, namely, making reservations for
transportation for tourists; provision of travel information; providing consultation related to making reservations for transportation, and travel and tour ticket
reservation; all of the foregoing services rendered
in-person and via the internet,” in International Class
39. Also, “Making hotel reservations for others in
person and via the internet; providing personalized
information about hotels and temporary accommodations for travel in person and via the Internet; providing on-line reviews of hotels; consultation services
related to making hotel reservations for others, provision of personalized information about hotels and temporary accommodations for travel, and on-line reviews
of hotels,” in International Class 43. 14

From Application Serial Nos. 79122365 (A1890) and 79122366
(A2898); underlining added for emphasis
14
From Application Serial No. 85485097 (A3565); underlining
added for emphasis
13

270
Application Serial No. 79114998 is for “Arranging of
tours and arranging of tours online; reservation and
sale of travel tickets and online reservation and sale of
travel tickets; information, advice and consultancy
regarding the arranging of tours and the reservation
and sale of travel tickets; provision of information
relating to travel and travel destinations; travel and
tour agency services, namely, travel and tour ticket
reservation services; travel agency services; tourist
agency services; providing online travel and tourism
services, namely, providing online travel and tour ticket reservation services, online travel agency services,
online tourist agency services and providing online
information relating to travel and travel destinations,”
in International Class 39. Also, “Making hotel reservations for others; holiday accommodation reservation
services and resort reservation services, namely,
providing hotel room reservation services and resort
hotel reservation services and providing online hotel
and resort hotel room reservation services; providing
information about hotels, holiday accommodations and
resorts accommodations, whether or not based on the
valuation of customers; providing information, advice
and consultancy relating making hotel reservations and
temporary accommodation reservations; providing
online information, advice and consultancy relating
making hotel reservations and temporary accommodation reservations,” in International Class 43. 15
If the applications are not limited to services provided online, then the relevant population includes

From Application Serial No. 79114998 (A670); underlining
added for emphasis
15

271
consumers who search for or make hotel or travel arrangements other than online, and the restriction to
“consumers who search for or make hotel or travel
arrangements online” makes the Poret Survey underinclusive.
This is relevant to the results because consumers
who do not use online services may be less aware of
BOOKING.COM, and hence the percentage of respondents who said that BOOKING.COM is a brand
name (given response options of brand name, common
name, or don’t know) may have been lower if the survey
included all relevant consumers.
Respondents were not effectively educated or tested
regarding the distinction between DOT-COM brand
names and common names
The Poret Survey educated respondents on the
distinction between brand names and common names
by providing the following information.
“Brand names are names that companies use to
identify who a product or service comes from.
Brands names primarily let the consumer know that
a product or service comes from a specific company.
For example, TOYOTA, CHASE, and STAPLES.
COM are all brand names. These terms primarily
identify for a consumer who a product or service
comes from.”
And:
“Common names are words used to identify a type
of product or service—in other words, what the
product or service is, not who makes it. Common

272
names primarily let the consumers know what type
of product or service is being offered.
For example, unlike the brand names TOYOTA,
CHASE, and STAPLES.COM; AUTOMOBILE,
BANK, AND OFFICESUPPLIES.COM are all
common names. These terms primarily identify for
the consumer what type of product or service a
company is selling, rather than who the product or
service comes from.”
The survey then tested respondents’ ability to make
this distinction by asking:
“Which type of name would you say KELLOGG is?”
And:
“Which type of name would you say CERAL is?”
Respondents who correctly answered that KELLOGG is a brand name and that CEREAL is a common
name continued with the survey. Respondents who
did not correctly answer both these questions were
excluded from the survey.
Procedurally, then, the information that was provided to educate respondents on the distinction between brand names and common names did not focus
on DOT-COM terms and did not explain the difference
between brand names and common names in a
DOT-COM context. Also, respondents were not tested on their ability to distinguish a DOT-COM brand
name from a DOT-COM common name.
The survey results indicate that these procedures
did not effectively educate or test respondents regarding the distinction between DOT-COM brand names
and common names. The results show that one-third

273
of the respondents, 33.0%, incorrectly identified
WASHINGMACHINE.COM, the DOT-COM common
name used in the survey, as a brand name. This
compares with 0.5% and 0.0% for SPORTING GOODS
and SUPERMARKET respectively, the non-DOTCOM common names. It appears that there was some
tendency for respondents to think that any DOT-COM
name is a brand. 16
Mr. Poret’s report suggests that this effect can
be controlled by comparing the results for BOOKING.
COM to the results for WASHINGMACHINE.
COM.
The report states that “The inclusion of
WASHINGMACHINE.COM in particular allows us to
access the extent to which respondents will identify a
generic term as a brand when ‘.com’ is added to the
end, and to assess the extent to which the rate of perceiving BOOKING.COM as a brand exceeds this ‘noise’
level.” 17
Two points are in order. First, if this argument is
accepted, the extent to which the rate of perceiving
BOOKING.COM as a brand exceeds this “noise” level
is 41.8%, or less than 50%.

In fact, in the pooled data for Rotations 1 and 3, where
WASHINGMACHINE.COM was presented after the other
DOT-COM terms, the number of respondents who incorrectly said
this term is a brand name was larger than the number who said it is
a common name. Of 200 respondents in Rotations 1 and 3, 48%
chose the “brand name” response option for WASHINGMACHINE.
COM, 44% chose “common name,” and 8% chose “don’t know.” In
Rotation 3 specifically, 58% incorrectly chose “brand name,” 34%
chose “common name,” and 8% chose “don’t’ know.
17
Poret Report p. 14 (B-000014).
16

274
Second, if respondents have not been effectively
educated or tested regarding the distinction between
DOT-COM brand names and common names, and to some
extent are guessing whether any given DOT-COM term
is a brand name, the effect may not be fully controlled by
subtracting the results for WASHINGMACHINE.
COM from the results for BOOKING.COM. The
difference in results for these two terms may not only
be attributable to recognition of BOOKING.COM as a
brand name, but also to other factors such as the possibility that a washing machine is a more common
object, or that the WASHINGMACHINE.COM term
is more similar than BOOKING.COM to the
OFFICESUPPLIES.COM example that respondents
were told was a common name.
Respondents appear to be answering based on context
and inference rather than actual knowledge
A comparison of results across the four rotations
shows significant “response order” effects in the results for WASHINGMACHINE.COM and BOOKING.
COM. These response order effects reinforce the idea
that respondents were not effectively educated or
tested regarding the distinction between DOT-COM
brand names and common names, and indicate that
respondents appear to be answering based on context
and inference rather than actual knowledge.
The following table shows, for each term used in the
Poret Survey, the percentage of respondents (of 100 in
in each rotation) who said the term is a brand name,
given response options of brand name, common name,
or don’t know.

275

As may be seen in the table, there are significant
differences in results for BOOKING.COM and
WASHINGMACHINE.COM across the four rotations;
that is, across the four orders in which terms were
presented.
Overall, 33.0% (132/400 18) of respondents said that
WASHINGMACHINE.COM is a brand name. However the results depend on whether WASHINGMACHINE.
COM was presented before or after BOOKING.COM
and ETRADE.Com. In Rotations 2 and 4, where
WASHINGMACHINE.COM was presented before
those other terms (and in closer proximity to the
OFFICESUPPLIES.COM example), 18.0% (36/200) of
respondents said that WASHINGMACHINE.COM is a
38 of 100 in Rotation 1 plus 19 of 100 in Rotation 2 plus 58 of 100
in Rotation 3 plus 17 of 100 in Rotation 4 equals a total of 132 of 400
across all rotations.
18

276
brand name. This compares with 48.0% (96/200) in
Rotations 1 and 3, where WASHINGMACHINE.COM
was presented after those other terms. The comparison is shown in the following table.

Results for BOOKING.COM also depended on presentation order. Overall, 74.8% (299/400) of respondents identified BOOKING.COM as a brand name.
However, in Rotation 2, where BOOKING.COM was
presented after WASHINGMACHINE.COM and
before ETRADE.COM (that is, after the common name
and before the brand name), 53.0% (53/100) of respondents identified BOOKING.COM as a brand name.
This compares with 94.0% (94/100) in Rotation 3, where
BOOKING.COM was presented after ETRADE.COM
and before WASHINGMACHINE.COM (that is, after
the brand name and before the common name). The
comparison is shown in the following table.

It is apparent that order of presentation made a
significant difference in the results for these terms.

277
These response order effects reinforce the idea that
respondents were not effectively educated or tested
regarding the distinction between DOT-COM brand
names and common names, and indicate that respondents appear to be answering based on context and
inference rather than actual knowledge.
Summary
To summarize, in my opinion, the following factors
are relevant to the results obtained or the proper interpretation of the Poret Survey regarding the extent
to which BOOKING.COM is perceived to be a brand
name or a common name.
•

First, the population surveyed is under-inclusive.
The Poret Survey is restricted to “consumers who
search for or make hotel or travel arrangements
online.” However, none of the trademark applications at issue are limited to services provided
online, and thus the relevant population includes
consumers who search for or make hotel or travel
arrangements other than online. The restriction
of respondents to those “who search for or make
hotel or travel arrangements online” makes the
Poret Survey under-inclusive. This is relevant to
the results because consumers who do not use
online services may be less aware of BOOKING.
COM, and hence the percentage of respondents
who said that BOOKING.COM is a brand name
(given response options of brand name, common
name, or don’t know) may have been lower if the
survey included all relevant consumers.

•

Second, the Poret Survey did not effectively educate or test respondents regarding the distinction

278
between DOT-COM brand names and common
names. It appears that there was some tendency
for respondents to think that any DOT-COM name
is a brand.
•

Third, the order in which DOT-COM terms were
presented made a significant difference in the results. These response order effects reinforce the
idea that respondents were not effectively educated or tested regarding the distinction between
DOT-COM brand names and common names, and
indicate that respondents appear to be answering
based on context and inference rather than actual
knowledge.

I reserve the right to supplement this report based on
further review of the data or any additional arguments
or facts that may be presented to me.
Signature

(SIGNED)

/s/ E.A. BLAIR
E.A. BLAIR

(DATE) [10/13/16]

279

APPENDIX 1
BLAIR C.V.

280
VITAE
Edward A. Blair
Office:

Department of Marketing & Entrepreneurship
385 Melcher Hall
University of Houston
Houston, Texas 77204-6021
Phone: 713-743-4565
Fax: 713-743-4572
e-mail: blair@uh.edu

Education

B.S. (with High Honors), University of Illinois,
1973
Major Field: Business Administration
Minor Field: English Literature
Ph.D., University of Illinois, 1978
Major Field: Business Administration
Minor Field: Statistics
Academic Positions

2005 -

Michael J. Cemo Professor and Chair,
Department of Marketing & Entrepreneurship, University of Houston

1996 -

Chair, Department of Marketing & Entrepreneurship, University of Houston

1995-96 Visiting Professor, Rice University
1993 -

Professor, Department of Marketing &
Entrepreneurship, University of Houston

281
1991 -

Visiting Associate Professor, Madrid
Business School (Madrid, Spain)

1998 -

Visiting Associate Professor, Rice University

1982-83 Associate Professor, Department
Marketing, University of Houston

of

1977-82 Assistant Professor, Department
Marketing, University of Houston

of

Research and Publications

Publications—Books
N. Bradburn and S. Sudman with E. Blair, W.
Locander, C. Miles, E. Stinger and C. Stocking,
Improving Interview Method and Questionnaire
Design, San Francisco, CA: Josey-Bass, 1979
K. Cox and E. Blair (eds.), Marketing in Action,
Englewood Cliffs, NJ: Prentice-Hall, 1989.
E. Blair and W. Kamakura (eds.), Marketing Theory
and Applications: Proceedings of the 1996 AMA
Winter Educators’ Conference, Chicago, IL:
American Marketing Association, 1996.
S. Sudman and E. Blair, Marketing Research, Burr
Ridge, IL: Irwin/McGraw-Hill, 1997.
J. Blair, R. Czaja and E. Blair, Designing Surveys:
A Guide to Decisions and Procedures (3rd Edition),
Thousand Oaks, CA: SAGE Publications, 2013
E. Blair and J. Blair, Applied Survey Sampling,
Thousand Oaks, CA: SAGE Publications (2015)

282
Publications – Journal Papers
E. Blair, “Marketing as Exchange: A
Comment” Journal of Marketing, January 1977.
E. Blair, S. Sudman, N. Bradbur and C. Stocking,
“How to Ask Questions About Drinking and Sex”
Journal of Marketing Research, August 1977.
—

Adapted as Chapter 2 in M. Bradburn et al.,
Improving Interview Method and Questionnaire Design, San Francisco: Jossey-Bass,
1979.

—

Reprinted in R. Ferber (ed.) Readings in Survey Research, Chicago: American Marketing
Assn., 1979.

—

Reprinted in N. Fielding (ed.) Interviewing
(Sage Benchmarks in Social Research Methods), London: Sage Publications Ltd., 2002.

—

Reprinted in M. Bulmer (ed.), Questionnaire
(Sage Benchmarks in Social Research Methods), London: Sage Publications Ltd., 2003.

—

Earlier draft presented at American Marketing
Association Educators’ Conference, 1976.

S. Sudman, N. Bradburn, E. Blair and C. Stocking,
“Estimates of Threatening Behavior Based on Reports of Friends” Public Opinion Quarterly, Summer 1977.
—

Adapted as Chapter 9 in N. Bradburn et al.,
Improving Interview Method and Questionnaire Design San Francisco:
Jossey-Bass,
1979.

283
S. Sudman, E. Blair N. Bradburn and C. Stocking,
“Modest Expectations: The Effects of Interviewers’ Prior Expectations on Responses” Sociological
Methods and Research, November 1977.
—

Adapted as Chapter 4 in N. Bradburn et al.,
Improving Interview Method and Questionnaire Design, San Francisco: Jossey-Bass,
1979.

—

Reprinted in D. Alwin (ed.) Survey Design and
Analysis:
Current Issues, Beverly Hills:
Sage Publications, 1978.

E. Blair, “More on the Effects of Interviewers’
Voice Intonations” Public Opinion Quarterly, Winter
1977.
N. Bradburn, S. Sudman, E. Blair and C. Stocking,
“Question Threat and Response Bias” Public Opinion Quarterly, Summer 1978.
—

Adapted as Chapter 5 in N. Bradburn et al.,
Improving Interview Method and Questionnaire Design, San Francisco: Jossey-Bass,
1979.

—

Reprinted in E. Singer and S. Presser (eds.),
Survey Research Methods, Chicago: University of Chicago Press, 1989.

—

Reprinted in M. Bulmer (ed.), Questionnaires
(Sage Benchmarks in Social Research Methods), London: Sage Publications Ltd., 2003.

E. Blair, “Using Practice Interviews to Predict Interviewer Behaviors” Public Opinion Quarterly,
Summer 1980.

284
E. Blair and E. Laird Landon, “The Effects of Reference Prices in Retail Advertisements” Journal of
Marketing, Spring 1981.
E. Blair, “When Four Months Equal a Year: A
Comment” Public Opinion Quarterly, Summer 1982.
E. Blair, “Sampling Issues in Trade Area Maps
Drawn from Shopper Surveys” Journal of Marketing, Winter 1983.
G. Zinkhan and E. Blair, “An Assessment of the
Cloze Procedure as an Advertising Copy Test”
Journalism Quarterly, Summer 1984.
E. Blair and S. Burton, “Cognitive Processes Used
by Survey Respondents to Answer Behavioral Frequency Questions” Journal of Consumer Research,
September 1987.
—

Portions presented earlier in “Processes Used
in the Formulation of Behavioral Frequency
Reports in Surveys,” American Statistical Association Conference, 1986.

E. Blair and S. Burton, “Response Frame Effects in
Most Important Attribute Data” Applied Marketing
Research, Spring 1988.
—

Earlier draft presented at American Association for Public Opinion Research Conference,
1987.

E. Blair and G. Ganesh, “Characteristics of IntervalBased Estimates of Autobiographical Frequencies”
Applied Cognitive Psychology, May-June 1991.
S. Burton and E. Blair, “Task Conditions, Response
Formulation Processes, and Response Accuracy for

285
Behavioral Frequency Questions in Surveys” Public
Opinion Quarterly, Spring 1991.
A. Biswas and E. Blair, “Contextual Effects of Reference Prices in Retail Advertisements” Journal of
Marketing, July 1991.
S. Sudman and E. Blair, “Sampling in the 21st Century” Journal of the Academy of Marketing Science,
Spring 1999
—

Reprinted in D. de Vaus (ed.) Social Surveys
(Sage Benchmarks in Social Research Methods), London: Sage Publications Ltd., 2002.

—

Reprinted in N. Malhotra (ed.) Fundamentals
of Marketing Research (Sage Library in Marketing), London: Sage Publications Ltd., 2007.

G. Oakenfull, E. Blair, B Gelb and P. Dacin, “Measuring Brand meaning” Journal of Advertising Research, September-October, 2000.
K. Smith, E. Jones and E. Blair, “Managing Salesperson Motivation in a Territory Realignment,”
Journal of Personal Selling and Sales Management,
Fall, 2000.
P. Krishnamurthy, P. Carter and E. Blair, “Attribute Framing and Goal Framing Effects in Health
Decisions,” Organizational Behavior and Human
Decision Processes, July, 2001.
A. Baldinger, E. Blair and R. Echambadi, “Why
Brands Grow,” Journal of Advertising Research,
January-February, 2002.
E. Blair, J. Harris and K. Monroe, “Effects of
Shopping Information on Consumers’ Responses to

286
Comparative Price Claims,” Journal of Retailing,
Fall, 2002.
J. Harris and E. Blair, “Effects of Functional Risk
Salience on Consumers’ Preference for Product
Bundles,” Journal of the Academy of Marketing
Science, January 2006.
E. Blair and G. Zinkhan, “Nonresponse and Generalizability in Academic Research,” Journal of the
Academy of Marketing Science, January 2006.
E. Blair and J. Blair, “Dual Frame Web-Telephone
Sampling for Rare Groups,” Journal of Official Statistics, June 2006.
J. Harris and E. Blair, “Consumer Preference for
Product Bundles: The Role of Reduced Search
Costs,” Journal of the Academy of Marketing Science, October, 2006.
B. Wansink, G. Cordua, E. Blair, C. Payne and
S. Geiger, “Wine Promotions in Restaurants: Do
Beverage Sales Contribute or Cannibalize,” Cornell
Hotel and Restaurant Administration Quarterly,
November 2006.
K. Aboulnasr, O. Narasimhan, E. Blair and R.
Chandy, “Competitive Response to Radical Innovations,” Journal of Marketing, May 2008.
J. Noriega and E. Blair, “Advertising to Bilinguals:
Does the Language of Advertising Influence the
Nature of Thoughts?” Journal of Marketing, September, 2008.
J. Harris and E. Blair, “Consumer Processing of
Bundled Prices:
When Do Discounts Matter”
Journal of Product & Brand Management, 2012.

287
R. Echambadi, R. Jindal and E. Blair, “Evaluating
and Managing Brand Repurchase across Multiple
Geographic Retail Markets,” Journal of Retailing,
2013.
Publications – Chapters in Books (note cited above)
“Interviewer Variations in Asking Questions”
Chapter 3 in N. Bradburn et al., Improving Interview Method and Questionnaire Design, San Francisco: Jossey-Bass, 1979.
—

Portions presented earlier in “Occurrence and
Recognition of Non-Programmed Interviewer
Speech Behaviors,” American Marketing Association Educators’ Conference, 1978.

—

Other portions presented earlier in “Testing
Interviewer Effects on Survey Data,” American
Association for Public Opinion Research Conference, 1979.

“Interviewing in the Presence of Others” Chapter 8
in N. Bradburn et al., Improving Interview Method
and Questionnaire Design, San Francisco: JosseyBass, 1979.
“On Providing Population Data to Improve Respondents’ Estimates of Autobiographical Frequencies” (with K. Williamson) in N. Schwarz and S.
Sudman, Autobiographical Memory and the Validity
of Retrospective Reports, New York: Springer-Verlag,
1994.
—

Previous draft presented at American Statistical Association Conference, 1990.

288
“Managerial Implications of Kent Monroe’s Research on Comparative Price Advertising” in Jagdish
Sheth (ed.), Legends of Marketing: Kent Monroe,
New Delhi: Sage Pvt. Ltd., 2011.
Publications – Conference Papers (not cited above)
“Wroe Alderson and Modern Marketing Theory”
(with K. Uhl), American Marketing Association
Marketing Theory Conference, August, 1977.
“Response Effects in Threatening Questions” (with
S. Sudman), American Psychological Association Conference, Division 23, August, 1977.
“Alternative Measures of Frequency Bias in Shopper Surveys” (with S. Calcich), American Marketing
Association Educators’ Conference, August, 1980.
“Questionnaire Design Manipulations and Response
Rates to a Mail Consumer Finances Survey” (with
V. Veth and E. L. Landon, Jr.), American Marketing
Association Educators’ Conference, August, 1982.
“The Perceptual task in Acquisition of Package Information” (with S. Calcich), Association for Consumer Research Conference, October, 1982.
“Some Effects of Requesting Active Commitment
from Survey Respondents” (with V. Veth and E. L.
Landon, Jr.), American Association for Public Opinion Research Conference, May, 1983.
“Commitment Requests and Response Rates in
Three Mail Surveys” (with G. Ganesh), American
Marketing Association Educators’ Conference, August, 1984.

289
“Cognitive Processes Used to Answer Expenditure
Questions” (with S. Burton and D. Lichtenstein),
American Statistical Association Conference, August, 1988.
“On Estimating Distributional Characteristics from
Categorized Data” (with L.R. LaMotte), American
Statistical Association Conference, August, 1988.
“Yielding to Temptation Due to Depletion: Can
Mental Budgets Help?” (with S. Prokopec and P.
Krishnamurhty), Society for Consumer Psychology,
February, 2009.
“Post-Choice Effects of Pre-Choice Uncertainty:
Influences of Uncertainty on Satisfaction and Repurchase” (with D. Andrews), Society for Consumer
Psychology, February, 2010.
“Investigating New Product Purchase Behavior: A
Multi-Product Individual-Level Model for New
Product Sales” (with C. Liutec and R. Du), INFORMS Marketing Science, June, 2012
Publications – Book Reviews
The Recall Method in Social Surveys by L. Moss and
H. Goldstein; Journal of Marketing Research, May
1980
Question Framing and Response Consistency by R.
Hogarth; Journal of Marketing Research, November 1982.
The Research Interview: Uses and Approaches by
M. Brenner, J. Brown and D. Canter; Journal of
Marketing Research, May 1986.

290
How Many Subjects? by H Kraemer and S.
Thiemann; Journal of Marketing Research, May
1989.
An Experimental Comparison of Telephone and
Personal Health Interview Surveys by O. Thornberry (National Center for Health Statistics monograph, Series 2, No. 106); Public Opinion Quarterly,
Spring 1989.
Randomized Response: Theory and Techniques by
A. Chaudhuri and R. Mukerjee; Journal of Marketing Research, November 1989.
Teaching

Academic Courses Taught
Principles of Marketing
(Undergraduate)
Marketing Research
(Undergraduate)
Retailing Management
(Undergraduate)
Overview of Entrepreneurship
(Undergraduate)
Entrepreneurial Costs & Budgeting (Undergraduate)
Entrepreneurial Revenues
(Undergraduate)
Entrepreneurial Capital
(Undergraduate)
Marketing Management
(Masters)
Marketing Research
(Masters)
Entrepreneurship/Venture Planning (Masters)
Business Consulting Lab
(Masters)
Statistics
(Masters)
Marketing Theory
(Doctoral)
Marketing Research Methods
(Doctoral)
Multivariate Analysis
(Doctoral)
Sampling Methods
(Doctoral)
Applied Survey Research
(Doctoral)

291
Professional Programs Taught
Lecturer on Sampling at the American Marketing
Association’s School of Marketing Research from its
inception in 1980 to 1999; also taught Survey Methods and Conjoint Analysis in this program
Lecturer on Survey Methods at the American Marketing Association’s Advanced Research Techniques
Forum (ARTF)
Lecturer on Marketing, Marketing Research, and
New Product Development in numerous programs at
the University of Houston Center for Executive Development
Other Teaching Details
As lecturer in continuing education programs, have
taught sampling and survey design to more than
1,000 marketing research professionals. Companies represented include Coca-Cola, Procter & Gamble, Union Pacific, Sears, General Electric, Union
Carbide, Dow Chemical, Gerber Products, Federal
Express, AT&T, Hallmark Cards and many others.
Taught the first Entrepreneurship course offered at
UH and was founding instructor in the current Entrepreneurship program. Have directed the preparation of more than 150 business plans and have
seen more than 30 former students start businesses.
Administration and Service

Chair, UH Department of Marketing & Entrepreneurship, 1996-present

292
Member, Journal of Consumer Research Policy
Board, 2013-present
—

Vice-President, JCR Policy Board, 2016

Member, American Statistical Association Committee on Energy Statistics (advisory to U.S. Energy Information Administration), 2007-2012
—

Chair, ASA Committee on Energy Statistics,
2009-2012

Member, US Census Bureau Advisory Committee,
2002-2007
Editorial Board member:

Journal of Marketing
Research, 1991-2003
Journal of the Academy
of Marketing Science,
2003-2007
Journal of Business Research, 1991-2014

Ad hoc reviewer: Journal of Marketing, Journal of
Consumer Research, Public Opinion Quarterly,
various other journals.
National Science Foundation panelist, Innovation
and Organizational Change program, 2004-05
National Conference Chair, American Marketing
Association Educators’ Conference, 1996
Doctoral Program Coordinator, UH Marketing Department, 1983-1988
Created the UH Doctoral Symposium, 1982
Have served on various university, college, department, and civic committees.

293
Consulting Experience

Have served as a business consultant to various organizations, primarily with respect to market research
procedures, new product development, and retail
operations.
Have served as a consultant or expert witness in
various commercial lawsuits, primarily with respect
to intellectual property issues and/or economic damages.

294

APPENDIX 2
BLAIR LIST OF LAWSUITS

295
Lawsuits in which Edward A. Blair has testified in
recent years:
Rosetta
Stone,
Ltd.
v.
Google,
1:09-cv-00736-GBL-TRJ (E.D. Va.)

Inc.,

No.

Mattell, Inc. v. MGA Entertainment, Inc., Civ. No.
04-cv-9049 (C.D. Cal.)
Teri Heggelund et al. v. Schlumberger Technology
Corporation, No. 50-198-T-00548-10 (AAA)
Anheuser-Busch Incorporated v. Innvopak Systems
Pty Ltd, Opp. No. 91194148 (TTAB)
Eolas Technologies Incorporated v. Adobe Systems,
Inc. et al., No. 6:09-cv-00446-LED (E.D. Tex)
3M Company v. Professional Gallery, Inc., Opp. No.
91173411 (TTAB)
Autodesk, Inc. v. Michelle K. Lee, No. 1:13-cv-1464
(E.D. Va.)
Invensys Systems, Inc. v. Emerson Electric Co. and
Micro Motion Inc., No. 6:12-cv-00799 (E.D. Tex.)

296
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION

BOOKING.COM B.V., PLAINTIFF
v.
MICHELLE K. LEE, UNDER SECRETARY OF COMMERCE
FOR INTELLECTUAL PROPERTY AND DIRECTOR OF
THE UNITED STATES PATENT AND TRADEMARK
OFFICE, ET AL., DEFENDANTS
90 Park Avenue
New York, New York
Oct. 13, 2016
9:30 a.m.
DEPOSITION OF HAL PORET, BEFORE
SHARI COHEN, A NOTARY PUBLIC
OF THE STATE OF NEW YORK

*

*

*

*

*

[12]
Q.

They were not dot-net for 2 example?

A.

I believe that’s true.

Q. Were any of those—in any of those situations
where you conducted genericness surveys involving
dot-com terms, did you give testimony in those cases?
A. No, I can think of four other times that I did
surveys like this and none of them ever led to testimony or even a served expert report.
Two of

297
them—actually three of them were surveys that didn’t
end up supporting what my client would have liked and
never anything happened with and one of them did, but
the situation resolved informally somehow and I never
even had a report.
Q. Are you aware of any cases where a survey has
been accepted to demonstrate that a dot-com term is
not generic?
A.

I don’t know one way or the [13] other.

MR. MOSKIN:
conclusion.

Objection; it calls for a legal

Q. Mr. Poret, do you read materials on survey
methodology?
A.

Yes.

Q.

In what context do you do that?

A. A number of contexts. A major one is I’m a
member of the American Association of Public Opinion
Research and so I get their journals Public Opinion
Quarterly and Journal of Statistical Sampling. I’m a
member of the International Trademark Association
and I read the Trademark Reporter which sometimes
has articles relating to surveys and then just in the
course of my day-to-day working with companies in the
market research industry I come across white papers
and articles and things that companies are doing to
discuss developments and survey research and I suppose the last thing is that through being involved in a
number of legal [14] situations I end up seeing cases or
articles certainly when major treatises come out.
In fact, I’m often consulted by people who are
writing publications, Trademark Reporter articles, the

298
new ABA publication on surveys and so I certainly
don’t do anything comprehensive like search West Law
regularly to look at cases, but things come across my
radar pretty frequently.
Q.

Those things include other cases, correct?

A. Sometimes. That would probably be the least
of it because I don’t necessarily check up on case law,
but certainly when anybody in this field are writing
articles, I’m usually aware of those and I’m often consulted on them in advance.
Q.

Are you familiar with the TTABlog?

A.

Yes.

Q. Did you offer any comments to [15] the
TTABlog about the Hotels.com case?
A. Yes, John Welch who runs that asks me periodically, you know, to give comments and I do—I’m pretty sure that I gave—I’m pretty sure he asked me about
that case and I commented about the use of Teflon,
what you need—the ideas for doing something different with a Teflon survey to address issues specific to
dot-coms.
Q. What do you mean by doing something different to address the issues with dot-coms?
A. The traditional Teflon survey did not include
dot-com terms and what happened in the Hotels.com
case there was a survey that showed a pretty high level
of people answering that Hotels.com was a brand name
and the TTAB and the Federal Circuit as I understand
it said well, at least the TTAB said they were not really
persuaded by the survey because they felt I believe, I
don’t know if this is their exact words, but there [16] is

299
a concern that people might say that any dot-com is a
brand name because people know only one company
uses any domain name and so they said without something built into the survey to address this issue that
anybody might say that any dot-com is a brand name
they were not persuaded by it and the only brand name
that had been included—I’m sorry, the only dot-com
name that had been included in that survey was I think
Amazon which just being a very famous distinctive
term didn’t help them in any way in figuring out basically what tendency there would have been of survey
respondents to say that any dot-com name is a brand so
what I mean by do something to the Teflon survey is
adapt it to include some other discussion of a dot-com
in the instructions and include something in the main
survey that would address this issue and that’s what I
have done in other cases including this one to attempt
to address that issue which is actually something that I
had [17] thought of even before the Hotels.com case.
I had previously done a survey where I had
built in more things relating to dot-coms because that
makes sense to try to do that.
MS. WALKER:

I’m marking Exhibit 2.

(Defendant’s Exhibit 2,
Article, marked for Identification.)
Q. Mr. Poret, you have been handed what’s been
marked as Exhibit 2. Can you review the first and
second pages of that and tell me when you are finished?
A. Obviously I haven’t read it all, but I recognize
this as what we were talking about before the TTABlog
section on the Hotels.com case where John Welch

300
asked me to give a comment on it and I said what I just
told you before.
Q. On page two there is a comment that you said
was from you and in that comment you said I have
attempted to address [18] this problem by incorporating a discussion of domain names into the traditional
Teflon introduction and by having most or all of the
terms in a Teflon survey be dot-com marks. Was
there any reason why most or all of the terms in your
survey in this case could not have been dot-com marks?
A. Yes, because that was my thought in 2009 and I
decided after trying that that it doesn’t actually make
sense to have all of them or even most of them be
dot-com marks because that’s not a natural experience
when you are doing—when you are showing a set of
terms in a Teflon survey you are trying to have it be
non biased in any way and after I had done a survey
like that once, it really occurred to me showing people
a survey of all dot-com names or even most doesn’t
make sense. It’s sort of giving away what the issue is
so I think it makes—as I have developed how I have
done these over the years and this was a long time ago,
I have [19] shifted more to something that’s more balanced which is giving a presentation of the definition of
brand and commons that includes a dot-com, but also
other terms and that when in the list of actual terms
that are asked about it would be a more balance of the
way terms are in the real world which is more terms
that are not dot-coms, but some that are dot-coms and
it only takes one dot-com as an example of a generic
term to instruct respondents that a dot-com name can
be treated as a generic term and it only takes one clearly
on the generic side dot-com term in the main survey to

301
test the extent to which consumers are going to identify a generic term plus dot-com as generic which as you
can see from my survey in this case washingmachine.
com served that role and having multiple other
dot-coms wouldn’t add anything to that. It just makes
the survey less realistic.
Q.
sue?

What do you mean by giving away [20] the is-

A. I mean when you do a survey, you don’t want
the person to realize that the issue in this survey is
whether or not I think a dot-com name is a brand or a
generic and that’s why in surveys you have lists of
terms when you ask about things and it’s why in
screening questions you don’t typically say do you buy
product A, yes or no. You say which of the following
products do you buy and product A is on a list of a
number of choices so that when the respondent is answering the survey, they don’t say to themselves aha, I
know exactly why they are asking me this question and
it’s the same thing in substantive surveys you typically
want to mask what the purpose and issue of the survey
is so it’s more a natural test.
Q. But you agree that there could be both generic
and non generic dot-com marks; is that correct?
MR. MOSKIN:
conclusion.

Objection, calls [21] for a legal

A. I don’t technically know the answer to that
question because that ultimately depends on I guess
what the courts or the trademark office decide to do
about dot-com marks, but I would agree that for the
purposes of the survey I am presuming that there is
the possibility of a dot-com being a brand and there is a

302
possibility of a dot-com being generic and so at least for
the purposes of the survey I’m saying to the respondent as the consumer here’s an example of a dot-com
that’s a brand and here’s an example of a dot-com
that’s a generic in the instructions so that they are not
bias in any direction and they understand it could be
either and in the main survey I’m giving an example of
a dot-com that I’m presuming to be a brand and one
that I’m presuming to be generic for the purposes of
the survey so that we could test how the consumer
reacts to those.
[22]
Q. I’m still not sure that I understand your comment about balancing. Could you explain to me why
using all dot-com terms as you suggest in your Hotels.
com comment would be unbalanced?
A. You know, I’ll give you an example of something that springs to mind that was for your former
firm’s client which I did just give testimony about so
it’s public and this is listed on my CV. There is a—I
did a survey in a case for Finnigan Henderson’s client
Caterpillar about whether the term tiger cat could
create a likelihood of confusion with the mark cat and
the person on the other side did a survey where he
showed people a bunch of marks.
He showed them cat, tiger cat, wild cat, bob cat,
arctic cat and his questions related to are some of these
from the same company and when you show somebody
a whole bunch of marks that all say cat, the person will
realize the whole point of this [23] survey is about
whether the term cat is common or distinctive or is a
basis for connecting two companies so to try to gauge

303
whether there would be likelihood of confusion in a
situation like that it’s biased. It’s not balanced.
In the real world somebody would come across
tiger cat and they would either be confused or they
wouldn’t be or maybe they would come across a cat
tractor and a tiger cat tractor and maybe they would
make that connection on their own, but nobody in the
real world is saying to them focus on the term cat and
think about what that means so what that other expert
did in that survey is unrealistic and it’s biased. It’s
basically signaling to the respondent that the point of
this survey is what is the significance of the term cat
and I think similarly in this context if you are basically
saying to somebody here’s a survey and we want to
know whether you think each of [24] these terms are
brand or generics and every term you show them ends
in dot-com, I think you are just making it a little bit
more unrealistic and biased in terms of taking them out
of a natural consumer mindset and sort of signaling to
them that here is what the survey is about. This is the
issue we want to know what do you think about dot-com
and that isn’t the way consumer psychology functions
in the real world.
Q. It’s your opinion that consumers are not accustomed to seeing lists of various domain names; is that
correct?
A.

No.

Q. I’m sorry, it’s your opinion that consumers are
not accustomed to seeing a list of domain names?
A.

No, that’s not what I said.

Q.

What did you say?

304
A. I said that I think in a survey when you present
people with a whole list of terms in a way that reveals
to them what the [25] issue is in the survey and is unnatural while I’m not saying people can’t encounter
numbers of domain names in the real world, that isn’t—
the typical person who comes across a domain name is
also coming across lots of other terms in the real world.
Q. The Caterpillar survey that you referenced,
that was a likelihood of confusion survey; is that correct?
A.

Yes.

Q. That tests something different than a generic
survey test; is that correct?
A.

Yes.

Q. What is unnatural about a consumer seeing a
list of domain names?
MR. MOSKIN:
can answer again.

Asked and answered.

You

A. I didn’t necessarily say it’s unnatural for a
consumer to see a list of domain names. That does
seem like not a very common thing that somebody sees
just a list of pure domain names floating in the abstract
[26] without other non domain terms, but that’s not
really my point.
My point is let’s say that Caterpillar survey was
not a confusion survey, let’s say it was a genericness
survey and somebody was arguing that the term whatever for whatever reason tiger cat is generic. You
wouldn’t do a survey where all the terms end in cat.
You wouldn’t say we’re going to show you a list of
terms, here’s cat, tiger cat, wild cat, bob cat, arctic cat.

305
You wouldn’t do that because that would signal to the
respondent that the point of this survey is cat. It
would clue them in on the issue and it would render
artificial what you’re testing. You wouldn’t be getting
an unbiased response.
Q.

Is the point of the survey here dot-com?

A. That’s a big part of the point of it. The point
of it is to determine whether Booking.com is perceived
as a brand [27] name or a generic name and a key part
of it is also having a term like washingmachine.com
which is a clearly generic term plus a dot-com ending in
it to test how people react to that.
I’m just saying I think it’s more natural for
people when they see the term Booking.com in the
survey or the term washingmachine.com in the survey
to have a more natural reaction to it rather than to be
put in a mindset where they say to themselves okay,
every term they are showing me is a dot-com. They
are asking all about dot-coms.
I’m not saying that that wouldn’t work as a
survey. I’m just saying what I think I’m doing now is
a somewhat better methodology than to do all dot-com
names because I think it’s a little bit more natural, but
I don’t think it changes anything because whether or
not I had two or three other dot-com names in my
survey doesn’t change the fact that I have one that [28]
very adequately measures exactly the concern that was
expressed in the Hotels.com case.
Q. You don’t know whether it would have changed
the results if you added additional dot-com terms, do
you?

306
A. I don’t know for sure how it would have, but I’m
confident that it couldn’t have changed the outcome
because I did have a dot-com term in there that was
extremely highly recognized as a brand and I did have
a dot-com in there that was mostly recognized as a
generic so there is already a spectrum of dot-com
names in there that Booking.com falls under and I
don’t think it’s at all conceivable that Booking.com was
recognized by more than three to one as a brand that
that could have changed because there were also some
other—two other dot-coms of each type in the survey
particularly considering that if that happened there
would have been two other brand ones and two other
generic ones so it [29] wouldn’t have biased anything in
either direction results wise.
Q. You don’t have any data that would support
that conclusion; is that correct?
A.

Yes.

Q.

That’s correct?

A. It’s correct that I have no other data other than
what has been disclosed.
Q. You mentioned a little while ago that you had
conducted four other dot-com genericness surveys and
that three of those did not get the results that the
client hoped for. In those surveys did you use all or
most dot-com terms?
A.

No, not all of them.

I did that in one survey.

Q.

Were the results with the client helpful there?

A. I did prior to—well, actually I’m not 100 percent sure prior to, [30] but I first had done two surveys
that—I first had done two surveys using mostly or all

307
dot-com names which is something I had thought about
probably more like in 2007 or 2008 when I was first
thinking about this and one of them was for somebody
who wanted to show that something was generic, but it
turned out the survey showed that it was a brand so it
didn’t go the way the client wanted it to.
The other survey that did go the way the client
wanted it to was a survey where somebody wanted to
show that it was a brand and it did show that it was a
brand so I guess the older two surveys that I did where
I used more dot-com marks both showed that the mark
that I was testing was a brand.
In one case it supported what my client had
hoped for and one it didn’t.
Q. If both of those showed that it was a brand,
then why didn’t you use all dot-com marks here as well
to test the same [31] thing?
MR. MOSKIN:

Asked and answered.

A. Because my methodology is not based on what I
think is going to show a result that my client wants, it’s
based on what I think is the best methodology and just
as with confusion and secondary meaning surveys, I
have tried to continue to improve my designs over the
years as I do more and more surveys and become more
and more expert and so I did what has been the methodology that I now think with more experience doing
these is better.
Q. Did you conduct any internet searches in connection with this case?

308
A. I’m sure I did some kind of internet searches in
the process of thinking about what other terms could
be included in the survey.
Q.

Do you recall what you searched for?
* * * * *

309
UNITED STATES PATENT AND TRADEMARK OFFICE
TRADEMARK TRIAL AND APPEAL BOARD

Serial No. 79122365
Serial No. 79122366
IN RE BOOKING.COM B.V.
Hearing: Jan. 5, 2016
Mailed: Feb. 18, 2016:
Jonathan E. Moskin and Katherine Califa of Foley &
Lardner LLP for Booking.com B.V.
Caitlin Watts-Fitzgerald, Trademark Examining Attorney, Law Office 111 (Robert L. Lorenzo, Managing Attorney).
Before SHAW, ADLIN and MASIELLO, Administrative
Trademark Judges.
Opinion by MASIELLO, Administrative Trademark
Judge:
Booking.com B.V. (“Applicant”) filed two applications for extension of protection to the United States of
two International Registrations for the marks shown
below:

310
U.S. Serial No. 79122365

The colors dark blue and light blue are claimed as a
feature of the mark; 1 and
U.S. Serial No. 79122366

The colors dark blue, light blue, and white are
claimed as a feature of the mark. 2
The services identified in the two applications (as
amended) are the same:
Hotel reservation services for others; holiday accommodation reservation services and resort reservation services, namely, providing hotel room reservation services and resort hotel reservation services and providing online hotel and resort hotel
room reservation services; providing information
about hotels, hotel accommodations and resorts accommodations, whether or not based on the valuation of customers; information, advice and consulApplication Serial No. 79122365 was filed on November 7, 2012
under Trademark Act Section 66(a), 15 U.S.C. § 1141f(a), based on
International Registration No. 1140887 dated November 7, 2012.
2
Application Serial No. 79122366 was filed on November 7, 2012
under Trademark Act Section 66(a), 15 U.S.C. § 1141f(a), based on
International Registration No. 1140888 dated November 7, 2012.
1

311
tancy relating to the aforesaid services; the aforesaid services also provided electronically, in International Class 43.
In each case, the original Examining Attorney 3
refused the requested extension of protection under
Section 2(e)(1) of the Trademark Act, 15 U.S.C.
§ 1052(e)(1), on the ground that Applicant’s mark is
merely descriptive of Applicant’s services.
When
Applicant claimed, in the alternative, that Applicant’s
marks have acquired distinctiveness and are entitled to
registration under Section 2(f ), 15 U.S.C. § 1052(f ), the
Examining Attorney issued new refusals on the ground
that the marks are generic as applied to the services;
he also maintained, in the alternative, the mere descriptiveness refusals and found Applicant’s showings
of acquired distinctiveness to be insufficient. When
the Examining Attorney made each of the refusals
final, Applicant requested reconsideration and simultaneously appealed to this Board. The Examining
Attorney denied the request for reconsideration and
these appeals proceeded.
At Applicant’s request, these two cases were
consolidated with two other pending appeals of refusals to register the marks in Applicant’s related
applications Serial Nos. 79114998 and 85485097. 4
Applicant chose to address all four cases in a single
set of briefs, having been granted leave to exceed

The applications were examined through final refusal and Applicant’s request for reconsideration by Nelson B. Snyder, III of
Law Office 107. They were then assigned to the current Examining Attorney.
4
Board order of December 12, 2014, 10 TTABVUE.
3

312
the page limit for its main brief. 5 The cases are
fully briefed, including extra supplemental briefs
filed by both Applicant and the Examining Attorney.
An oral hearing was held January 5, 2016.
The evidentiary records in Serial Nos. 79122365
and 79122366 are essentially identical. Accordingly, we issue our decision regarding them in this single order. Our citations refer to the record in Serial No. 79122366 unless otherwise noted. The
other two of the four consolidated cases have somewhat different evidentiary records; separate decisions in those cases will issue in due course.
Applicant and the Examining Attorney have focused virtually all of their attention on the word
portion of Applicant’s marks, BOOKING.COM, with
little discussion of the color and design elements.
We too will first address the obviously more important word portion of the marks.
A mark is generic if it refers to the class or category of goods or services on or in connection with
which it is used. In re Dial-A-Mattress Operating
Corp., 240 F.3d 1341, 57 USPQ2d 1807 (Fed. Cir.
2001), citing H. Marvin Ginn Corp. v. Int’l Ass’n of
Fire Chiefs, Inc., 782 F.2d 987, 228 USPQ 528 (Fed.
Cir. 1986) (“Marvin Ginn”). The test for determining whether a mark is generic is its primary significance to the relevant public. In re Am. Fertility
Soc’y, 188 F.3d 1341, 51 USPQ2d 1832 (Fed. Cir.
1999); Magic Wand Inc. v. RDB Inc., 940 F.2d 638,
19 USPQ2d 1551 (Fed. Cir. 1991); and Marvin Ginn,
supra. Making this determination “involves a two5

Board order of January 30, 2015, 12 TTABVUE.

313
step inquiry: First, what is the genus of goods or
services at issue? Second, is the term sought to be
registered . . . understood by the relevant public primarily to refer to that genus of goods or services?” Marvin Ginn, 228 USPQ at 530. The Examining Attorney has the burden of establishing by
clear evidence that a mark is generic. In re Merrill
Lynch, Pierce, Fenner and Smith, Inc., 828 F.2d
1567, 4 USPQ2d 1141 (Fed. Cir. 1987); In re Am.
Fertility Soc’y, supra; and Magic Wand Inc., supra.
“Doubt on the issue of genericness is resolved in
favor of the applicant.” In re DNI Holdings Ltd.,
77 USPQ2d 1435, 1437 (TTAB 2005).
1.

The genus of Applicant’s services.

Applicant’s recitation of services describes, in a
variety of ways, lodging accommodation reservation
services, e.g. “hotel room reservation services,”
“holiday accommodation reservation services” and
“resort hotel reservation services,” including such
services provided “online” and “electronically.” It
also describes “providing information” and “information, advice and consultancy relating to the
aforesaid services.”
The Examining Attorney suggests that the genus
of the services is “hotel reservation services.” 6 Applicant contends that the relevant genus is the broader “travel agency services.” 7 Applicant argues that
the “information” and “information, advice and consultancy” services listed in the recitation “are all the
types of services that are typically provided by
6
7

Examining Attorney’s brief, 15 TTABVUE 8.
Applicant’s brief at 6, 13 TTABVUE 7.

314
travel agencies”; and argues that the designation
“travel agency services” is broad enough to cover all
of the identified services, while “the much narrower
and more specific alleged genus ‘hotel reservation
services’ covers . . . few of the services in Class
43.” 8
The identification of goods or services in an application defines the scope of rights that will be accorded the owner of any resulting registration under
Section 7(b) of the Trademark Act. Therefore,
generally, “a proper genericness inquiry focuses on
the description of services set forth in the [application or] certificate of registration.” Magic Wand,
19 USPQ2d at 1552, citing Octocom Sys., Inc. v.
Houston Computer Servs., Inc., 918 F.2d 937, 942,
16 USPQ2d 1783, 1787 (Fed. Cir. 1990). In this
case, the recitation of services in each application is
substantially more precise than the general term
“travel agency services.” Moreover, the words
“travel agency” are not used, and there is no reference to a fundamental element of typical travel
agency services, which is making arrangements for
transportation. We note the following dictionary
definitions:
travel agency:

“an office or enterprise engaged
in selling, arranging or furnishing information about personal
transportation or travel.”

2433 WEBSTER’S THIRD NEW INTERNATIONAL DICTIONARY (1993).

8

Applicant’s reply brief at 3-4, 16 TTABVUE 4-5.

315
travel agent:

“a person engaged in selling or
arranging personal transportation, tours, or trips.”

travel agency:

“a business that accommodates
travelers, as by securing tickets,
arranging for reservations, and
giving information.”

Id.

2014 RANDOM HOUSE DICTIONARY OF THE ENGLISH
LANGUAGE (2nd ed. 1987). 9
The recitations’ reference to “information, advice
and consultancy,” expressly related to the core
“aforesaid services” of helping customers to make
lodging reservations, does not convert the identified
services to travel agency services such as those offered by a full-scale travel agency. Therefore, the
genus of “travel agency services” is substantially
broader than the services set forth in the applications and would merely draw our attention away
from the more precise questions before us. We
note, moreover, that the evidence of record regarding Applicant’s actual activities does not show that
Applicant provides reservation services relating to
transportation.
Accordingly, focusing on the actual wording of
the recitations of services, the genus of Applicant’s
services is “hotel room reservation services and
The Board may take judicial notice of dictionary definitions.
Univ. of Notre Dame du Lac v. J.C. Gourmet Food Imp. Co.,
213 USPQ 594 (TTAB 1982), aff ’d, 703 F.2d 1372, 217 USPQ 505
(Fed. Cir. 1983).
9

316
other lodging reservation services, with related information, advice and consultancy, including such
services provided online.”
2. Public understanding of the term BOOKING.
COM.
We next consider whether BOOKING.COM
would be understood by the relevant public primarily to refer to the genus of hotel room and lodging
reservation services. The relevant public consists
of all persons having an interest in arranging a reservation for a room in a hotel, resort, or other lodging. The Examining Attorney’s refusal and supporting arguments focus almost exclusively on Applicant’s online reservation services, and we will do
the same. 10 Registration is properly refused if the
mark is generic with respect to any one of the services for which registration is sought. In re Analog
Devices, Inc., 6 USPQ2d 1808, 1810 (TTAB 1988),
aff ’d, 871 F.2d 1097, 10 USPQ2d 1879 (Fed. Cir.
1989) (unpublished); Cf. In re Stereotaxis Inc.,
429 F.3d 1039, 77 USPQ2d 1087, 1089 (Fed. Cir.
2005), quoting, Application of Richardson Ink Co.,
511 F.2d 559, 185 USPQ 46, 48 (CCPA 1975) (“Our
predecessor court . . . has stated that registration should be refused if the mark is descriptive of
any of the goods for which registration is sought”).
(a) Salient evidence of record.
With respect to the relevant public’s understanding of Applicant’s marks, the Examining AtWhile Applicant’s brief refers to its “brick and mortar services,”
13 TTABVUE 28, there is no evidence showing that Applicant’s
services are available otherwise than online.
10

317
torney and Applicant have made of record various
definitions of the word “booking,” including:
: an arrangement for a person or group (such as
a singer or band) to perform at a particular place
: an arrangement to have something (such as a
room) held for your use at a later time
. . .
:

RESERVATION 11
*

*

*

*

*

1. an arrangement to buy a travel ticket, stay in
a hotel room, etc. at a later date Increasingly,
travelers are using the Internet for both information and bookings.
You can make a booking on the
phone with a credit card.

make a booking:

2. an arrangement made by a performer to perform at a particular place and time in the future. 12
*

*

*

*

*

1. An engagement, as for a performance by an
entertainer.
2. A reservation, as for accommodations at a hotel. 13

<merriam-webster.com>, Office Action of November 16, 2013
at 61.
12
<macmillandictionary.com>, Office Action of November 16,
2013 at 64.
11

318
*

*

*

*

*

1. a contract, engagement, or scheduled performance of a professional entertainer.
2 reservation (def 5).
3. the act of a person who books. 14
*

*

*

*

*

an engagement, as for a lecture or concert. 15
The Examining Attorney has also made of record the
following definitions:
com:
ABBREVIATION COMPUTING

commercial organization: used in the email
and website addresses of companies. 16
.com:

*

*

*

*

*

abbr.
commercial organization (in Internet addresses). 17

<education.yahoo.com/reference/dictionary>, Office Action of
March 17, 2013 at 10-11.
14
<dictionary.reference.com>, Applicant’s response of May 15,
2014 at 47.
15
<collinsdictionary.com/dictionary/American>, Applicant’s response of May 15, 2014 at 43.
16
MACMILLAN DICTIONARY, at <macmillandictionary.com>,
Office Action of November 16, 2013 at 81.
13

319
*

*

*

*

*

.com (dot-com):

Part of the Internet address of many companies and organizations. It indicates that the
site is commercial, as opposed to educational
or governmental.
The phrase dot-com is used to refer
generically to almost anything connected to
business on the Internet. 18
Note:

The Examining Attorney has also made of record
excerpts from numerous websites that use the term
“booking” to describe Applicant’s online services and
similar online services of others. Such services have
been called (among other things):
Booking service; 19 hotel booking service; 20 booking
online; 21
Booking website; 22 booking sites; 23
THE AMERICAN HERITAGE DICTIONARY OF THE ENGLISH
LANGUAGE (Fifth ed. 2011), Office Action of November 16, 2013 at
154.
18
Definition at <dictionary.com>, Office Action of November 16,
2013 at 79.
19
“Expedia to pay Baltimore $1.6M,” Dolan Media Newswires,
June 20, 2011. Office Action of November 16, 2013 at 46-47.
“Online hotel brokers can proceed with Durham County, North
Carolina tax challenge,” Dolan Media Newswires, June 7, 2013,
Office Action of November 16, 2013 at 17-18.
20
“How to Get Spring Break Or Basketball Playoff Hotels at Up
To 50% Off,” University Wire, March 20, 2013, Office Action of
November 16, 2013 at 23-24.
21
“Booking Travel Online?,” Travel + Leisure, April 2008, Office
Action of November 16, 2013 at 147-8.
17

320
Hotel booking websites; 24 hotel booking site;25
hotel booking. 26
The record contains numerous other uses of the word
“booking” in similar contexts, in phrases such as
“online travel booking sites”;27 “online hotel-room booking company”; 28 “hotel-only booking sites”; 29 “finalize
the booking”; 30 “vacation-booking websites” and
“booking app”; 31 and “travel booking websites.” 32
Notably, Applicant’s own website uses “booking,” both as
a noun meaning a hotel reservation and as a verb
meaning to make such a reservation:
Our Vision
Booking.com is an informative, user-friendly website
—that guarantees the best available prices. Our
“How to Save Money When Booking Travel Online, at
<huffingtonpost.com>, October 22, 2103, Office Action of November 16, 2013 at 149-52. (at 151-2); <usatoday.com>, Office Action of
March 17, 2013 at 30-31.
23
<hotelpricescompare.com>, Office Action of March 17, 2013 at
13-14.
24
<frommers.com>, Office Action of March 17, 2013 at 8-9;
<hotelpricescompare.com>, Office Action of March 17, 2013 at
13-14; <budgettravel.com>, id. at 17-18.
25
<budgettravel.com>, Office Action of March 17, 2013 at 22-23.
26
<budgettravel.com>, id. at 17-18.
27
“Booking Travel Online?,” Travel + Leisure, April 2008, Office
Action of November 16, 2013 at 147-8.
28
“Expedia to pay Baltimore $1.6M,” Dolan Media Newswires,
June 20, 2011. Office Action of November 16, 2013 at 46-47.
29
<frommers.com>, Office Action of March 17, 2013 at 8-9;
30
<budgettravel.com>, id. at 22-23.
31
<cntraveler.com>, id. at 25-27.
3232
<usatoday.com>, id. at 30-31.
22

321
goal is to provide business and leisure travelers with
the most accessible and cost-effective way of discovering and booking the broadest selection of accommodations in every corner of the world. 33
Easily manage all your bookings 34
Applicant’s website sets forth a selection of available
hotels in various cities, indicating when the latest
“booking” was made at various hotels:
New York City
421 properties
. . .
Helmsley Park Lane Hotel * * * * from $230
Score from 2574 reviews. Very good, 8.1
Latest booking: 10 minutes ago
There are 26 people looking at this hotel
New York Marriott Marquis * * * * from $299
Score from 1042 reviews. Very good, 8.3
Latest booking: 2 hours ago
There are 16 people looking at this hotel 35
The Examining Attorney has made of record excerpts of websites whose domain names include the
designation “booking.com” or “bookings.com”:
Domain name

Nature of website

hotelbooking.com

website called hotelbooking.
com, offering “your best

33
34
35

<booking.com>, id. at 12 (emphasis added).
Id. at 35-36 (emphasis added).
Id. (emphasis added).

322
hotel web
gine.” 36

search

en-

francehotelbooking.com

website called Link Paris
.com, offering to “find you
a great Paris hotel” and
hotel search for other
French cities. 37

instantworldbooking.com

website called Instant
World Booking.com, offering “Online booking for
hotels, youth hostels, and
bed and breakfast accommodations at world heritage destinations.” 38

blinkbooking.com

website offering mobile
application called Blink:
“In just a few taps, you
can book a room in Europe’s best hotels:
it’s
39
that simple!”

cancunhotelbooking.com

website called Cancun
Hotel Booking.com offering “Cancun Hotel Reservation—Best
Price
Guarantee!” 40

Website at <hotelbooking.com>, Office Action of November
16, 2013 at 179-80.
37
Office Action of November 16, 2013 at 181-2.
38
Id. at 184-6.
39
Id. at 131-2.
40
Office Action of November 4, 2014 at 62.
36

323
drakehotelbookings.com

website of The Drake
Hotel,
with
function
marked “BOOK THIS
HOTEL.” 41

ezyhotelbooking.com

website of ezyHotelBooking, offering “Web based
booking software and
reservation manager for
your hotel.” 42

frbobookings.com

website of FRBObookings.com “Making Vacation Properties ‘For Rent
by Owner’ Easy.” 43

netbookings.com

website of NETBOOKINGS providing “Online
Availability and Reservation System options.” 44

roomsbooking.com

website called roomsbooking.com, with “Featured Hotel Deals.” 45

treehousebookings.com

website
of
Treehouse
Lodge, stating, “BOOK A
TREE HOUSE.” 46

41
42
43
44
45
46

Id. at 64.
Id. at 69.
Id. at 71.
Id. at 72.
Id. at 73.
Id. at 74.

324
Some of these websites make clear trade name use of
designations that include “booking.com,” as shown
below:

325

326
The record also includes evidence of domain names
that combine “.com” with various combinations of the
words “booking” or “book,” including the following: 47
Bookingcenter.com
Bookingplusinc.com
Bookingwiz.com
Hotelbookingsolutions.com
Fastbooking-hotels.com
Bookingbuddy.com
Ebookers.com
Hotelbook.com
Quikbook.com
Bookit.com
To demonstrate public understanding of BOOKING.
COM, Applicant has made of record and focuses heavily on a two-page, 2012 press release by J.D. Power &
Associates relating to its rankings of independent travel websites based upon a consumer survey, accompanied by a one-page chart. Neither the survey itself
nor any supporting or background material about the
survey is of record. Salient excerpts of the press
release are set forth below:

See id. at 59-74 and Office Action of November 16, 2013 at
130-174.
47

327
J.D. Power and Associates Reports:
Pricing Is the Strongest Driver of Satisfaction with
Independent Travel Websites

Booking.com Ranks Highest in Overall Satisfaction
among Independent Travel Websites
. . . Satisfaction with the price paid on a travel
website drives high overall satisfaction among consumers with their overall website experience, according to the J.D. Power and Associates 2012 Independent Travel Website Satisfaction ReportSM released today.
“
. . .
the highest-ranked travel websites in
overall satisfaction all have significantly higher price
satisfaction scores than the report average,” said
Sara Wong Hilton . . . “While other factors certainly affect overall satisfaction, 75 percent of online
travel website consumers indicate price as a primary
purchase reason, so there is no denying price greatly
impacts the overall website experience.”
The report measures consumers’ overall satisfaction
with their purchase experience on an independent
travel website, which consists of a vacation package,
flight, hotel or rental car. The report examines
seven factors (listed in order of importance): competitiveness of pricing; usefulness of information;
availability of booking/reservation options; website/
online store; ease of booking/reserving; competitiveness of sales and promotions; and contact with
customer service. . . .

328
Independent Travel Website Satisfaction Rankings

Booking.com ranks highest with a score of 816, performing particularly well in availability of booking/
reservation options; ease of booking/reserving; and
pricing. Following Booking.com in the rankings are
Hotwire.com (813) and Priceline.com (808).
The 2012 Independent Travel Website Satisfaction
Report is based on responses from 2,009 consumers
who made an online purchase from an independent
travel website in the past 12 months. . . . 48
The chart accompanying the press release is set forth
below: 49

48
49

Applicant’s response of September 17, 2013 at 31-32.
Id. at 33.

329

The press release is discussed in the declaration of
Applicant’s Director, Rutger Marinus Prakke, which
states:

330
Applicant’s BOOKING.COM service has received
numerous industry awards, including, for example:
-

J.D. Power and Associates, a premier research and analytics firm, ranked BOOKING.
COM First in Consumer Satisfaction among
independent travel websites based on a consumer survey (awarded in 2013); . . . 50

The Prakke Declaration also states that Applicant
has won awards for a 2013 advertising campaign; for
“Best Tablet App”; and “Best Mobile Site.” 51 It also sets forth figures for the following aspects of Applicant’s business:
-

countries served;

- accommodations-providers accessible via the
service;
- transaction value of accommodation reservations made (worldwide);
-

unique monthly U.S. visitors to website;

-

roomnights reserved daily (worldwide);

-

languages in which the service is offered;

- U.S.-based subscribers to Applicant’s newsletters;
- television channels on which commercials
have been aired;

Declaration of Rutger Marinus Prakke, ¶ 11, Applicant’s response of May 15, 2014 at 85.
51
Id.
50

331
- American consumers reached through commercials in movie theatres and streamed internet
commercials;
-

Facebook “likes” and “talking about”;

-

Twitter followers;

- number of unsolicited news articles found in a
Google News search. 52
Applicant also submitted a declaration from its legal
counsel Jaap van den Broek which contains color examples of web advertising; details of an advertising
campaign in partnership with Fandango.com (online
movie ticket vendor); references to unsolicited customer reviews; information regarding Applicant’s presence
on Twitter and Facebook; and information regarding
Applicant’s use of colors, logos and other marks. 53
(b)

Discussion.

It is clear from the dictionary definitions that an
accepted meaning of “booking” is a reservation for a
room in a hotel; and it is clear from the internet evidence that the term “booking” has been widely used to
describe the service of arranging reservations for hotel
rooms, as described in Applicant’s recitation of services
and as comprehended by the applicable genus.
Applicant contends that the dictionary definitions
show that the primary descriptive meaning of “booking” does not relate to travel, but instead to theatre
Id. at 83-90.
Declaration of Jaap van den Broek, Applicant’s response of
October 13, 2014 at 50-61. (Applicant apparently did not file certain exhibits referred to in the Broek declaration.)
52
53

332
bookings, referring to definitions such as “a contract,
engagement, or scheduled performance of a professional entertainer”; “An engagement, as for a performance by an entertainer”; and “an arrangement for a
person or group (such as a singer or band) to perform
at a particular place.” Applicant also refers to definitions from THE ONLINE SLANG DICTIONARY and
URBAN DICTIONARY showing that “book,” when used
as an adjective, may mean “cool,” that “to book” may
mean “to leave quickly,” and that “booking” may mean
“running really fast.” 54 Applicant argues:
The existence of alternate meanings of the wording
at issue precisely calls into question what is the “primary” significance of the term “booking” (not even
BOOKING.COM) to consumers. . . . Indeed, it is
fundamentally inconsistent for the Examiner both to
assert that the Board should give weight to dictionary definitions of the word “booking” while at the
same time telling the Board to shield its eyes from
some of those definitions (including the primary
definition) that undermine the Examiner’s argument. 55
Applicant’s arguments are unavailing. The question before us is the understanding of “the relevant
public,” which in this case consists of persons having an
interest in “hotel room reservation services and other
lodging reservation services, with related information,
advice and consultancy, including such services pro-

Applicant’s brief at 21, fn5, 13 TTABVUE 22, referring to
evidence submitted with Applicant’s Response of May 15, 2014 at
56-59.
55
Applicant’s reply brief at 12, 16 TTABUE 13.
54

333
vided online.” Those persons would be exposed to the
mark in the context of those services and, accordingly,
that is the context in which we must consider the primary meaning of the term at issue. In one of the most
lucid discussions of this point, Abercrombie & Fitch Co.
v. Hunting World, Inc., 537 F.2d 4, 189 USPQ 759 (2d
Cir. 1976), the Court acknowledged that in the spectrum of distinctiveness (generic/descriptive/suggestive/
arbitrary/fanciful) “a term that is in one category for a
particular product may be in quite a different one for
another, . . . [and] a term may have one meaning
to one group of users and a different one to others
. . . ,” 189 USPQ at 764; and that “a word may have
more than one generic use.” 189 USPQ at 766. 56 See
also Gear Inc. v. L.A. Gear California Inc., 670 F. Supp.
508, 4 USPQ2d 1192, 1197 (S.D.N.Y. 1987) (“that the
word ‘gear’ is more frequently used in its several other
meanings than as a term for wearing apparel” does not
save it from a finding of genericness for apparel; “the
term at issue is still generic if its principal meaning in
the relevant market is generic”), vacated in part, dismissed, 13 USPQ2d 1655 (S.D.N.Y 1989); In re ActiveVideo Networks, Inc., 111 USPQ2d 1581, 1588
(TTAB 2014) (meteorological meanings of “cloud” irrelevant as to whether CLOUDTV is generic for computer goods and services); and In re Rosemount Inc.,
86 USPQ2d 1436, 1439 (TTAB 2008) (“It is well established that we must look to the meaning of the term
within the context of the identified goods.”).
In Abercrombie, the word “safari,” as applied to apparel, was
at issue. The fact that “safari” had a specific meaning in the
unrelated context of “an expedition into the African wilderness”
did not prevent the Court from finding the term generic in the field
of fashion apparel. 18 USPQ at 766.
56

334
Applicant correctly points out that we must consider
each mark in its entirety. 57
Applicant argues that:
In each of the Office Actions, the Examiners have
submitted evidence showing descriptive use of
“booking” and “.com” separately as evidence that the
composite mark BOOKING.COM is generic. This
analytical structure sets a lower bar for genericness
for domain name marks than other marks, ignores
the realities of the marketplace and is contrary to
settled law.
There is no evidence whatsoever that consumers
isolate and separately consider “BOOKING” and
“.COM” in Applicant’s mark . . . 58
We do not agree that the Examining Attorney’s approach is improper. In In re Hotels.com LP, 573 F.3d
1300, 91 USPQ2d 1532 (Fed. Cir. 2009), in which the
mark HOTELS.COM was at issue, the Court said, “We
discern no error in the Board’s consideration of the
word ‘hotels’ for genericness separate from the ‘.com’
suffix.” 91 USPQ at 1535. The Court implicitly
approved the same approach in In re Reed Elsevier
Properties Inc., 77 USPQ2d 1649 (TTAB 2005), aff ’d,
82 USPQ2d 1378 (Fed. Cir. 2007), in which the Board
We must point out that the Examining Attorney was wrong to
say, in her brief, “Applicant is incorrect in its brief in claiming that
the required standard for a finding of genericness is that the
composite mark BOOKING.COM as a full phrase be generic.”
15 TTABVUE 12 (emphasis in original). The opposite is true: to
affirm the Examining Attorney’s refusal we must find that a mark,
in its entirety, is generic.
58
Applicant’s brief at 7, 13 TTABVUE 8.
57

335
considered separate dictionary definitions of “lawyer”
and “.com”; and the Court expressly approved this
approach in In re 1800Mattress.com IP LLC, 586 F.3d
1359, 92 USPQ2d 1682, 1684 (Fed. Cir. 2009) (“[T]he
Board considered each of the constituent words, “mattress” and “.com,” and determined that they were both
generic. . . . The Board then considered the mark
as a whole . . . ”). In all of these cases, the Court
held to be generic marks that were similar in structure
to Applicant’s marks on the basis of analysis and evidence that were highly similar to those now before us.
The fact that “booking” and “.com” appear in dictionaries separately, but not together, does not mean that
their combination cannot be generic. The relevant
analysis under Marvin Ginn is to determine what
relevant customers would understand from the combination of these two terms. As the Court stated in
Hotels.com, “the generic term ‘hotels’ did not lose its
generic character by placement in the domain name
HOTELS.COM.” 91 USPQ2d at 1535.
Addressing the term BOOKING.COM as a whole,
the Examining Attorney contends:
Each of the terms BOOKING and .COM has a clear
and readily understood meaning and the combined
term communicates just as clearly and directly that
Applicant operates a commercial website that provides its customers with booking information and
reservation booking services. 59
This contention is supported by the dictionary definitions, quoted above, indicating that “booking” means
Examining Attorney’s brief, 15 TTABVUE 13 (emphasis in
original).
59

336
“reservation” or “an arrangement to . . . stay in a
hotel room . . . ” and that “.com” is an abbreviation
meaning “commercial organization (in Internet addresses)” and is “Part of the Internet address [that]
indicates that the site is commercial . . . ” It is also
supported by the Internet evidence showing how third
parties use the words “booking” and the suffix “.com”;
and how they use the combination “booking.com” as a
component of domain names and trade names.
Applicant suggests that the question before us is as
follows:
the Examiners must show that the “primary significance” of BOOKING.COM “to the relevant consuming public” is simply to designate the genus or class
of services identified in the applications [citing
Magic Wand]. 60
[The question is whether] the entire term is used or
recognized by consumers to designate a genus of
goods or services and that the primary significance
of such usage is the generic designation. . . .
BOOKING.COM is not literally a genus or class
name, but it at most contains elements descriptive or
suggestive of the class. 61
The above formulations overstate the rule that we must
apply. Marvin Ginn does not require that the public
use a term to designate the genus; only that the public
understand the term to refer to the genus. Marvin
Ginn does not require that a term literally be the name
of the genus; only that it be understood primarily to
60
61

Applicant’s brief at 5, 13 TTABVUE 6.
Id. at 10, 13 TTABVUE 11.

337
refer to the genus.
1800Mattress.com:

This was restated in In re

The test is not only whether the relevant public
would itself use the term to describe the genus, but
also whether the relevant public would understand
the term to be generic. See H. Marvin Ginn,
782 F.2d at 990 (describing the test as whether the
term is “understood by the relevant public primarily
to refer to [the appropriate] genus of goods or services”). Thus, it is irrelevant whether the relevant
public refers to online mattress retailers as “mattress.
com.” Instead, as the Board properly determined,
the correct inquiry is whether the relevant public
would understand, when hearing the term “mattress.com,” that it refers to online mattress stores.
92 USPQ2d at 1685 (emphasis in original). Thus,
while it might be true that “it is impossible to use
BOOKING.COM in a grammatically coherent way to
refer generically to anything”; or that “it is not at all
logical to refer to a type of product or service as a
‘booking.com’ ”; 62 that does not mean that this term
could not be understood primarily to refer to an online
service for making bookings. In other words, the test
is not whether the public can use the term in a grammatically correct sentence, but whether the public
understands the term to refer to the genus.
The Examining Attorney’s contentions as to the
public’s understanding of the combination BOOKING.
COM are supported by the dictionary evidence; the
internet evidence showing how third parties use the
words “booking” and the suffix “.com”; and, perhaps
62

Id. at 12, 13 TTABVUE 13.

338
most importantly, the evidence of how third parties use
the combinations “booking.com” and “bookings.com” as
components of domain names and trade names in the
field of hotel reservations.
We must, however, balance the Examining Attorney’s evidence against Applicant’s evidence of public
perceptions, including the J.D. Power survey. Applicant argues:
It defies logic that consumers would rank BOOKING.
COM as the most trusted accommodations website if
consumers failed to recognize BOOKING.COM as a
source-identifier. Stated another way, if BOOKING.
COM merely designated a type or category of services, consumers would not be able to attribute any
particular level of quality to services offered under
the designation. This is plainly not the case . . . 63
It bears noting, before we proceed, that Applicant’s
characterization of the J.D. Power survey as showing
that Applicant is “the most trusted accommodations
website” is a substantial overstatement. As the press
release, quoted above, indicates, the survey related to
customers’ “satisfaction,” and trust was not one of the
seven factors measured by the survey. Even if we
were to accept the J.D. Power press release for the
truth of the matters asserted in it, 64 we find that it is at
best a very indirect demonstration of what relevant
customers understand “booking.com” to mean. The
Id. at 3, 13 TTABVUE 4.
“The Board generally takes a somewhat more permissive
stance with respect to the admissibility and probative value of
evidence in an ex parte proceeding than it does in an inter partes
proceeding.” TBMP § 1208.
63
64

339
press release tells us that survey subjects were asked
about seven factors—pricing; information provided;
booking options; the online “store”; ease of booking;
sales and promotions; and customer service—with
respect to specific travel websites. These are not the
types of questions that would be posed to subjects of a
typical genericness survey (e.g., a “Teflon” or “Thermos” survey), which would test whether subjects perceive a term as a brand or a generic term. E. I.
Du Pont de Nemours & Co. v. Yoshida Int’l, Inc.,
393 F. Supp. 502, 185 USPQ 597 (E.D.N.Y. 1975);
Am. Thermos Prods. Co. v. Aladdin Indus., Inc.,
207 F. Supp. 9, 134 USPQ 98 (D. Conn. 1962), aff ’d sub
nom. King-Seeley Thermos Co. v. Alladin Indus., Inc.,
321 F.2d 577, 138 USPQ 349 (2d Cir. 1963). What the
survey does tell us is that subjects had used Applicant’s
website and expressed a higher level of satisfaction
with it (based on some unknown combination of the
seven factors) than with other competing websites.
Although this survey tells us something about Applicant’s business success—i.e., that its customers are
highly satisfied—it says little or nothing about what
customers understand the term BOOKING.COM to
mean. (Even if the survey had posed more directly
relevant questions, the data presented to the Board are
extremely non-specific: we do not know the actual
questions that were posed to the survey subjects, nor
do we have their responses or a tabulation of their
responses, much less an expert’s opinion on the validity
and meaning of the survey’s results.)
We have considered all of Applicant’s evidence,
including the testimony in its representatives’ declarations and the exhibits thereto. These materials demonstrate the scope of Applicant’s business and the suc-

340
cess that Applicant has achieved in marketing its services. However, compared to the J.D. Power survey,
the information these materials provide is even farther
afield from the crucial question: whether customers
perceive BOOKING.COM as a brand or a generic term.
The fact that Applicant has served many customers, or
that its advertising and other communications have
reached many customers and potential customers, does
not answer this central question.
By contrast, the Examining Attorney’s evidence is
directly relevant to the question of public perception.
We accept the dictionary definitions as evidence of the
generally accepted meanings of the component terms
of Applicant’s mark; and the Internet evidence of actual third-party uses of the component terms and the
combined term “booking.com” is presented with sufficient context to allow us to understand the use and
public perception of these terms.
In Hotels.com, supra, where the USPTO relied on
evidence of genericness similar to the Examining Attorney’s evidence here, the applicant presented in
rebuttal a “Teflon” genericness survey showing that
76% of respondents perceived the term at issue as a
brand name; together with 64 declarations of individuals stating that the term was not generic. Noting the
Board’s critique of the survey, the Court found:
[O]n the entirety of the evidence before the TTAB,
and with cognizance of the standard and burden of
proof borne by the PTO, the TTAB could reasonably
have given controlling weight to the large number of
similar usages of “hotels” with a dot-com suffix, as
well as the common meaning and dictionary definition of “hotels” and the standard usage of “.com” to

341
show a commercial internet domain. We conclude
that the Board satisfied its evidentiary burden, by
demonstrating that the separate terms “hotel” and
“.com” in combination have a meaning identical to
the common meaning of the separate components.
The Board’s finding that HOTELS.COM is generic
was supported by substantial evidence.
91 USPQ2d at 1537. The applicant’s evidence in
Hotels.com was far more extensive and supportive of
allowing registration than is Applicant’s evidence in
this case.
In In re Reed Elsevier Properties Inc., 82 USPQ2d
1378 (Fed. Cir. 2007), the Court found evidence similar
to that in this case sufficient to demonstrate genericness:
[I]n determining what the relevant public would understand LAWYERS.COM to mean, the board considered eight websites containing “lawyer.com” or
“lawyers.com” in the domain name, e.g., www.
massachusetts-lawyers.com, www.truckerlawyers.
com, and www.medialawyer.com. It discussed the
services provided by these websites in order to illuminate what services the relevant public would understand a website operating under Reed’s mark to
provide. These websites are competent sources
under In re Merrill Lynch, 828 F.2d at 1570, and
they provide substantial evidence to support the
board’s finding.
82 USPQ2d at 1381. See also In re 1800Mattress.com
IP LLC, 92 USPQ2d at 1684 (“[H]ere, the Board permissibly gave controlling weight to the large number of

342
similar uses of ‘mattress.com’ as well as the common
meanings of ‘mattress’ and ‘.com.’ ”).
Applicant argues that the existence of “ample readily available terms for the genus of services, such as
‘travel agency’ (or even ‘travel site’ or ‘accommodation
site’)” constitutes “positive evidence the disputed term
is not generic.” 65 This is a fallacy. The existence of
numerous alternative generic terms does not negate the
genericness of any one of them. In 1800Mattress.com,
the Court said:
We also disagree with Dial-A-Mattress’s assertion
that there can only be one generic term, which is
“online mattress stores.” Instead, any term that
the relevant public understands to refer to the genus
of “online retail store services in the field of mattresses, beds, and bedding” is generic.
92 USPQ2d 1685. The cases upon which Applicant
relies, In re Dial-A-Mattress Operating Corp., 240 F.3d
1341, 57 USPQ2d 1807 (Fed. Cir. 2001); Elliott v.
Google Inc., 45 F. Supp. 3d 1156 (D. Arizona 2014); and
Salton, Inc. v. Cornwall Corp., 477 F. Supp. 975 (D.N.J.
1979), do not support the principle that Applicant posits; they do not hold that a failure to show competitive
need disproves genericness, but only that it lends no
support to a claim of genericness. In any event, in the
case before us there is evidence of competitors’ use of
the designations “booking.com” and “bookings.com” as
parts of trade names and domain names that describe
the nature of their services (e.g., “hotelbooking.com,”
“ezhotelbooking.com,” “drakehotelbookings.com,” and
“roomsbooking.com,” among others). If such busi65

Applicant’s brief at 6, 13 TTABVUE 7.

343
nesses could not use “booking.com” as a part of their
domain names or trade names, they would be meaningfully hampered in their ability to communicate the
nature of their online booking services. In Reed Elsevier, the Board relied on similar evidence, 77 USPQ2d
at 1657 (“In short, this case does not involve a perceived need for others to use a term, but involves a
demonstrated use of the term by others.”); and the
Federal Circuit subsequently affirmed the finding of
genericness. Reed Elsevier, 82 USPQ2d 1378.
Applicant argues that it is impossible for a term in
the form of a domain name, like “booking.com,” to
identify an entire class or genus of goods or services
precisely because “a specific URL can identify only one
entity.” 66 In fact, a URL points not to an entity, but
to one specific Internet address, which can be occupied
by any entity that secures the address by entering into
an arrangement with the registrar of that address. As
domain name registrations are not perpetual, Applicant
may be supplanted as the registrant of that Internet
address or may voluntarily transfer its domain name
registration. Moreover, Applicant’s argument ignores
the use of “booking.com” by third parties to identify
their internet addresses.
Applicant also argues that refusing to register its
mark would be contrary to the policies underlying
trademark law and the Trademark Act, stating that
Congress’s “two purposes” were (1) to protect the
public from source confusion; and (2) to protect a busi-

66

Applicant’s brief at 14; see also id. at 24, 13 TTABVUE 15, 25.

344
ness’s investment of energy, time, and money from
misappropriation by pirates. 67 Applicant argues:
Given the stature of the brand among consumers,
the purposes of trademark law are advanced by
permitting Applicant to protect its great investment
in its mark and to protect consumers against the
confusion that would inevitably result if others were
free to copy the name. Denying registration to the
most trusted brand in the field undermines the purposes of trademark law by betraying the trust consumers place in the brand. 68
Applicant’s policy argument addresses the reasons for
protecting marks, but neglects to mention the policy
underlying the legal exclusion of generic matter from
the category of “marks.” That policy is based upon
concerns relating to fair competition:
Generic terms, by definition incapable of indicating
sources, are the antithesis of trademarks, and can
never attain trademark status. [Citation omitted.]
The reason is plain:
To allow trademark protection for generic terms,
i.e., names which describe the genus of goods being sold, even when these have become identified
with a first user, would grant the owner of the
mark a monopoly, since a competitor could not
describe his goods as what they are.
In re Merrill Lynch, 4 USPQ at 1142, quoting CES
Publ’g Corp. v. St. Regis Publ’ns, Inc.., 531 F.2d 11, 188
USPQ 612, 615 (2d Cir. 1975) (emphasis added). See
67
68

Id. at 18, 13 TTABVUE 19.
Id. at 3, 13 TTABVUE 4.

345
also In re Pennington Seed Inc., 466 F.3d 1053, 80
USPQ2d 1758, 1763 (Fed. Cir. 2006). As in Merrill
Lynch, courts have repeatedly noted the possibility
that a business might invest in, and acquire name
recognition in, an unprotectable generic term:
[N]o matter how much money and effort the user of
a generic term has poured into promoting the sale of
its merchandise and what success it has achieved in
securing public identification, it cannot deprive
competing manufacturers of the product of the right
to call an article by its name.
Abercrombie & Fitch, 189 USPQ at 764, citing J.
Kohnstam, Ltd. v. Louis Marx and Co., 280 F.2d 437,
126 USPQ 362, 364 (CCPA 1960) (emphasis added).
While it is always distressing to contemplate a situation in which money has been invested in a promotion in the mistaken belief that trademark rights of
value are being created, merchants act at their peril
in attempting, by advertising, to convert common
descriptive names, which belong to the public, to
their own exclusive use. Even though they succeed
in the creation of de facto secondary meaning, due to
lack of competition or other happenstance, the law
respecting registration will not give it any effect.
Weiss Noodle Co. v. Golden Cracknel and Specialty Co.,
290 F.2d 845, 129 USPQ 411, 414 (CCPA 1961) (emphasis added).
Applicant seeks to demonstrate that the USPTO has
registered numerous marks in the form of a domain
name in which a generic term is combined with a

346
top-level domain indicator like “.com.” 69 Such demonstrations of purportedly inconsistent conduct of the
USPTO are not persuasive, because we must decide
each case on its own merits, In re Owens-Corning
Fiberglas Corp., 774 F.2d 1116, 1127, 227 USPQ 417,
424 (Fed. Cir. 1985), and are not bound by the
USPTO’s allowance of prior registrations. In re Nett
Designs Inc., 236 F.3d 1339, 57 USPQ2d 1564, 1566
(Fed. Cir. 2001). In any event, in this case the proffered registrations do not support Applicant’s position.
That is, the purportedly “generic” terms are registered
not for the services that the terms directly identify, but
for other services that are obliquely related to the
terms. For example, ENTERTAINMENT.COM is
not registered for providing entertainment of any kind,
but for advertising services, promoting the goods and
services of others, and discount programs. Reg. No.
4294532, registered under Section 2(f ). 70
Applicant compares the present case to In re Steelbuilding.com, 415 F.3d 1293, 75 USPQ2d 1420 (Fed.
Cir. 2005), in which the Court reversed the Board’s
finding that STEELBUILDING.COM was generic.
In that case, evidence before the Court persuaded it
that the applicant’s services, as identified in the application, included not only the retail sale of steel buildings but also the online, interactive design and manufacture of structures made of steel; and that in that
context customers would appreciate the dual meaning
of “steelbuilding” as used in the applicant’s mark (i.e., a
building made of steel and the process of designing and
Id. at 24-25, 13 TTABVUE 25-26; and Applicant’s response of
May 15, 2014 at 67-83.
70
Applicant’s response of May 15, 2014 at 79.
69

347
constructing a structure with steel). In this case,
Applicant urges that its services are not merely reservation services but also include “soliciting and collating
user-generated content such as reviews of lodgings and
other travel related items”; and that customers would
appreciate that BOOKING.COM “conveys much more
than mere ‘reservation’ services.” 71 We do not agree
that, in the context of Applicant’s identified services,
customers would perceive any ambiguity or dual
meaning in the term BOOKING.COM. Rather, in
that context, BOOKING.COM would be obviously and
immediately understood as having the meaning of booking lodgings through an internet service.
We therefore find that the Examining Attorney’s
dictionary and usage evidence demonstrates, prima
facie, that relevant customers would understand the
term BOOKING. COM to refer to an online reservation
service for lodgings; and that Applicant’s evidence of
its business success and high level of customer satisfaction does not rebut this showing. To complete our
consideration of Applicant’s marks in their entireties,
we next consider whether the design elements of the
marks would justify registration notwithstanding our
finding that BOOKING. COM is generic for the identified services.
3.

The design elements of the marks.

If the design elements of Applicant’s marks were
found to be distinctive, whether inherently or through
acquired distinctiveness, registration of the marks on
the Principal Register would be permissible, provided
that Applicant were to disclaim the exclusive right to
71

Applicant’s brief at 27, 13 TTABVUE 28.

348
use the wording of the marks. (Applicant has not
requested a registration in such form, nor indicated
any willingness to enter such a disclaimer.) One of
Applicant’s marks is presented in stylized letters in two
colors and the other is presented in stylized letters
with a rectangular “carrier,” in three colors. We must
decide whether these design and color elements are
sufficiently distinctive, whether inherently or through
acquired distinctiveness, to create a commercial impression separate and apart from the generic term
BOOKING.COM. In re Northland Aluminum Prods,
Inc., 777 F.2d 1556, 227 USPQ 961 (Fed. Cir. 1985)
(“The Board also correctly found that the form of the
lettering of the mark is ‘not so distinctive as to create a
commercial impression separate and apart from the
term BUNDT.’ . . . The record is devoid of evidence of public recognition of this overall format as a
trademark.” [citing G. D. Searle, 360 F.2d at 655-656,
149 USPQ at 623]); see also In re Cordua Rests. LP,
110 USPQ2d 1227, 1232 (TTAB 2014) (“[T]he display of
Applicant’s mark, consisting primarily of stylized letters, does not make the applied-for matter registrable,
despite the genericness of the term CHURRASCOS,
since it does not create a separate commercial impression over and above that made by the generic term.”).
The lettering in which the marks are presented is
conventional. There is no evidence of record indicating that the font has style elements that are unusual in
any way; if there are any refinements in the font that
could distinguish it from conventional lettering styles,
they consist only of a slight rounding of the corners of
the letters. Customers would not recognize the style
of lettering as an indicator of source. The blue rectangular carrier in one of the marks is extremely con-

349
ventional and certainly would not be perceived as a
source-indicating element. The color schemes of light
blue and dark blue; and of light blue, dark blue, and
white are, inherently, insufficiently distinctive to indicate source. All of the design and color elements,
considered together, are, inherently, not so distinctive
as to create a commercial impression separate and
apart from the term BOOKING.COM.
Applicant has submitted a substantial amount of
evidence to show that BOOKING.COM has allegedly
acquired distinctiveness, but none of it focuses on the
design and color elements of the marks; it does not
demonstrate that the color or design elements have
received particular notice or have developed market
recognition as an indicator of Applicant as the source of
services. We find that the respective design elements
of the two marks at issue are not, in themselves, distinctive and that they therefore do not justify registration of the marks.
4.

The refusal, in the alternative, on grounds of mere
descriptiveness.

Bearing in mind the possibility that our finding that
Applicant’s marks are generic may be reversed on
appeal, we find it appropriate to consider the Examining Attorney’s refusal to register the marks on the
ground that they are merely descriptive of Applicant’s
services and that Applicant has failed to demonstrate
that they have acquired distinctiveness.
The dictionary and usage evidence submitted by the
Examining Attorney demonstrates, at the very least, that
BOOKING.COM is highly descriptive and would require significant evidence of acquired distinctiveness in

350
order to allow registration of the two marks. Yamaha
International Corp. v. Hoshino Gakki Co., 840 F.2d
1571, 6 USPQ2d 1001 1008 (Fed. Cir. 1988) (The kind
and amount of evidence of acquired distinctiveness
required to secure a registration will necessarily vary
with the subject matter for which registration is
sought.).
Applicant’s evidence of acquired distinctiveness
focuses on the wording BOOKING.COM and does not
address the specific stylized marks at issue in this
appeal. Applicant has made of record the following
evidence showing the scope and success of its business
in the field of reservations for hotels and other lodging:
•

The J.D. Power survey discussed above.

•

The Prakke declaration stating that Applicant
commenced use of BOOKING.COM in June, 2006;
that Applicant’s websites have averaged 10.3 million unique visitors from the United States per
month; that there are over 2.2 million U.S.-based
subscribers to Applicant’s newsletters, which are
distributed two or three times per month; that Applicant has advertised extensively on television, the
internet, and in movie theatres; that in the first
quarter of 2013, its movie theatre commercials
reached over 20 million U.S. consumers; and its
streamed advertisements on third-party internet
websites reached 19 million U.S. consumers; and
that Applicant’s services under the BOOKING.
COM mark have received notice in the press and in
the hospitality and advertising industries. Mr.
Prakke also states his belief that BOOKING.COM
“is recognized as a source-identifier and has become distinctive of Applicant’s services through its

351
substantial sales and great commercial success, as
well as its substantially exclusive and continuous
use of the mark in U.S. Commerce for many years.”
The declaration states the number of roomnights
booked daily (625,000) and the transaction value of
its reservations in 2012 and 2013 (exceeding $3 billion and $8 billion, respectively); however, these
figures are not limited to services provided to U.S.
customers. The declaration also sets forth figures
for Twitter followers and Facebook “likes,” but
again these are not limited to U.S. persons.
•

Information (submitted as exhibits to the Prakke
declaration) regarding Applicant’s receipt of a Gold
level Adrian Award from Hospitality Sales &
Marketing Association International; and “Best
Tablet App” and “Best Mobile Site” awards for
2014 from Mobile Travel & Tourism.

•

Five news items taking note of Applicant’s business (from NBCNews.com; Orlando Business
Journal; Adweek; Los Angeles Times; and Hospitality Net).

This evidence would not under any circumstances
render a generic term registrable. See In re Northland Aluminum Prods., Inc., supra. Assuming for
the sake of analysis that Applicant’s marks are not
generic, but highly descriptive, we must consider
whether the evidence suffices to render them registrable under Section 2(f ).
The Examining Attorney’s evidence showing that
third parties make use of the term “booking.com” in
their trade names and domain names seriously undercuts Applicant’s claim to have made “substantially

352
exclusive” use of the term, as well as Applicant’s claim
to have acquired distinctiveness. See Levi Strauss &
Co. v. Genesco, Inc., 742 F.2d 1401, 222 USPQ 939,
940-1 (Fed. Cir. 1984) (“When the record shows that
purchasers are confronted with more than one (let
alone numerous) independent users of a term or device,
an application for registration under Section 2(f ) cannot be successful, for distinctiveness on which purchasers may rely is lacking under such circumstances.”); and In re Boston Beer Co. L.P., 198 F.3d 1370, 53
USPQ2d 1056, 11058 (Fed. Cir. 1999) (“The examples
of use of the phrase by others in its descriptive form
support the board’s conclusion that the mark had not
acquired distinctiveness.”) Such evidence confirms
what is suggested by the evidence of the meanings of
the terms “booking” and “.com” and the ways in which
people use these terms: that is, the combination of
these terms not only appears to be a likely way for
people to describe reservation services provided online,
but has actually already been adopted for that purpose
by businesses in Applicant’s field.
In view of the highly descriptive nature of Applicant’s marks and the actual use of BOOKING.COM in
the marketplace by third parties, very strong evidence
of acquired distinctiveness would be required to render
the marks registrable. We find Applicant’s demonstration of its business success to be insufficient for this
purpose, especially because it does not focus on demonstrating actual market recognition of BOOKING.COM as
a source indicator. The press notices are few in number, and while one of them refers to Applicant as a
“[h]otel booking giant,” the same article also states,
“even though many Americans are unfamiliar with the
brand, Booking.com is the largest hotel-booking site in

353
the world . . . ” 72 The record contains no statements by customers indicating the degree of their
recognition of the term as Applicant’s source-indicator;
and the record has very few examples of Applicant’s
advertising materials to show how Applicant has
sought to replace, in the minds of consumers, the general descriptiveness of the term with an impression of
single-source identification. The press release relating to the J.D. Power survey, which neither sets forth
the questions asked nor the answers received from the
survey respondents, does not present the unmediated
views of consumers, but merely an undetailed digest of
their responses, indicating general satisfaction with
Applicant’s services. Considering that the structure
of the term BOOKING.COM indicates that it refers to
an internet address, the survey does not show that
customers recognize BOOKING.COM as a single-source
indicator, but only that they were satisfied with the
services provided at a particular internet address.
Overall, we find Applicant’s evidence to be too sparse
and equivocal to indicate that a term as highly descriptive as BOOKING.COM has acquired distinctiveness
under Section 2(f ). We therefore affirm the Examining
Attorney’s refusal to register Applicant’s marks on the
ground that they are merely descriptive and that Applicant has failed to demonstrate that they have acquired distinctiveness within the meaning of Section
2(f ).
Decision: The refusal to register Applicant’s marks
is AFFIRMED on the ground that they are generic as
applied to Applicant’s services; and on the ground
72

ed).

Applicant’s response of May 15, 2014 at 106-7 (emphasis add-

354
that they are merely descriptive of Applicant’s services
and have not been shown to have acquired distinctiveness.

355

356
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION

BOOKING.COM B.V., PLAINTIFF
v.
MICHELLE K. LEE, UNDER SECRETARY OF COMMERCE
FOR INTELLECTUAL PROPERTY AND DIRECTOR OF
THE UNITED STATES PATENT AND TRADEMARK
OFFICE, ET AL., DEFENDANTS
Nov. 14, 2016
DEPOSITION OF SARAH-JANE LESIE Ph.D.

* * * * *
[5]
PROCEEDINGS
WHEREUPON,
SARAH-JANE LESLIE, PH.D.
called as a witness, and having been first duly sworn,
was examined and testified as follows:
EXAMINATION BY COUNSEL
FOR DEFENDANTS
BY MS. WALKER:
Q Good morning, Dr. Leslie.
state your name for the record.
A

Sarah-Jane Leslie.

Could you please

357
Q

And can you spell that for me, please.

A Sarah Jane is S-A-R-A-H, hyphen, J-A-N-E,
and Leslie is L-E-S-L-I-E.
Q

And what is your business address?

A My business address is Room 223 in 1879 Hall,
Princeton University, Princeton, New Jersey 08544.
Q And is that where you are appearing this
morning?
A

Correct.

Q Thank you.
before, Dr. Leslie?

Have you ever been deposed

[6]
A

I have not.

Q I like to go over procedures just to make sure
that we’re on the same page. One of the most important things today because you’re appearing by telephone is for you to speak clearly and loudly.
A

Uh-huh.

Q And I also want to just go over some rules so
that you understand what’s going to happen. I’m
going to ask you a series of questions. You should
answer those questions to the best of your ability. If I
ask you a question you don’t understand or you need
clarification, please feel free to ask me to rephrase it or
clarify it. Do you understand that?
A

Okay.

I do.

Q One of the other very important things about
any deposition and especially a telephone deposition is
to let me completely finish my question before you

358
begin speaking. Otherwise the court reporter can’t
record my question or your answer. Do you understand that?
A

I do.

Q If you need a break for anything, just let [7] me
know. I’ll ask you to answer any outstanding question
before we take a break. Do you understand that?
A

I do.

Q Is there any reason that you might not be able
to give complete and accurate answers to the questions
I’ll be asking you today?
A

No.

Q Okay. Dr. Leslie, do you have any materials in
front of you right now?
A I have the materials that you shared with Jonathan for this purpose.
Q Okay. And I would ask that you just put those
to the side right now and that you not reference any
materials unless I specifically ask you to do so. Do
you understand that?
A

Yes.

Q How many hours would you estimate that you
spent working on this case?
A I believe it was approximately 35 hours.
would need to double check to be certain.
Q Okay. Thank you.
prepare for this deposition?

I

What did you do to [8]

A I read the case documents that were provided
to me by Jonathan.

359
Q

And what do you mean by case documents?

A

The decisions that had been made previously.

Q Are those the decisions made by the Trademark
Trial and Appeal Board?
A

Correct.

Q

And no other decisions; is that correct?

A

Correct.

Q So the only documents reviewed in anticipation
of this deposition were the Trademark Trial and Appeal Board decisions?
A

Correct.

Q Speaking more generally, other than the documents you referenced in the report, did you review any
other documents in connection with this case?
A

No.

Not specifically.

No.

Q I’d like to ask you some questions about your
education and experience. What was the subject [9] of
your Ph.D.?
A The subject of my Ph.D. was generic generalizations, their semantics and the cognition of them.
Q

What do you mean by generic generalizations?

A I mean generalizations of the form ravens are
black, ducks lay eggs, ticks carry Lyme disease. They
are generalizations articulated in language that don’t
answer the question of how much or how many.
Q And are those sometimes—have you—excuse
me. Have you referred to what you just referred to as
generic generalizations as generics?

360
A

Yes.

Q And is that a common usage of the word “generics?”?
A

Absolutely.
MR. MOSKIN:

Object to form.

BY MS. WALKER:
Q

And I’m sorry.

Can you repeat that answer?

[10]
MR. MOSKIN: That’s okay. You can answer. I’m just stating an objection to the—the form is
ambiguous. You can answer.
A That term “generics” is commonly used in philosophy linguistics and psychology to describe those
particular statements.
BY MS. WALKER:
Q Have you ever—have you done any research on
generic terms in the trademark context?
A

I have not.

Q Can you explain to me the difference between a
generic term and a descriptive term in the trademark
context?
A That is something that I have learned for the
purposes of this case. I’m not sure that I am best
placed to articulate that legal distinction.
Q So you had no prior knowledge before this case
about the distinction between a generic term and a
descriptive term; is that correct?
A

Correct.

In the legal sense, that is correct.

361
Q

In any other sense?

[11]
A Those terms are used in linguistics in somewhat
different ways, related but different ways than they are
used in the legal context.
Q Dr. Leslie, I’m going to have marked as Exhibit
1 your expert report. If you could now turn to that.
A
cation.)

Okay.
(Leslie Exhibit No. 1 was marked for identifi(Discussion off the record.)

MS. WALKER: She asked me if I wanted the
deposition exhibit marked as 1 or Leslie 1 and I identified it as Leslie 1.
MR. MOSKIN:
That’s absolutely fine.
Again, I just wanted you to know since we’re not all
together.
MS. WALKER: Sure.
you for letting me know.

I understand.

Thank

BY MS. WALKER:
Q Dr. Leslie, if you could turn to Paragraph 86 of
your report.
A

All right.

Yes.

[12]
Q That paragraph starts out, In view of all the
documentation and information provided to me. Can
you explain to me what the documentation and information was—that was provided to you?

362
A

That was what is listed in Section III.

Q So the information and documentation that
you’re referring to in Paragraph 86 is just the three
Trademark Trial and Appeal Board decisions; is that
correct?
A

Correct.

Q

Can you turn to Paragraph 11 for me, please?

A

Yes.

Q Paragraph 11 states, I also understand that
there have been conflicting findings as to whether
certain trademarks that also serve as domain names
are generic or descriptive.
How did you come to that understanding?
A

That was through conversation with Jonathan.

Q And you have no other basis for that understanding; is that correct?
[13]
A

That is correct.

Q So you couldn’t tell me what, for example, In re
Hotels.com was about, could you?
A My understanding, though I have not read the
case, is that that was a decision about trademarking
about a particular name.
Q And that would be true for each of the cases
listed in that paragraph; your understanding as to
those cases came from counsel? Is that correct?
A

That is correct.

363
Q Do you know what the Trademark Trial and
Appeal Board is?
A I learned of it from this case.
ously know what it was.

I didn’t previ-

Q Has any of your research, prior research addressed the concept of a genus?
A The concept of a genus as it is used in biology
or in philosophy, yes; in the legal sense, no.
Q

And what is a genus in terms of philosophy?

[14]
A A genus in terms of philosophy would be a sort
of higher-level collective of which there are particular
instances.
Q And is that the genus that you’re referring to in
your report?
A Yes. So perhaps you could give me a particular example so I could answer most accurately.
Q

Well, can you give me an example?

A Well, you’re saying that I used that word in the
report.
Q

Oh, I’m sorry.

I understand.

Well—sure.

So Paragraph 14—
A

Okay.

Q

—the third sentence—

A

Yes.

Q

—begins with, I have also been asked to.

A

Uh-huh.

364
Q And that sentence ends with, refer to a genus or
some other thing entirely.
A So in that I mean it in the philosophical [15]
sense also similar to the biological sense whereby
that’s, as it were, a higher-level kind of category that
has particular instances rather than being a first-order
individual.
Q So can you give me an example of something
that is a genus?
A Something that would be a genus would be
ducks, for example.
Q

And what would be a generic for ducks?

A Ducks lay eggs. I want to be clear that I mean
generic there, again, in the philosophical/linguistic
sense.
Q So if we are talking about the genus that you
identified in your report, for example, in Paragraph 41,
online service for making bookings, what is a generic—
A

Let me just find Paragraph 41.
41.

Okay.

I found it.

Q Thank you. So the genus that you identify in
Paragraph 41 is online service for making bookings.
A

Correct.

[16]
Q

What is a generic for that genus?

A A generic for that genus would be something
like online services for making travel or hotel bookings
are useful.

365
Q So the word “booking” would not be generic for
online service for making bookings; is that correct?
A It could be.
bookings are useful.

One could say something like

Q But you would need that whole phrase in order
for it to be considered a generic?
A

Not necessarily.

Q

When would you not need that whole phrase?

A As I say, if one says, for example, bookings are
useful things to have.
Q

Is it possible to have a single-word generic?

A It is possible if the term is what we call a mass
term. So, for example, an instance of that would be
furniture or water. So you might say, water is healthy
to drink, and that would be a generic even though it’s
just one word. However, [17] mass terms are very
distinctive semantic properties. For example, it’s
always appropriate to use an additional word to pick
out a portion of them. So, for example, one might say
instances of water are composed of H2O molecules.
One might say, pieces of furniture are necessary for
furnishing a home, so on and so forth.
So there’s a very specific way of identifying
these mass terms. If we do not have a mass term,
then a generic does require either multiple words or a
plural marking.
Q And I’m sorry. I’m having a little bit of trouble understanding. Are you saying mass, M-A-S-S, or—
A

Correct, M-A-S-S.

366
Q Thank you. So I asked you for an example of a
single-word generic, and I thought I understood that
you said your example was water is healthy. Was that
your example?
A So water there are figures of a single term in
the subject position.
Q I see. But the entire generic would be [18] the
phrase “water is healthy”; is that correct?
A As the term “generic” is used in philosophy and
linguistics, that is correct.
Q And is your report relating to how the term
“generic” is used in philosophy and linguistics?
A I took the trouble to understand to the best of
my ability how it’s being used in the legal point of view,
and I do understand that that is a somewhat different
sense, an extended sense if you like whereby it would
not be required to figure an entire sentence.
Q But you don’t have any expertise in the legal
point of view; is that correct?
A

I do not.

Q Dr. Leslie, do you have any expertise in the
travel industry?
A

In the what?

Q

Sorry.

Excuse me—

MR. MOSKIN:
A

No.

Travel.

367
BY MS. WALKER:
[19]
Q

I’ll just ask that again so we’re clear.

You are not an expert in the travel industry; is
that correct?
A I am not an expert in the travel industry. I
was asked to give my opinion in this matter as pertains
to uncontroversial linguistic principles pertinent to this
case. That’s the entire scope of my contribution.
Q

I understand.

Thank you.

Can you turn to Paragraph 75 of your report?
A

Yes.

Q The second sentence in that paragraph says, An
immense publicity campaign has succeeded in conditioning the purchasing public to make certain associations with the use of that term, and that term refers to
Travelocity.com.
A

Uh-huh.

Q

How did you reach that conclusion?

A

That seems to me just common knowledge.

Q What did you do to confirm that common
knowledge?
[20]
A I drew upon my experiences as a member of the
purchasing public having been subjected to Travelocity’s publicity campaign.
Q So you made that comment just as a layperson;
isn’t that correct?

368
A

Yes.

Q Dr. Leslie, if you applied the same analysis in
your report that you applied to Booking.com—
A

Uh-huh.

Q —are there any .com terms that you would
consider generic?
A I wasn’t asked to consider the entire range of
possibilities here. That was not something that I
spent time considering.
Q But if you follow your analysis, can you think of
any examples where a .com term would be generic?
A

Not at this time.

Q Dr. Leslie, you were provided a copy of one of
your articles, the title of which begins Do All Ducks
Lay Eggs.
[21]
A

Correct.

Q Can you turn to that. I’m going to have that
marked as Exhibit—Leslie Exhibit 2.
cation.)

(Leslie Exhibit No. 2 was marked for identifi-

BY MS. WALKER:
Q That’s been marked as Leslie Exhibit 2. Dr.
Leslie, is that article an example of your research on
generics?
A

It is.

Q

Thank you.

369
MS. WALKER:
a five-minute break?

Jonathan, can we take about

MR. MOSKIN:

Fine with me.

MS. WALKER:

Thank you.

(Whereupon, a brief recess was had.)

onds.

MS. WALKER:

I have no further questions.

MR. MOSKIN:

Oh, okay.

MS. WALKER:

Sure.

MR. MOSKIN:
Leslie either.

Give me two sec-

I have no questions for Dr.

[22]
MS. WALKER:

Okay.

THE WITNESS:
MS. WALKER:
Jonathan?

Thanks very much.

Thank you.
I’m sorry.

Read or waive,

MR. MOSKIN:
We’ll review.
waiving the right to read the transcript.

We’re not

(Whereupon, at 9:58 a.m., the deposition of
SARAH-JANE LESLIE, PH.D., was concluded.)
*

*

*

*

*

